<html>
<title> - NOMINATION OF ANTONY J. BLINKEN TO BE SECRETARY OF STATE--PART I</title>
<body><pre>[Senate Hearing 117-4]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 117-4

                  NOMINATION OF HON. ANTONY J. BLINKEN TO
                    BE U.S. SECRETARY OF STATE_PART I

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 19, 2021

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov

                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-890 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        
                 One Hundred Sixteenth Congress        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                COMMITTEE ON FOREIGN RELATIONS          
                One Hundred Seventeenth Congress        

            ROBERT MENENDEZ, New Jersey, Chairman          
BENJAMIN L. CARDIN, Maryland           JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire          MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware         RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut        MITT ROMNEY, Utah
TIM KAINE, Virginia                    ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts        RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                   TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey             JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                   TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland             MIKE ROUNDS, South Dakota
                                       BILL HAGERTY, Tennessee
                Jessica Lewis, Staff Director          
       Christopher M. Socha, Republican Staff Director          
                   John Dutton, Chief Clerk          

                              (ii)        

                          C O N T E N T S

                              ----------                              
                                                                   Page

                                 PART I

Risch, Hon. James E., U.S. Senator from Idaho....................     1


Durbin, Hon. Richard J., U.S. Senator from Illinois..............     2


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     6


Blinken, Antony J., of New York, Nominated to be Secretary of 
  State..........................................................     9

    Prepared statement...........................................    11


              Additional Material Submitted for the Record


Statements Submitted to the Committee Supporting Hon. Antony J. 
  Blinken's Nomination to be Secretary of State--[Submitted for 
  the Record by Senator Robert Menendez].........................    85


Remarks Made in the Senate by Senator John McCain Opposing the 
  Confirmation of Antony J. Blinken to be Deputy Secretary of 
  State--December 16, 2014--[Submitted for the Record by Senator 
  John Barrasso].................................................   121


Questions Submitted for the Record by Senator James E. Risch

    Responses to Questions Submitted Prior to the Hearing of 
      January 19, 2021 to Hon. Antony J. Blinken by Senator James 
      E. Risch...................................................   129


    Responses to Follow-Up Questions Submitted Prior to the 
      Hearing of January 19, 2021 to Hon. Antony J. Blinken by 
      Senator James E. Risch.....................................   141


    Questions Submitted to Hon. Antony J. Blinken by Senator 
      James E. Risch--[as originally submitted--questions only]..   155


    Responses to Questions Submitted to Hon. Antony J. Blinken by 
      Senator James E. Risch--Secretary-Designate Blinken's First 
      Responses to Senator Risch's Questions.....................   281


    Responses to Questions [Questions #1 to #167] Submitted to 
      Hon. Antony J. Blinken by Senator James E. Risch--
      Reformatted and Resubmitted to Senator Risch [continued in 
      Part II]...................................................   473


                                PART II

    Responses to Questions (Questions #168 to #472] Submitted to 
      Hon. Antony J. Blinken by Senator James E. Risch--
      Reformatted and Resubmitted to Senator Risch [continued 
      from Part I]...............................................   703


    Responses to Questions Resubmitted to Hon. Antony J. Blinken 
      by Senator James E. Risch..................................  1055


Responses to Questions Submitted for the Record to Hon. Antony J. 
  Blinken by Other Members of the Committee......................  1297



                                 (iii)

 
                    NOMINATION OF ANTONY J. BLINKEN 
                    TO BE SECRETARY OF STATE--PART I

                              ----------                              


                       TUESDAY, JANUARY 19, 2021

                               U.S. Senate,
                    Committee on Foreign Relations,
                                            Washington, DC.
    The committee met, pursuant to notice, at 2:04 p.m. Russell 
Senate Office Building, Room 301, and via Webex, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Romney, Graham, Barrasso, Portman, Paul, Young, Cruz, Menendez, 
Cardin, Shaheen, Coons, Murphy, Kaine, Markey, Merkley, and 
Booker.
    Also Present: Senator Durbin.

           OPENING STATEMENT OF HON. JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    The Chairman. The United States Senate Foreign Relations 
Committee will come to order.
    We have an important--an important hearing this afternoon, 
obviously, as we talk about the president-elect's nomination of 
Antony J. Blinken to be secretary of state, and we will get to 
that very quickly.
    As a matter of personal privilege for just two minutes, 
every time I am sworn in for a new term I kind of think back. 
This is my--as I start my forty-first year as a member of the 
Senate body, I have learned some things over that period of 
time.
    I spent 28 years in our state senate, over two decades as 
leading it, and now 13 years here, and some things I have 
learned I can make, very briefly, an observation. If we treat 
each other with kindness and respect, we get things done. One 
of the best friends I had during my time in the state senate 
was the Democrat leader. We are still close personal friends. 
My wife and I stay with him when we travel to north Idaho.
    He consults with me frequently and gives me advice even 
when I do not want it, and we have become and stayed very, very 
good friends over the years. We always got things done in 
Idaho, and I hope that, as we go forward, that we will do 
likewise here. It is not only beginning of my forty-first year 
in the Senate body, this will be my fifty-third year married to 
my wife and my--after completing 36 elections I consider that 
all quite the accomplishment.
    So with that, we are going to proceed to hear from Mr. 
Blinken after we make our opening statements. But Senator 
Durbin has very, very important matters that he must attend to 
and we are honored to have him come and address this august 
body.
    And, Senator Durbin, the floor is yours.

             STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Chairman Risch, thank you very much. It is 
great to be back in the committee, which I served on many years 
ago, and, Senator Menendez, thank you for your leadership and 
all of you who have gathered here today.
    I have been asked and I am honored that Mr. Blinken asked 
me to come before the committee and make an introduction. I am 
not going to do what most do and reread his entire biography, 
which you have all seen, I am sure, are impressed with as I am.
    I just want to make a few points about the job he seeks and 
the moment he seeks it.
    On September 12th, 2001, just hours after the 9/11 
terrorist attack on the United States, the leading French 
newspaper, Le Monde, published a front-page headline of four 
words: Nous sommes tous Americains. We are all Americans.
    With those four words, the people of France acknowledged 
the danger and pain in the United States and quite simply said, 
we will stand with you.
    Despite many differences on many issues, that is what 
friends are for. That is the reason that alliances count. With 
the end of the Trump administration, we face a stark choice. 
Does America first mean America alone? Does our nation still 
need friends and allies?
    Over the past four years, many of the strongest bonds 
between America and our allies have been strained, lifelong 
friends have been shunned, and authoritarian adversaries have 
been embraced.
    The role of the United States and the world, its values, 
its allies, its adversaries, are in question. The world is 
waiting for a clear policy from our new president, and our new 
president has chosen one man to lead that effort, Tony Blinken.
    When you take a look at his background, it starts with the 
State Department, it includes service as staff director on this 
committee, with the National Security Council, working as 
deputy secretary of state. It is an amazing background. And 
there is also a moment, which I am sure you all have seen--we 
have seen over and over again. There was that iconic photograph 
in the Situation Room when approximately 12 people were 
gathered with the president and vice president of the United 
States and secretary of state to see if finally we would 
capture Osama bin Laden.
    Tony Blinken was in that room. It tells you that he was 
more than just a peripheral staffer. He was an integral part of 
the security decisions of the United States of America. He is 
ready for this job and we know it.
    There is one thing that we discussed before we walked in 
here that I think is a critical element, and that is the fact 
that he inherits a great department and many men and women who 
have dedicated their lives to the security of the United States 
of America.
    We need them. We see their expertise wherever we travel in 
every corner of the world, sometimes at great personal 
sacrifice. They are representing this country and, literally, 
risking their lives to do so.
    It is his job and he understands to thank them for their 
efforts and to make sure that the morale is at the highest 
level so that America continues to be well represented around 
the world.
    It is my honor to introduce Tony Blinken today as the next 
secretary of state.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Durbin. I know 
you have another things to do so we will excuse you and I 
will--what we are going to do here today is I am going to give 
some opening remarks. I am then going to turn it over to 
Senator Menendez for his opening remarks, and after that we 
will do a round of questioning.
    Each senator will be given 10 minutes. I will do it on a 
seniority basis, unlike our usual early bird process that we 
use. But because of the size of this I think that it is 
important that we have--we do it on the seniority basis.
    So with all that said, today's hearing is, unquestionably, 
significant. The secretary of state is one of, if not the, most 
important nominations that a president makes. He represents our 
interests abroad and is also looked to for defining America's 
role and posture in the world.
    Over the past several decades we have watched nations with 
authoritarian ideologies and imperial tendencies increasingly 
attempt to grow their influence on the world stage and, 
unfortunately, that has happened with some success on their 
part.
    These countries challenge the very principles on which the 
United States was founded, democracy and the rule of law. As 
the Biden administration begins tomorrow, there are several key 
foreign policy issues that need immediate attention.
    My most important concern, as Mr. Blinken and I talked 
about a few--in my office not long ago, is Iran, and the 
president-elect's promise to return to the JCPOA.
    President Obama thought the JCPOA would empower Iran 
moderates and see Iran abandon its nuclear weapons program. But 
this notion proved to be misplaced. The Iranian regime cannot 
separate itself from its revolutionary ideology.
    The JCPOA provided very beneficial sanctions relief for 
Iran. Yet, it failed to eliminate Iran's support for terrorist 
proxies, therefore, allowing them to fund terrorism across the 
region.
    The deal also included very shortsighted sunsets on 
Iranians' conventional weapons and ballistic missile programs, 
and allowed Iran to continue enriching uranium.
    Any new deal with Iran must address all the facets of 
Iranian behavior including its ballistic missile program and 
ending support for terrorism.
    I fully understand and I fully comprehend that people want 
to focus on their nuclear ambitions. But these people have 
other bad activities that they are involved in that also need 
to be addressed.
    Unfortunately, the Iranian regime thinks it has 
successfully waited out the maximum pressure program that we 
have had in place. Only time will tell if they are right. At 
the time, President Obama used the extensive sanctions regime 
Congress created as a leverage to begin the JCPOA talks, and so 
he should have. President-elect Biden should take advantage of 
the significant leverage that has been provided to the maximum 
pressure program and negotiate a new deal with--that includes 
Iran's regional aggression. A policy of containment rather than 
appeasement is the only approach that will be successful. Our 
very discussions with Iran should begin and end with our allies 
in the region. Israel and many of our other Gulf allies felt 
the United States abandoned them and their security concerns 
during the JCPOA negotiations.
    With U.S. leadership over the last four years, our 
relations were rebuilt and paved the way for the Abraham 
Accords. The Abraham Accords signed last year were a 
significant step in fundamentally improving the security, 
economic, and diplomatic environment in the Middle East. But 
they also underscored the significant threat that Iran poses to 
our regional partners. I would hope future negotiations with 
Iran would include extensive consultations with not just 
Congress but also Israel and our Gulf partners, and given its 
significant implications any new deal should also be submitted 
as a treaty for Senate ratifications. I understand that that is 
a controversial issue. But if we are going to have the support 
of the United States, it cannot just be one branch of 
government. It needs to be all branches of government.
    I hope that the Biden administration will adhere to these 
conditions before and during any engagement with Iran, and I 
sincerely appreciate, Mr. Blinken, your offer that prior to 
beginning or ending all of these negotiations there will be 
significant consultation with this committee. I greatly 
appreciate that. Another area of serious concern with the new 
administration, obviously, is China, which I believe will be 
our greatest foreign policy challenge of this century.
    On a personal note, I want to thank you, Mr. Blinken, for 
having read the 143-page report that I published just recently, 
and I also appreciate the kind words that you had for the 
conclusions and suggestions in that report. China is a 
strategic and global competitor of the United States and the 
Chinese Communist Party routinely engages in economic coercion, 
military aggression, human rights abuses, and influence 
operations. Its policies deliberately damage U.S. interests and 
values. In the face of the Chinese Communist Party's dangerous 
goals, the United States must maintain a strong competitive 
stance.
    Rising to the challenge is now a sprint and a marathon that 
will require sustained political will, expanded cooperation 
with allies and partners, and properly aligned resources and 
personnel.
    Last year, I introduced STRATEGIC Act, the first 
comprehensive legislative proposal to compete with China 
effectively. This bill was written with Democratic senators' 
input and other Democrat organizations around this city who are 
in the think tank business, along with Republican think tanks.
    And it should be noted that China is not a partisan issue. 
It is an American issue. I know Senator Menendez has strong 
concerns in this regard also and I hope we will work together 
as we move forward with those challenges. I hope and expect 
that the Biden administration will pursue bipartisan 
cooperation on challenges proposed by the Chinese Communist 
Party.
    One of those challenges is Taiwan. The PRC's obliteration 
of Hong Kong's autonomy last year makes the question of 
Taiwan's future all the more urgent and serious. China's 
military modernization and expansion has dramatically shifted 
the balance of power in the Indo-Pacific.
    This is eroding conventional deterrents, putting the U.S. 
military as well as Indo-Pacific allies and partners at risk. 
Taiwan is among the strategically consequential issues and 
should remain a key strategic priority.
    Finally, the COVID-19 pandemic has evolved into the largest 
most destructive global health emergency in more than a 
century. More than 83 million people have been infected and 1.8 
million people have died.
    Economies have been upended, schools and offices closed, 
and livelihoods destroyed. It will take years to recover from 
this global health catastrophe. There is a lot we still do not 
know about COVID-19 but two things are clear.
    Its global spread was accelerated by catastrophic failures 
at all levels of the existing global health security 
architecture, and unless we do something now it will happen 
again.
    Last year, I introduced an effort to help the United States 
and our international partners get ahead of the next pandemic.
    I, along with my committee colleagues, pressed the WHO to 
launch an independent interim review of its response to the 
outbreak so we could figure out what worked, what did not, and 
how to prepare for future outbreaks. WHO, ultimately, followed 
our suggestion.
    If confirmed, I am committed to working with you, Mr. 
Blinken, to advance reforms at the WHO that will help restore 
public confidence and enable it to more effectively respond to 
crisis in real time. I, along with Senator Murphy, Cardin, and 
Portman also introduced bipartisan legislation to strengthen 
the ability of the United States and our international partners 
to detect, prevent, and respond to outbreaks before they become 
pandemics.
    I am well aware that Senator Menendez also has a strong 
interest in this area and I look forward to working with him 
and with the committee as we move legislation forward.
    This bill, the Global Health Security and Diplomacy Act, 
provides much needed leadership and direction for U.S. global 
health security efforts overseas and incentivizes greater 
leadership and investment by others.
    I am also eager to work with you, Mr. Blinken, if 
confirmed, to further redefine and enact this important 
legislation. Over the last five years, the world has seen 
dramatic change and it is imperative policies are updated to 
reflect these new realities.
    I look forward to hearing your thoughts on these important 
issues and I thank you for being here today and I thank you and 
your family for the willingness to take on the sacrifice to 
serve in this important position. With that, Senator Menendez, 
the floor is yours.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman.
    Let me, first of all, start off by saying I appreciate your 
efforts to work with me to get this hearing up today to 
expedite the consideration of one of the most important 
national security positions in our government, the secretary of 
state. So thank you.
    The Chairman. You are welcome, and I think all of us have a 
very strong interest in seeing that the president has in place 
as rapidly as possible his national security team. Thank you 
for that.
    Senator Menendez. I will say amen to that and I appreciate 
this and also, hopefully, if everything works out well the 
expeditious consideration at a committee meeting to vote out 
the nominee.
    Let me just say one remark. I will save my remarks about 
our future work together as a committee when the gavel changes. 
But as someone who has met our lovely wife, you are an 
incredibly fortunate man to have had over a half a century with 
her as a partner.
    The Chairman. No one knows better than I. Thank you, 
Senator.
    Senator Menendez. Congratulations to you on such a great 
long time together. She is just an incredibly charming person.
    Mr. Blinken, congratulations on your nomination. You are 
superbly qualified and prepared to be our next secretary of 
state and you have impressed us all over the years with your 
intellect, your dedication, and your humanity, including during 
your successful tenure as deputy secretary of state, deputy 
national security advisor, and as staff director of this 
committee. Now, while tomorrow's inauguration is a time for 
healing and renewal, I am nonetheless compelled to speak about 
the insurrection at the Capitol on January 6th.
    The images from that day are permanently seared in our 
collective conscience. Terrorists defiling the Capitol with 
Confederate flags and Nazi images, seeking to take hostage or 
perhaps kill our democratically elected leaders, savagely 
beating police officers, and in that respect my heart goes out 
to the family of New Jersey native and Capitol police officer 
Brian Sicknick who succumbed to the those injuries, and the 
family of Capitol police officer Howard Liebengood as well as 
dozens of other officers injured in the attack.
    This attack on the very foundation of our democracy 
delivered a tragic reminder, that our ability to project power 
abroad is inextricably linked to the health and strength of our 
democracy.
    This does not mean that we cannot talk about the importance 
of democracy abroad, no, but, rather, we must show that 
senators and all other leaders in this country have a duty to 
stand up for democracy, for the Constitution, for the rule of 
law.
    There can be no exceptions, and I expect that from the 
Biden administration and, based on my experience, I know, Mr. 
Blinken, you will do so in word and deed.
    Now, if confirmed, your task will be to repair and restore 
America's place in the world. You will face complex challenges 
all over the globe.
    The world is on fire. Rebuilding alliances, restoring 
American leadership at international institutions, tackling 
problems that define our times and defy borders like climate 
change, migration, and COVID-19, and you will need to re-center 
our foreign policy around the core American values of 
democracy, human rights, and the rule of law. But you will need 
to do so thoughtfully.
    Over the past year, the world has watched the United States 
completely falter on a national response to COVID-19, continue 
its overdue reckoning with systemic racism, and struggle with 
the president's obsession with thwarting the peaceful transfer 
of power, pushing disinformation, and attacking a free press.
    As we work to advance American interests around the globe 
and seek to create a more democratic, prosperous, and secure 
world, we have to redouble our efforts at home to secure a more 
perfect union for all Americans.
    Now, as you are likely aware, North Korea, Russia, and 
Turkey require some immediate attention. Over the past four 
years, North Korea's nuclear and missile programs have 
continued to grow unchecked. In other words, the United States 
and our allies are more at risk now than after four years of 
President Trump than when he took office.
    A revanchist Russia continues to threaten the United States 
and our allies including to the recent SolarWinds cyber-attack, 
the spread of disinformation, and efforts to silence and murder 
political opposition. And Turkey continues to be destabilizing 
by supporting Azerbaijan's aggression in Nagorno-Karabakh and 
to its own aggressive behavior in the eastern Mediterranean 
against our democratic allies Greece and Cyprus.
    From a broader regional perspective, one of your most 
important challenges will be to forge a coherent strategy for 
the Indo-Pacific, one led by our values, centered on our allies 
and partners, and implemented with consistency. As you know, I 
believe that while the Trump administration got some of the 
questions about the region right, they came up with the wrong 
answers.
    At a time when we should have been strengthening our 
alliances, building new partnerships, empowering a multilateral 
architecture, expanding commercial ties, and ensuring the 
vitality of democracy and the rule of law, the Trump 
administration in almost every case did the exact opposite, and 
after four years of the Trump administration we are in a worse 
position to effectively compete with China than before.
    So I am interested in hearing more about what your top 
priorities will be if confirmed in approaching the Indo-Pacific 
region and how our China policy nests within this larger 
framework.
    We also have a number of ongoing challenges in the Middle 
East, perhaps none so pressing as Iran. As you know, I was not 
a proponent of the JCPOA, but I also believe the Trump 
administration's decision to withdraw without a serious 
strategy involving our allies would ultimately leave us less 
safe and Iran emboldened.
    Unfortunately, Iran's continuing aggression across the 
Middle East and its recent nuclear activity that has 
dramatically advanced its capabilities has vindicated that 
prediction. Now, I understand the Biden administration is 
interested in returning to a diplomatic path, which I support. 
But I fear returning to the JCPOA without concrete efforts to 
address Iran's other dangerous and destabilizing activity would 
be insufficient. I believe there is bipartisan support to find 
a comprehensive diplomatic approach with Iran that includes 
working closely with our European and regional partners if we 
take those other issues into consideration. Closer to home, 
political crises in Latin America have caused human rights and 
humanitarian disasters on an unprecedented scale. Simply put, 
addressing rampant crime, weak governance, corruption, climate-
related displacement in the Northern Triangle must be a top 
priority for the country and deeply impacts the security and 
economic well-being of Americans. Further south, I am 
encouraged by the Biden administration's plans to renew our 
commitment to the multilateral efforts we must lead in order to 
improve the effectiveness of international sanctions and 
humanitarian aid as we pursue a diplomatic solution to the 
Venezuelan crisis.
    Maduro's campaign of crimes against humanity and attacks 
against interim president Juan Guaid cents and democratic civil 
society, which I hope the administration will recognize interim 
President Guaid cents, all have serious implications for U.S. 
national security and regional stability.
    And, Mr. Blinken, I also hope you support Ambassador Bill 
Richardson's efforts to free the six Americans who have been 
unjustly detained in Venezuela.
    I am confident that, if confirmed, you will do everything 
you can to repair and restore American leadership abroad. 
Foundational to that effort will be rebuilding and 
reinvigorating the State Department itself. As you well know, 
our career foreign and civil servants are incredibly talented 
and dedicated. Over the past few years, however, they have been 
treated with disdain, smeared, and forced out of public 
service.
    There has been a stunning loss of expertise, steep declines 
in morale, little accountability for those at the top, and the 
State Department still has not achieved a workforce that comes 
close to reflecting the diversity of our country. This state of 
affairs has impacted relationships across the globe, the 
department's ability to engage in the interagency process, and 
in its relationship with Congress.
    So the challenges you will be facing are immense but I have 
confidence in your experience and expertise. I look forward to 
hearing your testimony, and upon confirmation I look forward to 
working with you to restore America's place in the world and to 
repair and rebuild our relationships and our institutions. 
Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Menendez.
    Mr. Blinken, after our conversations earlier today and 
after hearing our opening statements, Senator Menendez's input 
in that regard, as you can see, there isn't a whole lot of 
daylight between us on most of these issues, certainly, almost 
none whatsoever when it comes to objectives, strategy, and how 
to get there is, obviously, something that needs to be 
negotiated and all of our best heads put together to try to get 
to that position. So we are interested in hearing that. 
Obviously, as Senator Menendez said, Iran is at the top of the 
list. China and Russia are right behind that. We have serious 
problems in Turkey. North Korea is on the list and there is 
lots and lots of challenges.
    But we will do better if we all pull the wagon together, 
and I think we are headed in that direction right now.
    So with that, again, thank you for your willingness to 
serve and the floor is yours.

         STATEMENT OF ANTONY J. BLINKEN, OF NEW YORK, 
               NOMINATED TO BE SECRETARY OF STATE

    Mr. Blinken. Mr. Chairman, thank you very much, and to you, 
to Ranking Member Menendez, to all the members of this 
committee, thank you for the opportunity to be here today and I 
greatly appreciate everything you have done to make this 
hearing possible at this time. And I want to thank Senator 
Durbin in absentia for his very kind introduction.
    It is, truly, the honor of a lifetime to appear before this 
committee as President-elect Biden's nominee to be secretary of 
state, and it is an honor that carries special significance for 
me for two reasons.
    First, as you have noted, I had the privilege of serving as 
the Democratic staff director of this committee for six years, 
working alongside a distinguished group of senators, including 
several still on the committee today, to advance diplomacy and 
safeguard the interests of the American people.
    That experience gave me an abiding respect for this 
committee, for its finest bipartisan traditions, for the 
caliber of its members and staff, for the essential work it 
does to strengthen U.S. leadership around the world.
    If I have the honor of being confirmed, those lessons that 
I learned in my years with this committee will guide my 
approach to our work together.
    The second point of significance for me is a little bit 
more personal. In addition to my own confirmation as deputy 
secretary of state, this committee confirmed my wife, Evan 
Ryan, who is here with me today, as assistant secretary of 
state for education and cultural affairs, confirmed my uncle, 
Alan Blinken, as ambassador to Belgium, and confirmed my 
father, Donald Blinken, as ambassador to Hungary. I hope I do 
not break the streak today.
    My family, especially my wife and our children, John and 
Lila, is my greatest blessing. Our tradition of public service 
is the source of tremendous pride. I view that tradition as 
something of a sacred duty, payment on the debt that our family 
owes to the nation that gave so many of my relatives refuge and 
extraordinary opportunities across the generations.
    My grandfather, Maurice Blinken, found refuge in America 
after fleeing Russian pogroms. My father's wife, Vera Blinken, 
found refuge in America after fleeing the communist regime in 
Hungary, and my late stepfather, Samuel Pisar, found refuge in 
America after enduring the horrors of the Holocaust.
    Sam was the only survivor among his immediate family and 
school of 900 children in Bialystok, Poland, after four years 
in the concentration camps.
    At the end of the war, he made a break from a death march 
into the Bavarian woods, and from his hideout he heard the 
rumbling sound of the tank, and as he looked out, instead of 
seeing the dreaded iron cross, he saw a five-pointed white 
star.
    And so he ran to the tank and got to it. The hatch opened. 
An African-American GI looked down at him. He fell to his knees 
and said the only three words that he knew in the English 
language that his mother had taught him before the war, ``God 
bless America.'' The GI lifted him into the tank, into freedom, 
into America.
    That is who we are. That is what we represent to the world, 
however imperfectly, and what we can still be when we are at 
our best. If I have the honor of serving as secretary of state, 
that is the vision that I will pursue, a vision articulated 
often by President-elect Biden, doubtlessly informed by his 
time on this committee when he said that the United States is a 
nation that leads not only by the example of our power but by 
the power of our example.
    If confirmed, three priorities would guide my time as 
secretary of state. First, I will work with you to reinvigorate 
the Department of State, investing in its greatest asset, the 
Foreign Service officers, the civil servants, the locally-
employed staff who animate American diplomacy.
    I know from firsthand experience their passion, their 
energy, their courage, often far from home, away from loved 
ones, sometimes in dangerous conditions exacerbated now by the 
pandemic. They deserve our full support. If I am confirmed as 
secretary, they will have it.
    I am committed to advancing our security and prosperity by 
building a diplomatic core that fully represents America in all 
its talent and in all its diversity, recruiting, retaining, 
promoting officers with the skills to contend with 21st century 
challenges, and who look like the country we represent, sparing 
no effort to ensure their safety and well-being, demanding 
accountability starting with the secretary of state, for 
building a more diverse, inclusive, and nonpartisan workforce.
    Second, working across government and with partners around 
the world, we will revitalize American diplomacy to deal with 
and take on the most pressing challenges of our time.
    We will show up again, day in and day out, whenever and 
wherever Americans' prosperity and security is at stake, and we 
will engage the world not as it was but as it is, a world of 
rising nationalism, receding democracy, growing rivalry from 
China and Russia and other authoritarian states, mounting 
threats to a stable and open international system, and a 
technological revolution that is reshaping every aspect of our 
lives, especially in cyberspace.
    But for all that has changed, I believe some things remain 
constant. American leadership still matters. The reality is the 
world simply does not organize itself.
    When we are not engaged, when we are not leading, then one 
of two things is likely to happen. Either some other country 
tries to take our place but not in a way that is likely to 
advance our interests and values, or, maybe just as bad, no one 
does and then you have chaos.
    Either way, that does not serve the American people. I 
believe that humility and confidence should be the flip sides 
of America's leadership coin; humility, because we have a great 
deal of work to do at home to enhance our standing abroad, and 
humility because most of the world's problems are not about us 
in the first instance, even as they affect us, and no single 
country acting alone, even one as powerful as the United 
States, can fully and effectively address these problems.
    But we will also act with confidence, with the confidence 
that America at its best still has a greater ability than any 
country on earth to mobilize others for the common good.
    Guided by these principles, I believe we can and we will 
overcome the COVID crisis, the greatest shared challenge since 
World War II.
    We can out-compete China and remind the world that a 
government of the people, for the people can deliver for its 
people. We can take on the existential threat posed by climate 
change.
    We can revitalize our core alliances, force multipliers of 
our influence around the world. Together we are far better 
positioned to counter threats from Russia, Iran, North Korea, 
and to stand up for democracy and human rights.
    And in everything we do around the world I believe that we 
can and we must ensure that our foreign policy is actually 
working to deliver for American working families here at home.
    Let me conclude, if I may, Mr. Chairman, with a word about 
this institution, whose resilience and determination were on 
full display in the aftermath of the senseless and searing 
violence in these halls. But the president-elect and I believe 
that we have to restore Congress' traditional role as a partner 
in our foreign policy-making. In recent years, across 
administrations of both parties, Congress' voice in foreign 
policy has been diluted and diminished.
    That does not make the executive branch stronger. It makes 
our country weaker. President-elect Biden believes, and I share 
his conviction, that no foreign policy can be sustained without 
the informed consent of the American people. You are the 
representatives of the American people. You provide that advice 
and consent. We can only tackle the most urgent challenges we 
have if we work together, and I am dedicated to doing just 
that.
    And so if I am confirmed, my commitment is to work with 
each and every one of you on behalf of all Americans.
    Thank you for the time. Thank you for the consideration. I 
look forward to your questions.
    [The prepared statement of Mr. Blinken follows:]


              Prepared Statement of Hon. Antony J. Blinken

    Mr. Chairman, Ranking Member Menendez, and members of the 
committee--thank you for the opportunity to be here today.
    And thank you, Senator Durbin, for your kind introduction.
    It is the honor of a lifetime to appear before this committee as 
President-elect Biden's nominee for Secretary of State--and an honor 
which carries special significance for me for two reasons.
    First, I had the privilege of serving as staff director of this 
committee for six years--working alongside a distinguished group of 
Senators, including several who remain on the committee today, to 
advance American diplomacy and safeguard the interests of the American 
people.
    That experience gave me an abiding respect for this committee--for 
its finest bipartisan traditions, for the caliber of its members and 
staff, and for the essential work it does to strengthen U.S. leadership 
around the world.
    If I have the honor of being confirmed, those lessons I learned in 
my years with this committee will guide my approach to our work 
together.
    The second point of significance is more personal. In addition to 
my own confirmation as DeputySecretary of State six years ago, this 
committee confirmed my wife Evan Ryan as Assistant Secretary of State 
for Educational and Cultural Affairs, my uncle Alan Blinken as 
Ambassador to Belgium, and my father Donald Blinken as Ambassador to 
Hungary.
    My family--especially my wife and our children, John and Lila--is 
my greatest blessing. Our tradition of public service is a source of 
tremendous pride.
    I view that tradition as a sacred duty--payment on the debt our 
family owes to the nation that gave us refuge and extraordinary 
opportunities across the generations.
    My grandfather, Maurice Blinken, found refuge in America after 
fleeing the Russian pogroms.
    My father's wife, Vera Blinken, found refuge in America after 
fleeing the communist regime in Hungary.
    And my late step-father, Samuel Pisar, found refuge in America 
after enduring the horrors of the Holocaust.
    Sam was the only survivor among his immediate family and school of 
900 in Bialystok, Poland after four years in the concentration camps.
    At the end of the war, he made a break from a death march into the 
Bavarian woods. From his hiding place, he heard the rumbling sound of a 
tank. Instead of an Iron Cross, he saw a five-pointed white star.
    He ran to the tank. The hatch opened. An African American GI looked 
down at him. He fell to his knees and said the only three words he knew 
in English that his mother had taught him: God Bless America. The GI 
lifted him into the tank, into America, into freedom.
    That's who we are. That's what we represent to the world, however 
imperfectly, and what we can still be at our best.
    If I have the honor of serving as Secretary of State, that is the 
vision I will pursue--a vision articulated often by President-elect 
Biden, and doubtlessly informed by his long service to this committee, 
of a nation that leads ``not only by the example of our power, but by 
the power of our example.''
    If confirmed, three priorities will guide my time as Secretary.
    First, I will work with you to reinvigorate the Department by 
investing in its greatest asset: the foreign service officers, civil 
servants, and locally employed staff who animate American diplomacy 
around the world.
    I know from firsthand experience their passion, energy, and 
courage. Often far from home and away from loved ones, sometimes in 
dangerous conditions exacerbated by the global pandemic--they deserve 
our full support. If I am confirmed as Secretary, they will have it.
    I am committed to advancing our security and prosperity by building 
a diplomatic corps that fully represents America in all its talent and 
diversity. Recruiting, retaining, and promoting officers with the 
skills to contend with 21st Century challenges and who look like the 
country we represent. Sparing no effort to ensure their safety and 
well-being. Demanding accountability--starting with the Secretary--for 
building a more diverse, inclusive and non-partisan workplace.
    Second, working across government and with partners around the 
world, we will revitalize American diplomacy to take on the most 
pressing challenges of our time.
    We'll show up again, day-in, day-out whenever and wherever the 
safety and well-being of Americans is at stake. We'll engage the world 
not as it was, but as it is. A world of rising nationalism, receding 
democracy, growing rivalry with China, Russia, and other authoritarian 
states, mounting threats to a stable and open international system, and 
a technological revolution that is reshaping every aspect of our lives, 
especially in cyberspace.
    For all that has changed, some things remain constant.
    American leadership still matters.
    The reality is that the world doesn't organize itself. When we're 
not engaged, when we don't lead, then one of two things happen: either 
some other country tries to take our place, but probably not in a way 
that advances our interests or values. Or no one does, and then you get 
chaos. Either way, that does not serve the American people
    Humility and confidence should be the flip sides of America's 
leadership coin.
    Humility because we have a great deal of work to do at home to 
enhance our standing abroad. And humility because most of the world's 
problems are not about us, even as they affect us. Not one of the big 
challenges we face can be met by one country acting alone--even one as 
powerful as the U.S.
    But we'll also act with confidence that America at its best still 
has a greater ability than any country on earth to mobilize others for 
the greater good.
    Guided by those principles, we can overcome the COVID crisis--the 
greatest shared challenge since World War II.
    We can outcompete China--and remind the world that a government of 
the people, by the people, can deliver for its people.
    We can take on the existential threat posed by climate change.
    We can revitalize our core alliances--force multipliers of our 
influence around the world. Together, we are far better positioned to 
counter threats posed by Russia, Iran, and North Korea and to stand up 
for democracy and human rights.
    And in everything we do around the world, we can and we must ensure 
that our foreign policy delivers for American working families here at 
home.
    Let me conclude with a word about this institution, whose 
resilience and determination was on full display in the aftermath of 
senseless and searing violence in these halls. Both the President-elect 
and I believe we must restore Congress's traditional role as a partner 
in our foreign policy making.
    In recent years, across administrations of both parties, Congress's 
voice in foreign policy has been diluted and diminished.
    That doesn't make the executive branch stronger--it makes our 
country weaker.
    President-elect Biden believes--and I share his conviction--that no 
foreign policy can be sustained without the informed consent of the 
American people. You are the representatives of the American people. 
You provide that advice and consent. We can only tackle the most urgent 
problems our country faces if we work together, and I am dedicated to 
doing that.
    If confirmed, I will work as a partner to each of you on behalf of 
all Americans.
    Thank you for your consideration--I look forward to answering your 
questions.


    The Chairman. Thank you very much, Mr. Blinken, and, of 
course, your words about working with us is music to our ears. 
We will be happy to be a partner with you in that regard.
    So with that, we will proceed to a round of questions, 10 
minutes per senator. I am going to reserve my time and I am 
going to yield to Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman.
    Mr. Blinken, thank you for your statement. During our 
meeting yesterday, we discussed the department will need to 
repair and rebuild its relationship with this committee.
    I think it is after 28 years of doing public foreign policy 
in the House and the Senate I have never seen a moment like 
this in terms of our relationship with the State Department. 
So, and having heard your opening statement, I am confident you 
understand the importance of a constructive relationship 
between the department and Congress.
    So I just have a few quick questions I have always asked 
the secretary of state nominee. I would like to ask you. You 
can answer yes or no. I would appreciate it.
    Do you agree that the State Department is accountable to 
Congress and the American people?
    Mr. Blinken. Yes.
    Senator Menendez. Do you commit that the department will 
keep this committee fully and currently informed on the 
department's activities?
    Mr. Blinken. I do.
    Senator Menendez. Do you understand and agree that a 
constructive relationship between the department and this 
committee requires meaningful engagement and consultation with 
the committee while policies are being developed, not after the 
fact, and can you commit to ensuring that type of meaningful 
engagement?
    Mr. Blinken. Yes, I do, and I can.
    Senator Menendez. Thank you very much.
    Let me turn to Iran. This is going to be one of the most 
difficult challenges early on because Iran has accelerated. The 
maximum pressure campaign did not stop it from its 
acceleration.
    We were broken away from our allies. We could not even get 
from our traditional allies a vote at the United Nations on 
the--continuing the arms embargo and that is not a good recipe 
to counter Iran.
    So I think there is a will to work together in a serious 
diplomatic engagement with Iran. But some of our concerns about 
the JCPOA, obviously, time has lapsed. The sunset is closer. 
Some of the other issues are now--have come to the fore in 
terms of the JCPOA, and then you have all of Iran's other 
destabilizing activities. So some of us have worked--Senator 
Graham, a member of the committee, and I have worked along with 
others in thinking about how something along the lines of 
returning to the JCPOA but with a commitment, a process by 
which the Iranians would have to deal with some of the 
challenges left by the JCPOA and other issues, looking at the 
possibility of a regional fuel bank so that not only the 
Iranians but those in the Gulf would be able to participate to 
receive nuclear fuel for domestic peaceful consumption but not 
enrichment. It could defuse a tinderbox in the region if all 
these countries are looking now to enrich. Those are some 
ideas, not the totality of it. Can you give us a sense of where 
you are looking at with reference to Iran, and as part of that, 
are you going to proactively reach out to Congress in order to 
forge such a consensus that can move us together with one voice 
towards meeting Iran as a challenge?
    Mr. Blinken. Thank you very much, Senator. Let me answer 
the last question first, in terms of reaching out, and the 
answer is yes, absolutely, especially on a policy as 
challenging as the one that we have to deal with when it comes 
to Iran.
    We are much better off if we can try to work through and 
think through these issues together and you have my commitment 
that we intend and will do that, and I look forward to the 
consultations and conversations that we have.
    When it comes to Iran, a couple of things. First, 
President-elect Biden is committed to the proposition that Iran 
will not acquire a nuclear weapon and we share, I know, that 
goal across this committee.
    An Iran with a nuclear weapon or on the threshold of having 
one or the capacity to build one on short order would be an 
Iran that is even more dangerous than it already is when it 
comes to all of the other malicious activities that it is 
engaged in, whether it is support for terrorism, whether it is 
fueling and feeding its proxies, whether it is destabilizing 
the region.
    An Iran with a nuclear weapon or with the threshold 
capacity to build one is an Iran that would act, potentially, 
with even greater impunity than it already is.
    So I think we have an urgent responsibility to do whatever 
we can to prevent Iran from acquiring or getting a weapon or 
getting close to the capacity to having the fissile material to 
break out on short notice.
    In my judgment, the JCPOA, for whatever its limitations, 
was succeeding on its own terms in blocking Iran's pathways to 
producing fissile material for a nuclear weapon on short order.
    It also featured, and a feature that continues, the most 
intrusive inspections and monitoring regime in the history of 
arms control. The challenge we face now is that we pulled out 
of the agreement. Iran is now taking steps to undo the various 
constraints that were imposed on it by the agreement. And so it 
has increased its stockpile of low-enriched uranium. It is now 
enriching at a higher level. It is deploying centrifuges in 
ways that were prohibited under the agreement.
    The result is, based on public reporting, the breakout 
time, the time it would take Iran to produce enough fissile 
material for one weapon, has gone from beyond a year, as it was 
under the JCPOA, to about three or four months, based at least 
on public reporting, and that potentially brings us right back 
to the crisis point that we were reaching before the deal was 
negotiated.
    And so the president-elect believes that if Iran comes back 
into compliance we would, too. But we would use that as a 
platform with our allies and partners who would once again be 
on the same side with us to seek a longer and stronger 
agreement and also, as you and the chairman have rightly 
pointed out, to capture these other issues, particularly with 
regard to missiles and Iran's destabilizing activities. That 
would be the objective.
    Having said that, I think we are a long way from there. We 
would have to see, once the president-elect is in office, what 
steps Iran actually takes and is prepared to take.
    We would then have to evaluate whether they were actually 
making good if they say they are coming back into compliance 
with their obligations, and then we would take it from there. 
But in the first instance, the last thing I will say on this, 
sir, is that yes, we absolutely will consult with you and not 
only with you, I think, as the chairman suggested, it is also 
vitally important that we engage on the take off, not the 
landing, with our allies and with our partners in the region to 
include Israel and to include the Gulf countries.
    Senator Menendez. Thank you.
    Now, so I am all for stronger and longer and very much glad 
to hear that these other issues also will--the administration 
will look forward to engage and challenge Iran on. I think 
those are important.
    Let me turn to China. Many of us, certainly, Senator 
Romney, since my first meeting with him when he came to the 
Senate, has made China one of the focal points and he is right 
about the challenge that China poses. The chairman talked about 
his initiative.
    We, meaning Democrats, introduced a couple of months ago 
the America LEADS Act, which brought all of the relevant 
committees--finance, on trade, commerce, on technology, armed 
services, just about everybody--in a comprehensive national 
strategy to deal with China, which deals with both investments 
here at home because some of us believe we must not only 
confront China, we must compete with China to be successful--
diplomacy, alliances, security, values, and trade to create a 
truly competitive approach, and I believe this is one of the 
most significant national security challenges we will have, as 
well as economic challenges.
    Can you speak a little bit about to--how do you see that?
    Mr. Blinken. First of all, I have read and applaud the 
LEADS Act and I have also read the very good report that the 
chairman did on China and applaud virtually everything that is 
in it.
    I think there is a very strong foundation there upon which 
to build a bipartisan policy with regard to China. As we look 
at China, there is no doubt that it poses the most significant 
challenge of any nation state to the United States in terms of 
our interests, the interests of the American people.
    There are, as I see it, rising adversarial aspects to the 
relationship, certainly, competitive ones, and still some 
cooperative ones when it is in our mutual interest.
    I think as we are thinking about how to deal with China, 
and I think this is reflected in the work that the committee 
has done, we have to start by approaching China from a position 
of strength, not weakness, and the good news is our ability to 
do that is, largely, within our control. A position of strength 
when we are working with, not denigrating, our allies--that is 
a source of strength for us in dealing with China. A position 
of strength when we are engaged and leading in international 
institutions, not pulling back and ceding the terrain to China 
to write the rules and norms that animate those institutions.
    A position of strength when we stand up for our values when 
human rights are being abused in Xinjiang or when democracy is 
being trampled in Hong Kong.
    Our ability to make the investments in ourselves, as you 
pointed out, that is a source of strength, investments as 
necessary in our military to make sure that we can deter any 
aggression.
    All of these things are fully within our control, and if we 
come together and do them I think we can then deal with the 
specific challenges that China poses from that position of 
strength, not a position of weakness.
    Senator Menendez. Thank you.
    The Chairman. Thank you, Senator Menendez.
    Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Blinken, welcome. Let me start out by saying I got a 
phone call from a former contact in the Obama/Biden 
administration. I won't name the individual because I do not 
want to get that person in trouble. But it was a very welcome 
phone call.
    I think the--to summarize it, it started out saying that we 
are really in an unsustainable position in this country. We are 
so grossly divided, and particularly in areas of foreign 
policy.
    The standard saying is politics ought to end at the water's 
edge. I hope that can be true. I do not think it ever has been 
completely true. But I think there are some really good areas 
of agreement.
    And so it is a very sincere attempt to reach out and say, 
let us try and focus on areas of agreement, and, by the way, as 
chairman, ranking member on the European Subcommittee with this 
Nord Stream 2, the European Energy Security and Diversification 
Act with Senator Murphy, we found those areas of agreement.
    So I really want to focus on that because I think that is 
one of the areas--one of the ways we can try and narrow that 
divide, which I think is just completely unsustainable in this 
nation.
    I think one of the areas I think we can all agree on is the 
world is a very dangerous and complicated place, and there is 
just no doubt about it. There is not a whole lot of black and 
white.
    There is black and white, but there is a lot of gray areas 
and how you address whether it is Iran or North Korea or China 
or Russia is difficult situations.
    So I have no doubt that you have just a wealth of 
knowledge, as did Secretary Kerry. I think there is a 
difference between knowledge, though, and judgment. And so in 
all sincerity, I just really want to talk to you about judgment 
and, again, I know you take a look at the Trump administration 
and it is, like, all bad.
    I do not think that is true, and so let me start out what I 
think are our foreign policy accomplishments and whether you 
see whether or not you agree.
    First of all, we did get our NATO partners to invest more 
in NATO, and that is a good thing, right? Do you have any 
reservations about that?
    Mr. Blinken. I do not.
    Senator Johnson. I think the peace or the agreements 
between Israel and Bahrain and UAE and Sudan and Morocco, those 
are good things. You are going to want to build on that, 
correct?
    Mr. Blinken. I very much agree.
    Senator Johnson. Just a quick aside, again, knowledge 
versus judgment. It is something that Secretary Kerry thought 
was not possible whatsoever. Again, that is a judgment call. I 
understand that.
    But it has been proven wrong, and I guess I am kind of 
looking for an acknowledgment that maybe past judgments have 
been overtaken by new knowledge and as times we have moved on.
    One thing pretty near and dear to my heart is the 
agreement, the economic agreement between Kosovo and Serbia. 
Wess Mitchell sent me over to Serbia and Kosovo a number of 
times and, you know, I do not want to take blame for this but 
the situation was not improving until Ric Grenell got involved 
and came up with the idea, let us--okay, a lot of these things 
they are not going to agree on but what they can agree on is 
economic advancement since we got an agreement. That is a good 
thing, correct?
    Mr. Blinken. I agree.
    Senator Johnson. What kind of troubles me about the past 
record of the Obama/Biden administration, again, dealing with 
difficult situations. But I just want to give you the 
opportunity to discuss whether you have had any second thoughts 
on, for example, what happened in Libya.
    That is where--and you talked about American leadership--
that is where President Obama famously said, ``We are going to 
lead from behind,'' and, you know, the world community kind of 
blew up Libya.
    It did not turn out so well. We had Benghazi. Do you have 
any second thoughts in terms of what happened with Libya?
    Mr. Blinken. I do, and let me--before I address that, 
Senator, I would like to say I believe that no one, no party, 
has a monopoly on good ideas, and I hope that, working 
together, we can pool all the good ideas from both sides of the 
aisle to try to advance the security and well-being of the 
American people abroad. I welcome doing that. Second, very 
quickly, I think there are a number of things, from where I 
sat, that the Trump administration did beyond our borders that 
I would applaud. You mentioned a couple of them. The Abraham 
Accords, absolutely. Now, there are certain commitments that 
may have been made in the context of getting those countries to 
normalize relations with Israel that I think we should take a 
hard look at, and I imagine the committee feels the same way. 
But the work that was done to push forward on normalization 
with Israel I applaud. It makes Israel safer. It makes the 
region safer. It is a good thing, and yes, I would hope that we 
could build on that as well.
    You mentioned the work on Kosovo and Serbia. I applaud that 
as well. The president-elect, as you know, spent a lot of time 
on those countries in the past and I think he shares your 
conviction that there are things we can do to help move Kosovo 
forward and also, hopefully, move Serbia forward. And, 
certainly, getting our NATO allies to invest more is a good 
thing. I think that is shared across administrations and across 
parties. And finally, let me just say that I also believe that 
President Trump was right in taking a tougher approach to 
China. I disagree very much with the way that he went about it 
in a number of areas, but the basic principle was the right one 
and I think that is actually helpful to our foreign policy.
    Senator Johnson. No, I think--I think President Trump opens 
everybody's eyes in terms of China's malign intent.
    Again, I want to kind of quickly go through----
    Mr. Blinken. But on Libya----
    Senator Johnson [continuing]. Libya, Syria----
    Mr. Blinken. Sure.
    Senator Johnson [continuing]. You know, not providing 
lethal defensive weaponry to Ukraine. Are those things you have 
given second thoughts to?
    Mr. Blinken. Yes. With regard to Libya, here was the 
situation we faced. We had Muammar Gaddafi saying that he was 
going to slaughter like rats those opposing him, including all 
of the inhabitants of Benghazi, and we faced what looked like 
the potential for a mass atrocity that was heading our way, and 
what was unique about the moment was the United Nations 
supported doing something about it--the Security Council. The 
partners and allies in the region did, and our allies in Europe 
did, too. Having said that, and so I think the good news from 
where I sat--and I supported that effort. In fact, I think it 
has been written about.
    I was the president-elect's national security advisor at 
the time and he did not agree with that course of action and 
so--but he--we had the kind of relationship where I was able to 
say what I thought and, as you have noted, we intervened.
    Here is what I think we misjudged. First, we did not fully 
appreciate the fact that one of the things Gaddafi had done 
over the years was to make sure that there was no possible 
rival to his power and, as a result, there was no effective 
bureaucracy, no effective administration in Libya with which to 
work when he was gone. That made things much more challenging 
than I think we understood----
    Senator Johnson. Okay. So, again, because I want to--so 
basically, there was no plan afterwards? That is something--
that is the lesson you have learned?
    Mr. Blinken. I think there was a--I think there was a plan 
that ran into--ran into some reality, that, unfortunately, the 
result has been that there has been more space in Libya for 
extremist groups who filled some of the vacuum left by Gaddafi.
    Senator Johnson. Okay. One of the things that Congress did 
unanimously is we approved $300 million of lethal defensive 
weaponry for Ukraine the Obama administration never 
implemented. The Trump administration did.
    Do you still disagree with providing that lethal defensive 
weaponry or do you think, you know, over time now that has been 
proven to be the correct decision by Congress and the Trump 
administration?
    Mr. Blinken. Senator, I support providing that lethal 
defensive assistance to Ukraine. In fact, I had the opportunity 
to write exactly that in The New York Times about three years 
ago.
    Senator Johnson. One of the comments, and this is--to 
prepare for this hearing, and I am not going to enter this into 
the record but my staff did provide me Senator McCain's 2014 
floor speech, which I am sure you have read. It was----
    Mr. Blinken. I know it well.
    Senator Johnson [continuing]. Pretty blistering. It is one 
of the reasons I thought I would kind of give you the 
opportunity to maybe respond. But the Chairman also provided a 
list of questions and one of the questions he asked about 
Soleimani.
    I mean, is it a good thing that Soleimani is off the 
battlefield? And I was surprised because you remained adamant 
that it did not improve our national security. I mean, I would 
take the opposite side of that viewpoint.
    Do you want to try and explain that one? I mean, I think 
because--because he was a mastermind, because he was so 
effective, because he was responsible for hundreds of American 
lives lost. I do not see how you cannot agree that that was--
that enhances our national security.
    Mr. Blinken. No one is shedding a tear for the demise of 
Qasem Soleimani and, certainly, when I was last in office I saw 
firsthand the blood that he had on his hands.
    So no one regrets the fact that he is no longer there. I 
think from where I sat, Senator, the question is not whether 
taking him out was the right thing to do. It was gaming out 
what might be the consequences and asking ourselves whether, on 
balance, we would be left safer or not in taking that action.
    Previous administrations, including the Bush administration 
and the Obama administration, concluded that we would not be, 
and I think what we saw after his death, including attacks on 
our positions in Iraq that left dozens if not hundreds of 
Americans with brain injuries, the fact that our forward posts 
in Iraq that were there to prevent the reemergence of ISIL had 
to pull back because of concerns that Iranian-backed militia 
after Soleimani's death would attack them, the fact that we are 
talking about, apparently, closing our embassy in Baghdad again 
for fear of the actions of these militia, and the fact that we 
have seen Iran acting out in a whole variety of ways because we 
are not the only actor in this drama, I think, on balance that 
that action actually left us less safe, not more safe.
    Senator Johnson. Okay. Well, he was in Baghdad for a 
reason, probably to plan further attacks. We do not know what 
he might have done, but I appreciate your answer.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Let us move to--Senator Cardin, I 
believe, is joining us online. Senator Cardin, are you there?
    Senator Cardin. I am with you, Mr. Chairman, and thank you 
very much, and to Mr. Blinken, first, thank you for your public 
service. Thank you for your willingness to serve in this 
critically important position at this time in American history.
    I very much appreciate on a personal basis having the 
opportunity to learn from you during my first two years on the 
Senate Foreign Relations Committee when you were the Democratic 
staff director, and I still remember those first two years. So 
I thank you very much for your public service.
    I want to ask you some questions in regards to a troubling 
trend we have seen globally on the decline of democracy. 
Freedom House has observed that in 2019 we had the fourteenth 
consecutive year of the decline in global freedom.
    Human Rights Watch says that the--in its 2021 report that 
the Trump administration was a disaster for the protection of 
human rights, and President-elect Biden observed that democracy 
is under more pressure than any time since the 1930s.
    So my question to you is whether you are prepared to make 
the preservation of democracy, good governance, human rights, 
and anti-corruption a priority--a top priority within the State 
Department? Which requires the use of resources devoted to 
protecting democracy, whether it is at USAID or whether it is 
the resources in our missions in each of our countries, which 
will be made a priority to help preserve democracies around the 
world and the protection of human rights and anti-corruption 
activities.
    Mr. Blinken. Senator, first of all, it is good to see you, 
and the short answer is yes, absolutely. The president-elect 
has been very clear that our charge would be to put democracy 
and human rights back at the center of American foreign policy 
and we intend to do just that.
    That is a question of resources. It is a question of focus. 
It is a question of commitment. Of course, a lot of this begins 
at home.
    Our ability to be a strong leader for and defender of 
democracy and human rights also depends to a large extent on 
the strength of our own democracy here at home, and as we have 
already discussed, we have some work to do on that account.
    You are absolutely right when you cite the backsliding we 
have seen. Freedom House has been tracking this, as many of you 
know, for decades and of the 40 or so countries that were 
ranked, consistently ranked, fully free in the '80s, '90s, and 
early 2000s, fully half of them have been backsliding on 
democratic metrics, and so this poses a real challenge.
    One of the goals that the president-elect has set for us is 
to try to convene a summit of democracies within the first year 
of his administration to bring democratic countries together, 
to think together, both about some of the challenges that we 
face at home that are common to democracies including rising 
populism, but also to think about a common agenda as we are 
dealing with the work of defending and advancing democracy 
around the world to include combating corruption, to include 
standing up more effectively freedom and rights, to include 
having a united voice in calling out abuses of democracy or 
abuses of human rights.
    This is something that I hope we will be able to put 
together toward the end of this year and something that we 
would very much welcome the participation of members of 
Congress and particularly members of this committee.
    Senator Cardin. I thank you for that. I would also urge you 
to be as aggressive as you can with the budget director as to 
resources being devoted to democracy, because it has been a 
very small slice of USAID's budget and we just--and the mission 
support is not as strong as I think it should be.
    I want to talk about one of the tools that has gotten the 
most international attention and that is the Magnitsky 
sanctions. It was interesting that it has been recorded that 
was the first issue brought up by Mr. Putin when he met with 
President Trump.
    Are you committed to working with us to strengthen the 
Magnitsky global sanction regime to go against those actors 
that are not held accountable in their own states for gross 
violations of human rights and corruption?
    Mr. Blinken. Yes, I am, and I should just add that I think 
this has been a great achievement, Senator, of yours and of 
this committee. We have gone from Magnitsky to Global Magnitsky 
to different countries now adopting their own Magnitsky like 
laws, and now just recently the European Union.
    So I think this has been a tremendous success story in 
actually bringing the democratic countries of the world 
together and giving them an effective tool to actually push 
back against abuses of democracy and human rights.
    Senator Cardin. I plan to introduce legislation shortly in 
regards to Magnitsky to deal with the sunset that is provided 
in the statute currently, to remove that, but also to 
strengthen some of the areas.
    There are ways that we can strengthen the Global Magnitsky 
through the State Department--getting more countries to adopt 
Global Magnitsky statutes, to make sure they are comprehensive 
and include corruption, and to make sure you have adequate 
staffing so that you can implement the law fully.
    I would also recommend that you follow the leads given to 
us by NGOs that, in many cases, have information that otherwise 
would not be made available to us to hold abusers accountable.
    I think these are all suggestions that could help 
strengthen the Magnitsky statute and our messages against the 
international human rights violators.
    I want to mention one other area where I think we can make 
tremendous progress during your tenure, and that is on anti-
corruption. We have all acknowledged that corruption is a 
national security threat.
    Corruption exists in every country, but unless you have a 
plan to deal with corruption, it becomes very corrosive to the 
underlying fabric of any democratic society.
    So I have introduced legislation with Senator Young that 
would use the model of the trafficking in persons that we do, 
where we evaluate every country in the world, including the 
United States, as to how well they are dealing with ridding 
trafficking of humans.
    We set up a similar regime for corruption, where we 
identify the problems we have in countries with corruption and 
put them on a tier rating with consequences.
    I have talked to the--to the Biden transition team about 
this. This is legislation that did pass our committee and pass 
the Senate in the last Congress. It was not enacted into law.
    Will you work with us so that we can have a very strong 
position in making it clear that every country can do better 
with fighting corruption, that there are certain standards that 
need to be met?
    Mr. Blinken. Yes, absolutely. I welcome that if confirmed 
and, beyond that, we want to elevate the work in combating 
corruption at the State Department. That is something I would 
welcome talking to you about.
    Senator Cardin. Thank you. I want to cover, if I might, 
your strategies in regards to the U.S.-Israel relations. We 
know that there has been strong support for the special 
relationship between Israel and the United States.
    We know that we need to maintain America's leadership in 
regards to that relationship because Israel has been 
marginalized in so many places and so many organizations around 
the world.
    You already mentioned the Abraham Accords. How do you 
intend to try to get back on track the Israel-Palestinian 
negotiations, where we know the only way for lasting peace in 
the Middle East is two states living side by side in peace, a 
Jewish state and a Palestinian state?
    Mr. Blinken. Thank you, Senator.
    First, let me start with this very basic proposition, which 
is that our commitment to Israel's security is sacrosanct and 
this is something that the president-elect feels very strongly.
    His very first trip when he was a member of this committee 
as a senator--his first foreign trip was to Israel.
    He met with a prime minister by the name of Golda Meir. She 
had a young aide by the name of Yitzhak Rabin, and he has 
worked with every Israeli prime minister since then. And so the 
foundation of our relationship is support for Israel's 
security. Having said that, the president-elect believes and I 
share this conviction that the best way and maybe the only way 
to ensure Israel's future as a Jewish democratic state and to 
give the Palestinians the state to which they are entitled is 
through our other so-called two-state solution, obviously, a 
solution that is very challenged at this moment. I think, 
realistically, it is hard to see near-term prospects for moving 
forward on that. In the first instance, what would be important 
is to make sure that neither party takes steps that make the 
already difficult proposition even more challenging and, 
certainly, avoids unilateral actions that makes that more 
challenging and then, hopefully, to start working to slowly 
build some confidence on both sides that create an environment 
in which we might once again be able to help advance a solution 
to the Israel and Palestinian relationship.
    Senator Cardin. Thank you, and, of course, you have strong 
support in Congress, as you have seen by our actions, and I do 
think that with Congress working with the administration we 
should be able to advance the process.
    One last question dealing with Central America. You talked 
about corruption. Senator Biden, Vice President Biden, had a 
game plan to try to deal with the corruption in Central America 
in a way for good governance that provided opportunities that 
would help against the migration, people wanting to leave 
because of fear of gangs, et cetera. Is there a game plan for 
how we are going to deal with Central America?
    Mr. Blinken. There is, and I think, as you rightly point 
out, at the--at the end of the Obama/Biden administration, 
toward the end, then Vice President Biden worked very closely 
with Congress, with this committee, to develop a plan to deal 
with the challenges posed by the systemic and endemic problems 
in the Northern Triangle countries, in Honduras and Guatemala 
and El Salvador, and these drivers, of course, were the primary 
drivers of the migration crisis that continues to challenge us 
to this very day.
    So getting at some of the root causes that are causing 
people to make that incredibly difficult decision to pick up 
one day, leave everything they know behind, leave their 
families, their country, their culture, their language behind 
because life is simply not tolerable in its present 
circumstance.
    If we do not help these countries address those causes, it 
is going to be very hard to get at the--at the root of the 
problem. And so there was a bipartisan plan put forward the 
past Congress with about $800 million to help countries in the 
Northern Triangle, but not simply throwing money at them but 
tying the assistance we were providing to concrete reforms that 
they would take in the criminal justice system, in combating 
corruption, in creating greater economic opportunity, et 
cetera. And we began to see some, I think, progress in each of 
those countries as a result of this assistance and 
coordination. Unfortunately, that plan went into abeyance in 
the last few years, and we will come forward to talk to you 
about a renewed effort at a bigger scale that involves 
assistance for the Northern Triangle countries but, again, 
assistance tied to concrete demonstrable reforms.
    Senator Cardin. Thank you very much. I appreciate it, and, 
again, thank you for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin. Senator Romney?
    Senator Romney. Thank you, Mr. Chairman.
    I would like to be associated also with the comments you 
made at the opening of this session, also the comments Ranking 
Member Menendez as well as the questions which he asked, and I 
would like to indicate my concurrence also with the comments 
made by Mr. Blinken as he began.
    A number of things stood out. One was his conviction, which 
I share, that we be involved in the world because the world is 
a safer place if we are involved in the world, and I think 
something we sometimes lose in our discussion of this 
involvement is that that does not mean necessarily military 
engagement in the world.
    It means promoting our values, our economic interests, and 
so forth, and we are involved in the world because it is good 
for America. Not just good for the world, but it is good for us 
and for the people of America and I applaud that recognition.
    I want to begin with some thoughts about China and think 
for the committee as well as for the American public that is 
watching this if you would perhaps describe for us what China 
has described as their ambition over this century, what they 
intend to achieve and how the world would be different if they 
were successful in doing so.
    Mr. Blinken. Thank you very much, Senator.
    China had a policy for decades of, as they described it, 
hiding their hand and biding their time in terms of asserting 
their interests beyond China's borders, leaving aside what they 
were doing within their borders.
    And I think what we have seen in recent years, particularly 
since the rise of Xi Jinping as the leader, has been that the 
hiding and biding has gone away and they are much more 
assertive in making clear that they seek to become, in effect, 
the leading country in the world, the country that sets the 
norms, that sets the standards, and to put forward a model that 
they hope other countries and people will ascribe to.
    And, Senator, my own conviction is that there are many, 
many very apparent weaknesses that China continues to try to 
hide when it comes to projecting its model. But in the absence 
of an alternative, they may do better than we think. And so I 
think our obligation is to demonstrate that the vision that we 
have, the policies we pursue, and the way we do it is much more 
effective in actually delivering for our people as well as for 
people around the world, to make sure that our model is the one 
that carries the day.
    If we are pulling back from the world, if we are pulling 
back from the institutions, if we are pulling back from playing 
that lead role and shaping the rules and the norms, that gives 
them a free field to redefine the century more on their terms 
than on ours.
    One of the ways--this is just one example, but I think one 
of the ways we see this acutely is there is an increasing 
divide between what you might call techno democracies--that is, 
technologically sophisticated countries that are also 
democracies--and techno autocracies like China, and whether the 
techno democracies or the techno autocracies are the ones that 
get to define how technology is used, the technology that 
dominates all of our lives, I think, is going to go a long way 
towards shaping the next--the next decades.
    We have a very strong interest in making sure that the 
techno democracies come together more effectively so that we 
are the ones who are doing the shaping of those norms and 
rules, and to the extent technology can be infused with values 
that these are more our values than theirs.
    But there is no doubt that I think China would like to 
recapture its extraordinary past but to do so in a way that is, 
potentially and very practically, as we are seeing already, 
inimical to our own values and our own interests.
    Senator Romney. Yeah, I think--my own view is that their 
ambition is to become the geopolitical leader of the world as 
well as the economic leader of the world, the military leader 
of the world and, ultimately, to impose their authoritarian 
views in such a way that would put in great risk the freedom 
and liberty of people here and around the world.
    How does Taiwan and our commitments to Taiwan figure in 
your thinking with regards to our interests in the region?
    Mr. Blinken. There has been a strong and long bipartisan 
commitment to Taiwan, Taiwan Relations Act, also the 
communiques with China, and part of that commitment is making 
sure that Taiwan has the ability to defend itself against 
aggression, and that is a commitment that will absolutely 
endure in a Biden administration. We will make sure that Taiwan 
has the ability to do that.
    I would also like to see Taiwan playing a greater role 
around the world including in international organizations. When 
those organizations do not require the status of the country to 
be a member, they should become members.
    When it does, there are other ways that they can 
participate, and I think our own engagement with Taiwan should 
be looked at and, indeed, that is being done. As you know, some 
regulations were promulgated by the outgoing secretary of 
state. We are going to take a hard look at those pursuant to 
the Taiwan Assurance Act and we will--we will look at that.
    I had the opportunity, Senator, when President Tsai was 
running for office, to actually receive her as a candidate at 
the State Department when I was last there. I spoke to her a 
number of times when she became president and I was deputy 
secretary of state. But the commitment to Taiwan is something 
that we hold to very strongly.
    Senator Romney. India has, perhaps, begun to see China in a 
new light, not only because of the border dispute which led to 
the death of many Indian military individuals. They have 
indicated an openness to work with us with actually military 
preparations as well and war games.
    How can we strengthen our ties with India and strengthen 
their resolve to defend democratic interests in the region?
    Mr. Blinken. I think India has been very much a bipartisan 
success story over successive administrations. It started with 
toward the end of the Clinton administration after the nuclear 
tests when relations were put back on a better--a better 
footing.
    Under President Bush, we secured a peaceful nuclear 
cooperation agreement with India. Then Senator Biden led the 
efforts at this committee to get that through Congress. And 
then I think during the Obama administration we deepened 
cooperation with India particularly in the defense procurement 
area, also on information sharing, and I think the Trump 
administration has carried that forward including with this 
concept of an Indo-Pacific and to make sure that we were 
working with India so that no country in the region, including 
China, could challenge its sovereignty and also working with it 
on concerns that we share about terrorism.
    So I think there are many ways in which we can deepen that 
cooperation to pursue the path that successive administrations 
have put us on. One area, I think, that has a lot of promise 
and maybe even necessity is actually climate. At the current 
rate things are going, India is poised over the next two or 
three decades to catch up to China in terms of emissions that 
it produces. At the same time, as you know, Prime Minister Modi 
has been a very strong advocate for looking at renewable energy 
and different technologies. I think there is a very strong 
potential for our countries to work together in that area.
    Senator Romney. Thank you. That does raise the question of 
what it is going to be like to serve in an administration where 
former Secretary Kerry is going to be working with you. I hope 
you are never tempted to give in in your strategy with regards 
to China in order to obtain a climate advantage that Secretary 
Kerry might be promoting. So your State Department commitment 
to confront China, I think, is a great--of great significance 
and, hopefully, the priority.
    Let me turn to another topic which was raised by Senator 
Johnson, appropriately, which is the number of accomplishments 
of the Trump administration shouldn't be lost and--in the 
foreign policy arena.
    One of those that is, perhaps, questionable by members in 
this committee relates to the JCPOA with regards to Iran. I, 
like Senator Menendez, was not supportive of the JCPOA and 
wrote a column suggesting that it was a mistake to enter into. 
My concern was that it allowed Iran to eventually have a 
nuclear weapon or have the capacity to have a nuclear weapon, 
and my view was that an agreement should only be reached if it 
prevented Iran forever from having a nuclear weapon. And I 
would only suggest that before the administration takes a 
posture with regards to the JCPOA that there be a very careful 
review of intelligence to determine just what the state is of 
Iran right now with regards to the health of its leaders, with 
regards to the fragility of its economy, because there may well 
be a potential to take a more aggressive stance than might have 
been anticipated and hope that you will give due consideration 
to not just reversing policies of the prior administration but, 
perhaps, taking advantage of some things done by the prior 
administration that may prevent an opportunity that we might 
otherwise not be able to recognize.
    Mr. Blinken. I welcome having the opportunity to do that, 
to plunge into the intelligence, if confirmed, and then also to 
working on that with you and other members of this committee.
    Senator Romney. Thank you, Mr. Blinken.
    The Chairman. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman, and Mr. Blinken, 
thank you for being willing to consider being nominated to this 
important post at this critical time and for being here today.
    One of the things we have heard in the last few days is 
President-elect Biden's interest in resuming the United States' 
position in a number of international alliances from--
everything from the Paris Climate Accords to the WHO.
    But, clearly, it is going to take more than that to rebuild 
our relationships around the world. So what else do we need to 
do and what are you thinking about as--if you are confirmed 
that you think is going to be important to restoring those 
relationships?
    Mr. Blinken. Senator, I think we have a, and several 
members of the committee have already alluded to this, we do 
have a big task ahead of us in restoring, revitalizing those 
relationships. I do think it starts, to use a colloquial term, 
with showing up again, with being present, with having our 
diplomats engaged in the painstaking, sometimes not very 
glamorous hard work of day in day out diplomacy and being in 
the room, not pulling back from it.
    And I know sometimes that sounds trite but I just think 
that we are so much better off, even in institutions and 
organizations that are, clearly, imperfect and need reform, we 
are, as a general rule, much better off being at the table than 
being outside the room if we are going to try to influence 
those institutions and organizations and move them in a better 
direction.
    So I think you will see in a Biden administration that kind 
of engagement, that kind of leadership. I think it is also fair 
to say that some of our allies and partners question the 
sustainability of our commitments, based on the experience of 
recent years, and that is going to be a hard hill to climb and 
they are going to have to make their own calculations about 
that.
    But I think it comes down to this. One is, and maybe this 
is an obligation that I think all of us share who are in this 
line of work, part of our challenge, I think, is to connect 
what all of us are doing to the--to the lives of the American 
people, because if we want to have their support for American 
leadership and American engagement in the world, we have to 
demonstrate that it is actually making an improvement in their 
lives or preventing something bad from happening. And I think 
COVID-19, to some extent, has maybe brought that home as 
nothing else has in recent years, going back to 9/11. But there 
are so many other areas where what we are doing around the 
world connects directly to the lives that our fellow citizens 
are leading and I think we need to make those connections.
    That will give us a stronger foundation upon which to build 
an engaged foreign policy and, in turn, one that is, I think, 
sustainable and that our partners and allies recognize as such.
    Last word on this. I think one of the things that we all 
have in common with our democratic partners and allies is the 
recognition that most of the challenges we face, as I mentioned 
earlier, simply cannot be addressed effectively by any one 
country acting alone, even the United States.
    And so whether it is a global pandemic, whether it is a 
change in climate, whether it is the spread of bad weapons, you 
name it, all of these things demand international cooperation 
and coordination and I believe that if we are stepping up and 
playing the role that we played in the past but focused on the 
problems of today and tomorrow, we will actually get a 
receptive audience to work with us.
    Senator Shaheen. Well, I certainly agree with that and 
agree with the importance of robust diplomatic efforts, and 
given the discussion about China this afternoon, it seems to me 
that we ought to look at what China is doing in terms of their 
increase in investments and diplomacy, their opening consulates 
around the world, their focus on economic assistance for other 
countries, because right now they are eating our lunch and we 
better do better if we are going to be able to compete--
continue to compete.
    When you and I had the opportunity to talk a couple of 
weeks ago, which I very much appreciated, but one of the things 
we talked about were the attacks on our diplomatic personnel in 
Cuba and China and some other locations, and I and a number of 
other senators have continuously asked the State Department and 
Secretary Pompeo to provide information about those attacks, 
about what caused them, about our response to them to make sure 
that our personnel are all treated fairly, and we were able to 
get some language into the defense bill that passed this year 
to do that.
    But we still have not seen all of the information that is 
available. Will you commit to be transparent with us about what 
is going on with those attacks and getting to the bottom of who 
is responsible and sharing that information with Congress and 
with the public where it is appropriate?
    Mr. Blinken. Yes, absolutely. And, Senator, if I can just 
say, first, that your leadership on this issue and that of 
Senator Rubio I know has been deeply appreciated within the 
department.
    I had some opportunity to get briefed on a few issues 
during this transition and nomination period, and one of the 
ones I asked for immediately was to get everything we knew 
about the so-called Havana syndrome and these attacks.
    And so I have read the reports. I was briefed on it. I 
welcome an opportunity to come and, if confirmed, to talk to 
all of you about it.
    Priority is making sure that our diplomats are safe and 
secure but also that we find out who is responsible, if a state 
actor or others are responsible, having accountability and 
making sure that we put the protections in place so that our 
folks are safe and secure. I would welcome working with the 
committee on that.
    Senator Shaheen. Good. I hope, Senators Risch and Menendez, 
that we can make that happen with this committee in the next 
month or so.
    Another topic we talked about briefly was the importance of 
ensuring that women are part of our foreign policy agenda, and 
I am very proud to have worked on legislation to try and 
include women at the table when we are negotiating conflicts 
and to ensure that they are part of those efforts because the 
data shows us that when that is the case those kinds of peace 
negotiations have a 35 percent chance of lasting 15 years or 
longer. Thirty-five percent better chance of lasting 15 years 
or longer.
    So it is something that makes sense, and I would hope, 
again, that the State Department would take a more robust 
effort to be engaged in that. The Defense Department has, I 
think, been more proactive in that and I hope that State will 
join in those efforts in the coming year.
    But one of the areas where it is, clearly, an issue is in 
Afghanistan, and we have not gotten any commitment from the 
Taliban on the role of women in any future Afghan state post 
peace talks. So I wonder if you could talk about what you think 
we should be saying to the Taliban.
    Mr. Blinken. Well, first, Senator, I could not agree more 
with the larger points you were making and that is very much 
the lens that we would intend to put on our foreign policy and 
on the work with the State Department and, again, would welcome 
the opportunity to work with you on that.
    When it comes to Afghanistan, we have a real challenge 
there, to state the obvious. First, yes, we want to end this 
so-called forever war. We want to bring our forces home.
    We want to retain some capacity to deal with any resurgence 
of terrorism, which is what brought us there in the first 
place, and we have to look carefully at what has actually been 
negotiated--I haven't been privy to it yet--particularly with 
regard to the agreement that was reached in the first instance 
between the United States and the Taliban to understand fully 
what commitments were made or not made by the Taliban, and then 
to see where they get in their negotiations with the Government 
of Afghanistan.
    I do not believe that any outcome that they might achieve, 
the Government of Afghanistan and the Taliban, is sustainable 
without protecting the gains that have been made by women and 
girls in Afghanistan over the last 20 years when it comes to 
access to education, to health care, to employment.
    And so I think we have a strong interest if that agreement 
is actually--if there is an agreement if it is going to hold up 
to do what we can to make sure that those rights are preserved. 
But I would acknowledge to you that is--I do not think that is 
going to be easy. But we will work on it.
    Senator Shaheen. Yeah. No, I appreciate that and I intend 
to ask General Austin the same question at his hearing this 
afternoon.
    Can you, finally--I know I am almost out of time--but can 
you talk about what our response to Putin's taking into custody 
Mr. Navalny should be and how we continue to put pressure on 
Russia?
    Mr. Blinken. It is extraordinary how frightened Vladimir 
Putin seems to be of one man. I think that speaks volumes, and 
Mr. Navalny is a voice, I think, for millions and millions and 
millions of Russians and their voice needs to be heard in 
Russia, and the attempts to silence that voice by silencing Mr. 
Navalny is something that we strongly condemn and we have 
spoken to it and will continue to do so.
    I would say, more broadly, this is probably a subject for 
ongoing conversation. We have talked about a number of 
challenges, but the challenge posed by Russia across a whole 
series of fronts is also one that is urgent.
    I have to say that I think members of this committee, 
particularly Senator Romney, have been very prescient when it 
comes to the challenge posed to us by Russia. There is a lot to 
be discussed and talked about there. But this is very high on 
the agenda for an incoming administration.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Rubio?
    Senator Rubio. Thank you. Thank you, Mr. Blinken, for being 
here. Thanks for your willingness to step back in and serve our 
country. Really should appreciate that for anyone who is 
willing to step up and do it. Obviously, everyone is asking 
about all the different parts of the world. I care about a lot 
of them so I am going to focus, if I can, on the Western 
Hemisphere for a moment--two specific things.
    The first is, as you are well aware, in Cuba there are very 
small, but not real large or substantial, small private 
businesses. The bulk of the economic activity in that country 
is controlled by a holding company named GAESA, which controls, 
basically, anything that makes money and they have actually--
any time they figure out something might make money they pull 
it into that.
    GAESA is controlled by the Cuban military and military 
officials, and the current administration, the Trump 
administration, put in place a policy that prohibits financial 
transactions with any of those companies that are controlled by 
that holding company owned by the Cuban military.
    And so, theoretically, if the Cuban Government would allow 
it, an independent Cuban can open up a restaurant, a hotel, or 
business and have transactions but not a company controlled by 
the Cuban military as identified through that holding company. 
Is that a policy that you would recommend to the Biden 
administration that we keep or not?
    Mr. Blinken. Senator, I would--I would propose to review 
that very, very quickly. In terms of the objectives that you 
cite, that makes very good sense to me.
    I think the question is, and I do not know enough to form a 
full judgment, is to whether it is, in fact, achieving those 
objectives and are there any other costs or consequences that 
we might want to look at.
    But certainly, the objective strikes me as exactly the 
right one. I would welcome an opportunity, if confirmed, to 
actually talk to you about that and, by the way, about our 
approach to Cuba, more broadly.
    Senator Rubio. On the issue of--as a matter of theory, 
because, obviously, the Cuban Government control--we can open 
up whatever we want to them but the Cuban Government controls 
what they allow and what they do not allow.
    So, as an example, if an individual Cuban decided to borrow 
money from a relative in the United States and open up a 
business, they get to do so under existing law, potentially, 
depending on how the transaction was structured. But the Cuban 
Government would not allow it. In fact, they would crack down 
on that.
    So I think we could agree, could we not, that to the extent 
that it involves economic independence for Cuban individuals or 
companies that they are allowed to start, that is one thing.
    But when it comes to these entities that are not state 
controlled entities, they are oligarchs that control it, 
basically, one individual, largely, because they want to be not 
just a politically totalitarian state but also an economic 
totalitarian state, that it would further the national interest 
to the United States to encourage more economic independence 
for the individual and less dependence on the state that gives 
them all this leverage over them. So I do sincerely hope that 
just because these were Trump policies, and I am not claiming 
that that is what you are saying, that we do not just throw the 
whole thing out and say, let us go back into the Obama policy 
that even some of the architects of it have since conceded 
could have been structured a little differently because they 
were unilateral and did not lead to some of the results we 
thought.
    I do think as you carefully review many of those steps that 
have been taken there was a logic and a rationale behind each 
of them that I hope you will--that will be taken into account. 
I think it serves our national interest to do so.
    On Venezuela, I am sure you are well aware that Maduro has 
repeatedly over the course of the last five to seven years 
utilized negotiations as a delay tactic.
    It is so egregious that even the Vatican says, we are not 
having any more negotiations. In fact, in a very strongly-
worded letter from the Pope to him, said, do you remember the 
last time we met?
    I am paraphrasing. Remember the last time we met you agreed 
to things. You never did any of them. There is no purpose in 
meeting anymore. Effort after effort to negotiate with Maduro's 
regime for whatever have all resulted in nothing. He uses it to 
buy time and to delay, and he uses it to divide the opposition, 
and, unfortunately, multiple players have fallen into that 
trap.
    The reality of it is that he will agree to all sorts of 
short-term reversible things--you know, release a political 
prisoner, what have you. But at the end of the day, he is not 
ever going to agree to free and fair elections because he 
cannot win them.
    Is it your view that our stance towards Venezuela should 
change? In essence, that we should no longer recognize Juan 
Guaid cents and enter into negotiations with Maduro?
    Mr. Blinken. No, it is not. I very much agree with you.
    Senator, first of all, with regard to a number of the steps 
that were taken toward Venezuela in recent years, including 
recognizing Mr. Guaido, recognizing the National Assembly as 
the only democratically-elected institution in Venezuela, 
seeking to increase pressure on the regime led by a brutal 
dictator in Maduro, as well as to try to work with some of our 
allies and partners.
    The hard part is that for all of those efforts, which I 
support, we, obviously, have not gotten the results that we 
need and one of the things I would really welcome doing if 
confirmed is to come and talk some of that through with you and 
with others on this committee because we need an effective 
policy that can restore Venezuela to democracy, starting with 
free and fair elections, and how can we best advance that ball.
    I think there are some things that we can look at, 
particularly, better stronger coordination and cooperation with 
like-minded countries. Maybe we need to look at how we more 
effectively target the sanctions that we have so that regime 
enablers really feel the pain of those sanctions, and, 
certainly, I believe there is more that we need to try to do in 
terms of humanitarian assistance, given the tremendous 
suffering of the Venezuelan people, as well as helping some of 
the neighboring countries that have borne the brunt of refugees 
from Venezuela.
    But I would welcome an opportunity, if confirmed, to talk 
to you about that.
    Senator Rubio. I would just encourage that every time we 
talk about issues like Venezuela that it is important we point 
to the direct national interest of the United States in the 
matter because I think we--sometimes people start to get the 
imagery that this is about nation building or picking sides in 
an internal dispute.
    The reason why the U.S. cares about what is--we care about 
democracy. We care a lot about human rights. But there is a 
direct national interest to the United States involved. You 
have a regime that openly houses and gives safe harbor to 
multiple terrorist organizations like the FARC and the ELN that 
traffic drugs that, in turn, threaten to destabilize and even, 
potentially, topple at some point or seriously threaten the 
Government of Colombia, which would be a massive blow to 
regional stability and, ultimately, impacts us as well.
    It is already having a migratory pressure on this country 
but on countries in the region, in Peru and Brazil and Colombia 
which, ultimately, also impacts us.
    They have very friendly relations, military and otherwise, 
with the Russians and increased evidence of Iranian interest 
and activity including the sale of oil or gasoline in exchange 
for gold that they are stealing from their reserve.
    So I just encourage to constantly point to the fact that 
this is not just a do-gooder effort here. There is a direct 
national security interest to the United States involved in 
what happens there.
    You may have been asked this already but I think it is 
important. Would you acknowledge, as I think a growing number 
of people have, that there was once here a bipartisan consensus 
on China that once they got rich and they got prosperous they 
would become more like us.Mr. Blinken. Yes.
    Senator Rubio. That consensus was flawed?
    Mr. Blinken. I think we found that out in practice. Yes, I 
think there was a broad consensus that economic liberalization 
in China would lead to political liberalization. That has not 
happened.
    Senator Rubio. Beyond the political liberalization, their 
intent was never--it goes deeper, that it goes to a dangerous 
imbalance it has now developed in the relationship on a 
commercial front, on--and on a geopolitical front and, 
increasingly, potentially, on a military front.
    You have seen a massive expansion on military capability 
both technological and particularly in the asymmetric abilities 
that they have that really have no precedent, and it is now 
clear that they are making the argument to the world and, 
frankly and unfortunately, we, domestically, have helped to 
make this argument, that American style democracy is too 
chaotic and that what we have here, them, the Communist Party 
of China, is much more stable and a much better model to 
follow.
    The bottom line is, and I know that this is a--you know, 
people like to throw around phrases like cold war. I think this 
is very different than the Cold War.
    But do you have any doubt in your mind that the goal of the 
Chinese Communist Party is to be the world's predominant 
political--a geopolitical, military, and economic power and for 
the United States to decline in relation?
    Mr. Blinken. I do not.
    Senator Rubio. You have no doubt?
    Mr. Blinken. I have no doubt.
    Senator Rubio. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Rubio.
    I am told that Senator Coons is with us electronically. Is 
that true?
    Senator Coons. That is correct, Mr. Chairman. Can you hear 
me?
    The Chairman. I can hear you. I cannot see you. Oh, now I 
can see you. There you are.
    Welcome, Senator Coons. The floor is yours.
    Senator Coons. Thank you, Chairman Risch, Ranking Member 
Menendez. Thank you so much for a chance to be with you.
    Tony, it is great to be with you again. Thank you to you 
and your family, to Evan and John and Lila, for your 
willingness to serve once again.
    Given your previous experience as deputy secretary of 
state, deputy national security advisor, as the staff director 
of this important committee, you have excellent experience and 
credentials, and in your opening statement you, once again, 
reinforced the ways in which your life experience, your values, 
reinforce all the ways in which you will be an excellent 
secretary of the state--secretary of state for this nation.
    I am sorry not to be with you in person. I was here for the 
send-off celebration as the president-elect departed Delaware 
and headed towards Washington to begin the inauguration.
    But it has been exciting to me to have a chance to hear my 
colleagues, both Democrats and Republicans, raise challenging 
issues and to hear your engaged and thoughtful and forward-
looking answers. We gather today at a moment when it is a real 
challenge for all of us that the events of last Wednesday 
highlighted some of the deep divisions in our country and some 
of the challenges our democracy faces, and I am hopeful that 
after a national day of service yesterday celebrating Martin 
Luther King Day, after this evening's national reflection on 
all the American lives that have been lost in this COVID 
pandemic, and after tomorrow's inauguration, that we can begin 
the work of investing in our democracy, rebuilding our 
bipartisan consensus around some of the challenges facing us in 
the world and to do that in partnership with you.
    Let me, first, start with something that has been the topic 
of many questions from colleagues, the U.S.-China relationship 
and how that in many ways will define this century.
    I very much look forward to working with the incoming 
chairman and ranking member of this committee, with you, Mr. 
Blinken, and with many of my colleagues and figuring out how we 
craft a durable, a sustainable, and effective and a bipartisan 
strategy with regards to China.
    You have made reference, Tony, to the techno democracies 
and techno autocracies of the world and the ways in which there 
is an intersection between concerns about digital privacy, a 
digital promotion of democracy, intellectual property, and ways 
in which China's bad behavior on the world stage with regards 
to IP is laying the groundwork for them to successfully export 
their model of digital authoritarianism.
    Do you think in confronting China's digital 
authoritarianism we should make that a part of the agenda of 
our convening a global group of digital democracies, something 
like the D-10 that Prime Minister Boris Johnson has proposed, 
or do you think we should pursue something with more weight, a 
regional structure like a digital free trade zone of 
democracies aligned like the United States in order to help 
keep emerging technologies free and available and open to the 
world?
    Mr. Blinken. So my sense is everything should be on the 
table. It may be something that requires multiple steps to get 
to the destination in the first instance, bringing concerned 
countries together--the digital democracies together. An 
appropriate forum, I think, is the place to start.
    And I do not want to minimize the job. We, obviously, have 
disagreements among democracies about a lot of profound 
questions about how technology is used. So we have got some 
work to do just to get our own collective house in order.
    But I think you start there and then some of the more 
expansive ideas, Senator that you alluded to is something that 
we might be able to get to and work toward.
    Senator Coons. I would be excited to do that work with you.
    Senator Menendez, Senator Risch, a number of colleagues 
raised concerns about Iran and Iran's aggressive pursuit both 
regionally of influence of their ballistic missile program and 
of their restarting their more robust enrichment program and 
the threat that that poses to the region and to our security.
    I also just want to renew my commitment to the U.S.-Israel 
relationship and to trying to pursue some positive path towards 
a two-state solution.
    The Middle East as a region remains as unsettled and 
unstable as it has ever been. Although there was progress in 
some of the normalization aspects of the Abraham Accords that 
you have recognized, the administration will face real 
challenges in assessing Iran's willingness to negotiate in good 
faith and the path forward.
    I look forward to working with you on this challenge and 
making sure that we build a framework with our core allies in 
Europe that can take into account these broader destabilizing 
actions by Iran.
    Let me ask, quickly, about two other things going on in the 
region that haven't been addressed so far. Recently, outgoing 
Secretary Pompeo designated the Houthi movement in Yemen as a 
foreign terrorist organization.
    Many humanitarian leaders including the head of the World 
Food Program and senators on both sides of the aisle denounced 
that designation as something that may well create now a 
humanitarian crisis of greater scale.
    The president-elect has said he would end U.S. support for 
the war in Yemen and that U.S. support for humanitarian relief 
is critical.
    What steps do you think we can or should immediately take 
with regards to Yemen? How can the Senate help and how do you 
see this as a piece of that broader regional puzzle of working 
through, pushing back on Iran's projection of force through 
proxies while still reexamining some of our relationships in 
the region that have become more complicated by their human 
rights records?
    Mr. Blinken. First, Senator, we need to be clear eyed about 
the Houthis. They overthrew a Government in Yemen. They engaged 
in a path of aggression through the country. They directed 
aggression toward Saudi Arabia. They have committed atrocities 
and human rights abuses, and that is a fact.
    What is also a fact, though, is that the Saudi-led--
[Technical issue.]
    Mr. Blinken.--in Yemen--[Technical issue.]
    Mr. Blinken.--Houthi aggression has contributed to what is 
by most accounts the worst humanitarian situation that we face 
anywhere in the world, and one aspect of that situation is that 
about 80 percent of the Yemeni population right now is in areas 
controlled by the Houthis.
    And whether we like it or not, we have to find ways to get 
assistance to them if we are going to do anything about 
addressing this situation. And so my concern, deep concern, 
about the designation that was made is that, at least on its 
surface, it seems to achieve nothing particularly practical in 
advancing the efforts against the Houthis and to bring them 
back to the negotiating table while making it even more 
difficult than it already is to provide humanitarian assistance 
to people who desperately need it. So I think we would propose 
to review that immediately to make sure that what we are doing 
is not impeding the provision of humanitarian assistance even 
under these difficult circumstances.
    I recognize that some have talked about carve outs for 
American providers of humanitarian assistance. The problem 
there is that if the carve outs do not apply to everyone around 
the world, it is not going to get the job done because most of 
the humanitarian assistance provided to Yemen is not coming 
from the United States. It is coming from other countries. So I 
think we have got a very specific and concrete problem that we 
need to address very quickly if we are going to make sure we 
are doing everything we can to alleviate the suffering of 
people in Yemen.
    Senator Coons. Thank you for that answer. I need to move 
forward, given the limitations of time.
    I was proud to have a chance to work with a number of 
colleagues on this committee in 2018 to help pass the BUILD Act 
that created the new Development Finance Corporation, in 2019 
the Global Fragility Act, which set a new process and framework 
for looking at fragile states, borrowing from the lessons of 
Plan Colombia.
    One of the areas, as we both know, the president-elect has 
been passionate about is the Northern Triangle and finding ways 
to build a sustained long-term strategy--[Technical issue.]
    Senator Coons.--secure stability in a region that has long 
known fragility.
    And at the end of last year, we passed a bipartisan package 
that creates the Nita Lowey Middle East Partnership for Peace 
Fund to provide support for a partnership between Palestinians 
and Israelis to provide for economic ventures and opportunity. 
Are these three tools that you look forward to working with us 
on and that you will embrace in your leadership role as the 
Biden administration looks for new tools to use in advancing 
our broader objective?
    Mr. Blinken. Yes.
    Senator Coons. And can you help me understand how you view 
the challenge of combating fragility and putting prioritization 
in place between diplomacy, defense, and development?
    Mr. Blinken. So first thing, I think the Fragility Act is a 
terrific foundation upon which to do this. I have had some 
conversations with the president-elect about exactly this and 
it is very much on his mind, that is, the risks that continue 
to be posed emanating from fragile states and the national 
security interests that we have as well as--[Technical issue.]
    Mr. Blinken.--what we can to help strengthen fragile states 
and prevent fragile states from becoming failed states.
    And I think you put in place a very good foundation for 
thinking about that and, of course, part of this is making sure 
that our development programs are fully and thoroughly 
integrated into our foreign policy, making sure that they are 
delivering and effective because we are conscious that we are 
using the taxpayers' money in advancing them but also making 
sure that we put these front and center, that they are not an 
afterthought. They are actually the first thought, along with 
our diplomacy in our foreign policy.
    Senator Coons. Thank you, and I think the Development 
Finance Corporation provides a critical new tool as long as it 
is a development finance corporation.
    Let me just--a number of colleagues have referenced Russia 
and the tragic arrest of Navalny and the importance of 
advancing human rights and supporting the fight for democracy, 
whether it is in failed authoritarian states like Venezuela or 
it is in Putin's Russia or it is elsewhere in the world.
    You know my long concern for Africa. There was just a 
flawed--a deeply flawed election in Uganda where Museveni has 
again held on to power in no small part by engaging in a 
blatant disregard for human rights.
    There are other countries of real concern in Ethiopia, the 
violence in the Tigray region, in Sudan, on the other hand, 
where there has been a encouraging transition to democracy 
recently.
    How do you plan to better support the fragile transition in 
Sudan while pushing back on those countries that are 
backsliding on their commitment to democracy like Uganda or, as 
some would argue, Ethiopia?
    Mr. Blinken. So I think it starts with our very active 
engagement, not being AWOL from the problems that emerged in 
Ethiopia. I share your deep concerns.
    We have seen a number of deeply, deeply concerning actions 
taken including atrocities directed both at people in Tigray, 
directed at Eritrean refugees in Ethiopia.
    We, I think, need to see much greater access to the region, 
accountability, an effort to put a dialogue in place so that 
the issues that cause the conflict can actually be discussed 
and litigated as opposed to dealt with through violence.
    We need to see restoration of communications. We need 
access for humanitarian assistance in the region, and I worry 
as well that what started there has the potential to be 
destabilizing throughout the Horn of Africa.
    So I would like to see American diplomacy fully engaged in 
trying to contend with this--with this challenge. You cited a 
number of other places where we have--I share your concerns 
about the elections in Uganda, concerns in Cameroon recently, 
particularly violence directed at the Anglophone population.
    So there are a whole series of places where we have 
challenges where, I think, the United States can help make a 
difference and that starts with being engaged.
    Senator Coons. Thank you. Mr. Chairman, thank you for your 
indulgence. If I can just, in closing, say I share your 
commitment to a diverse workforce in the State Department and 
to ensuring that the State Department has the resources it 
needs to do its job well. I could not agree more, Tony, with 
your statement that we have to connect foreign policy to the 
lived daily concerns of average working people across this 
country. You will be an excellent leader in doing so and I very 
much look forward to supporting your nomination and to working 
with you.
    Thank you for your indulgence, Mr. Chairman.
    The Chairman. Thank you, Senator Coons.
    Next up is Senator Graham, and after that will be Senator 
Murphy. However, between the two and after Senator Graham we 
are going to take a humanitarian break for about 10 minutes, 
since we have been at it for a couple of hours.
    So you are holding up well, Mr. Blinken, but we do not--we 
do not want you to wither. So we will take a break after 
Senator Graham's--his usual poignant questions.
    Senator Graham?
    Senator Graham. Thank you. I will try to make sure that I 
do not violate the Geneva Convention here.
    The one thing I want to say is I think you are an 
outstanding choice by President-elect Biden. I have known you 
for a long time and I think you are loyal to the president and 
I think you understand the world.
    We have different viewpoints on certain issues, but to me, 
the whole point of this is to nominate qualified people, get 
them in place as quickly as possible, reach agreement where you 
can and disagree when you must.
    So Senator Coons and I are going to be working together on 
the State Department appropriations account. You have my 
complete support. The people at the State Department are 
incredibly patriotic. They live in dangerous places doing very 
dangerous things. They do not get the notoriety they deserve.
    So I am just a big fan of soft power in foreign policy. The 
military has a very limited ability to change things and they 
know it more than anybody else.
    So I think you are an outstanding choice. I intend to vote 
for you but we are going to quickly go around the world and try 
to get a 30,000-foot view of where we--where we start this new 
administration. Do you still consider Iran the largest state 
sponsor of terrorism?
    Mr. Blinken. I do.
    Senator Graham. Okay. Do you consider Israel a racist 
nation?
    Mr. Blinken. No, I do not.
    Senator Graham. Okay. That is a good start.
    Afghanistan. Do you agree that what--I agree totally with 
Senator Shaheen that if we abandon the Afghan women, who fought 
so hard to have a say about the future of their children, it 
will affect our children's future. Do you agree with that?
    Mr. Blinken. I do.
    Senator Graham. If we have learned anything from 
Afghanistan, taking your eye off the ball does not really work 
well, and having 100,000 troops over there and spending 
trillions of dollars really does not work well, either.
    We are down to 2,500, a residual force with a 
counterterrorism mission. Do you think that is responsible at 
this point?
    Mr. Blinken. I know the president-elect wants to make sure 
that even as we pull back our forces that we retain the 
capacity to deal with any reemerging--
    Senator Graham. And anything would be conditions based?
    Mr. Blinken. That is correct.
    Senator Graham. Do you trust the Taliban to police al-Qaeda 
and ISIS regarding attacking Americans?
    Mr. Blinken. Trust is not a word that I would apply.
    Senator Graham. Yeah. No, that is right. I agree with you. 
So any agreement that trusts the Taliban to police al-Qaeda and 
ISIS without us having some say, I think, would be a bad deal. 
I appreciate that very much.
    On immigration, you are soon going to be secretary of state 
with, hopefully, a good bipartisan vote. I think you deserve 
it. What would you tell the people in a caravan coming toward 
America?
    Mr. Blinken. I would say do not--do not come.
    Senator Graham. Yeah, I think that is a good message. We 
are going to work on comprehensive immigration reform. I will 
try to help where I can. But just do not come. That creates 
more problems than it solves.
    When it comes to asylum, asylum seekers have been staying 
in Mexico under the Trump administration. Do you find value in 
that program?
    Mr. Blinken. I have issues with that program, Senator. I 
think that we need to make sure that we are approaching what we 
do when it comes to those seeking asylum, seeking protection, 
in this country in line with the finest traditions that this 
country has shown from generation to generation.
    Part of that is the ability that is both, I believe, a 
legal one and a moral one, from where I sit, to allow people to 
make asylum claims and to deal with those claims expeditiously. 
People who need protection should get it. Those who do not meet 
the criteria should, with dignity, be removed.
    But our problem is that we are not resourced adequately to 
do this, and that is what we need to work on.
    Senator Graham. I could go a bit further. I think it has 
been gamed. I mean, I would like to increase the number of 
people that come here seeking asylum. There are troubled parts 
of the world. A lot of people come here for economic reasons. 
They realize that if they get one foot in the United States and 
claim asylum, they will be given a hearing date in the future 
and most of them do not show up.
    Do you think we need to make sure that that narrative does 
not restart?
    Mr. Blinken. I agree, and we need a humane, a fair, and an 
orderly system. That is imperative. And I know you heard the 
president-elect talk about the--
    Senator Graham. Some people on the left have been saying 
that we should decriminalize entry into the country. Do you 
agree with that?
    Mr. Blinken. Not my jurisdiction, but I disagree.
    Senator Graham. Okay. All right.
    China. Secretary Pompeo designated the Chinese Communist 
Party as having engaged in genocide regarding the Uighur Muslim 
population. Do you agree with that designation?
    Mr. Blinken. That would be my judgment as well.
    Senator Graham. You do agree?
    Mr. Blinken. Yes.
    Senator Graham. We are on a good start here.
    [Laughter.]
    Senator Graham. So this--really, I just very much 
appreciate that. Do you believe that the Chinese Communist 
Party misled the world about the coronavirus?
    Mr. Blinken. I do.
    Senator Graham. What price, if any, should they pay?
    Mr. Blinken. When it comes to China's role in the virus, I 
think we already--we want a--there is a, as you know, an 
investigation--
    Senator Graham. Yeah.
    Mr. Blinken [continuing]. That is ongoing. We, obviously, 
want to see the results of that investigation. But there are 
some things we already know.
    Senator Graham. If they do not cooperate, what should we 
do?
    Mr. Blinken. That we have to look at very hard because that 
cooperation--this is really the point, I think, of where we 
need to go on this.
    What we do know already with regard to China and the virus 
is that they did not provide transparency. They did not share 
information. They did not give access when it mattered most in 
the early days of this virus.
    Had they done so, it is possible that the course of the 
virus would have been different and we could have dealt with it 
sooner and more effectively. My sense, Senator, going forward 
is that what we should be focusing on--I know people talk about 
the punitive. I would be very focused on the preventative, 
which is to say----
    Senator Graham. Sure.
    Mr. Blinken [continuing]. What steps will China take, going 
forward.
    Senator Graham. Sure, like wet markets. Right.
    Mr. Blinken. For example, yes, a very good example.
    Senator Graham. Yeah. I agree with that.
    When it comes to Taiwan, it has been the policy of the 
United States to, basically, for lack of a better term, to 
guarantee Taiwanese democracy. What is your view of that?
    Mr. Blinken. My view is we have an abiding and long-
standing and bipartisan commitment to Taiwan and to the Taiwan 
Relations Act. We need to make sure that they have the means to 
deter aggression, to defend themselves.
    I would like to see them, Taiwan, even more engaged in the 
world. It is, in many ways, a model democracy, a strong 
economy, and a technological powerhouse, and of course, the way 
they have dealt with COVID-19 has a lot of lessons to teach us.
    Senator Graham. But if the Chinese Communist Party decided 
to use military force against the population in Taiwan, that 
would create great upheaval throughout the world and they would 
pay a heavy price. Is that fair to say?
    Mr. Blinken. That would be a grievous mistake on their 
part.
    Senator Graham. Hong Kong. Seems to be that they are not 
really paying much attention to what Congress is doing and what 
this administration is doing regarding Hong Kong. What can we 
do to get their attention that we are not doing?
    Mr. Blinken. So I wish we had taken some steps earlier. The 
national security law, the crackdown on media, the crackdown on 
free speech, on assembly--all of that has, I think, put in 
tatters the notion of real freedom and autonomy in Hong Kong, 
which were guarantees in the handover.
    One of the things--this is not going to fix the problem, 
but I would like see us, for example, be able to take in some 
of those fleeing Hong Kong and fleeing the repression, for 
standing up for their democratic rights, and I know there is 
some legislation that looks at doing that.
    But I think we have to take a hard look about what our 
position should be on the presence of institutions and 
companies there.
    Is it going to remain a hub and a financial center? Does 
Beijing then get both sides of the benefit? We should take a 
hard look at that.
    Senator Graham. I think the first thing we have to do is 
send a stronger message, because they are, clearly, not 
listening to this Congress. And this administration's efforts, 
which I applaud, have fallen short and it is very difficult.
    When it comes to Turkey, the Congress has been pretty tough 
on Turkey for continuing to purchase Russian weapons and the S-
400. Do you believe that Turkey needs to continue to be 
sanctioned until they change their behavior?
    Mr. Blinken. So I have looked at some of the so-called 
CAATSA sanctions. I think that what Turkey has done as a NATO 
ally in acquiring the S-400s is unacceptable.
    The idea that a strategic--so-called strategic partner of 
ours would actually be in line with one of our biggest 
strategic competitors in Russia is not acceptable.
    I think we need to take a look and see the impact that the 
existing sanctions have had and then determine whether there is 
more that needs to be done.
    Senator Graham. Okay. I think this administration may have 
yesterday, I do not know, lifted a travel ban from Europe and 
other areas with a high COVID-19 infection rate. Are you 
considering restoring that ban?
    Mr. Blinken. So right now that is----
    Senator Graham. I would encourage you to.
    Mr. Blinken [continuing]. That is--it is above my pay 
grade. So----
    Senator Graham. I would encourage you to. The reasons--you 
know, the caravans have multiple level problems and it would be 
odd to just keep a travel ban in Europe but, you know, allow 
people to mass on our border.
    So I hope we do not--I hope we, you know, continue to fight 
the illness and prevent transmission. Finally, so many people 
wonder where our biggest threat is. I am going to just end with 
this thought. China is a problem--multiple layer problem. 
Russia is up to no good.
    There is two groups out there that I worry the most about. 
I think if the Iranians had a nuclear weapon they would use it.
    I think the ayatollah is a religious Nazi. Will you agree 
to at least talk to me and Senator Menendez about an 
alternative to the JCPOA when it comes to Iran?
    Mr. Blinken. I welcome talking to both of you and members 
of this committee about the way forward on Iran.
    Senator Graham. Okay. And, finally, this is the 20th 
anniversary of 9/11. September this year will be 20 years. I 
think they are going to remind us that they are still out 
there.
    Do you agree with me that the worst thing that America 
could do is have a false sense of security when it comes to 
radical Islam?
    Do you agree with the following proposition, the only 
reason they haven't killed more of us is they cannot find a way 
to do it and we have pretty much kept our foot on their throat?
    Mr. Blinken. I share your concerns about the ongoing threat 
posed by what is left of al-Qaeda, ISIS, other extremist groups 
that target the United States.
    Senator Graham. Finally, do you believe if they had a 
nuclear or chemical weapon, if they could acquire one, they 
would use it?
    Mr. Blinken. I think that is a--there is a high probability 
that if they had access to such a weapon, certainly, in the 
past they would have and, going forward, something to be 
concerned about.
    Senator Graham. Twenty years later, where do we stand 
regarding the fight against al-Qaeda and ISIS?
    Mr. Blinken. I think we have demonstrably made significant 
progress in different parts of the world against them when it 
comes to al-Qaeda in Afghanistan, the original threat. They are 
still a problem.
    They are still a presence. They are still a relationship 
with the Taliban. It is much diminished from what it was.
    But precisely to your point, if we take our eye off that 
ball there is a risk that it comes back. ISIS, I think, 
actually across two administrations we succeeded in taking away 
its geographic caliphate in Iraq and in Syria.
    But there, again, we cannot take our eye off the ball and, 
of course, we have seen affiliates of both groups spread to 
different parts of the world.
    So we still have our work cut out for us.
    Senator Graham. Thank you. I look forward to working with 
you.
    Thank you.
    The Chairman. I think all of us agree with those comments 
and, particularly, right now for whatever reason, the Sahel 
seems to be their preferred place to reemerge. So that is 
something that is going to need your attention.
    With that, Senator Murphy, you have been incredibly patient 
from the very beginning but I am going to ask you to be patient 
for a little longer, and we will take a 10-minute humanitarian 
break.
    The committee will be at ease subject to the call of the 
chair.
    [Recess.]
    The Chairman. The committee will come to order.
    Senator Murphy, you are up.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Good to see you, Tony. Thank you for sharing that really 
wonderful story about your stepfather out the outset. You know, 
we are not a perfect nation. We have been flawed from the 
beginning. We are always seeking perfection.
    But I imagine at that moment America looked perfect and it 
is a reminder of the unique power that this country has to 
effect change and be a force for good in the world. Thanks for 
beginning us with that inspirational story.
    I wanted to come back to this question of the war in Yemen 
for a moment. I thank Senator Coons for beginning this 
conversation. It has been just a national security disaster for 
the United States. Over a hundred thousand children have died 
of starvation and disease.
    AQAP, to Senator Graham's point, may be the arm of al-Qaeda 
with the clearest intentions to hit the United States, remains 
active, controlling territory and, I would argue, has 
strengthened Iran the longer that it has gone on.
    President-elect Biden made a commitment during the campaign 
to end our military support for the Saudi-led coalition and I 
wanted to ask you to speak to that commitment but then also 
maybe to step back and talk about what this--what our work 
through this coalition has taught us about the path forward in 
our relationship with Saudi Arabia. This is an important ally, 
a strategic partner, but one that has begun to act very 
differently and Yemen is an example of a set of behaviors that 
has gone off the rails in many ways and probably argues for us 
to take a different approach to an ally but an ally whose 
interests often do not align with ours any longer.
    So the specific question of military support for the 
coalition and then a broader look at the alliance.
    Mr. Blinken. Thank you very much, Senator.
    The president-elect had made clear that we will end our 
support for the military campaign led by Saudi Arabia in Yemen, 
and I think we will work on that in very short order once the 
president-elect is president for the reasons that you have 
cited.
    We have seen Yemen become the worst humanitarian situation 
in the world and, of course, as we were discussing earlier, the 
Houthis bear significant responsibility for what has happened 
in Yemen. But the way the campaign has been conducted has also 
contributed significantly to that situation and so our support 
should end. We, of course, as you cited, have a partnership 
with Saudi Arabia. We, I believe, should do what we need to do 
to help defend Saudi Arabia against aggression directed at 
Saudi Arabia including from Yemen and from the Houthis.
    But, again, as you have said, we have real concerns about 
some of the policies that our Saudi partners have pursued and, 
accordingly, the president-elect has said that we will review 
the entirety of the relationship to make sure that as it stands 
it is advancing the interests and is respectful of the values 
that we bring to that partnership.
    Senator Murphy. You made, I think, an interesting and, I 
think, very candid comment in response to Senator Johnson's 
query about Libya, that we were met with realities on the 
ground that we did not expect. You could probably tell a very 
similar story about our engagements in most Middle Eastern 
theaters of war, that we had a plan and then once we got on the 
ground that plan was met with realities that we did not expect, 
whether it is the ability of Iran and al-Qaeda to fill vacuums 
in Iraq, the difficulty of finding moderate vetted rebels in 
Syria to train.
    They could be effective in pushing back against Bashar al-
Assad, and I think there is probably a lot of reasons for the 
series of mistakes we have made. Hubris is probably one of 
them, and so I appreciate your comment about humility.
    But I also think it is due to the--I think a secondary role 
that State has played often in many of these strategic 
conversations over the years because of a lack of capacity that 
State has.
    In Syria, when we put 2,000 troops on the ground we had, at 
time, only one diplomat, one State Department personnel, there 
even though every single general came before us and told us 
that there was no military solution inside Saudi Arabia--inside 
Syria.
    And so this leads me to two connected questions. One, what 
are the capacities that State does not have today that it needs 
to be able to compete? If the threats that are posed to the 
United States in the next 50 years are by and large not 
conventional military threats, what does State need to be able 
to respond?
    And second, especially in these really dangerous fragile 
places how do we get the State Department out of its bunker? 
Especially in the wake of Benghazi, the walls have gone up, and 
so 18-year-old Marines are out doing the work of diplomats.
    So what kind of capacities do we need? How do we get State 
out on the front lines?
    Mr. Blinken. I really appreciate the question. I think it 
goes to the heart of the mission I would have responsibility 
for if I am confirmed to this job.
    First, in terms of State capacity, in the first instance, 
we have, as a result of attrition, as a result of morale, we 
have seen a drop off in the State personnel where we are 
about--now about a thousand short of the numbers we were at 
just four years ago. That in and of itself is a problem.
    But it is not simply a matter of bringing people back, 
filling the slots that are now empty. It is making sure that to 
the best of our ability we are building a workforce that has a 
skill set to deal with the incredibly complex challenges that 
we are facing that are very different than the challenges we 
faced in previous generations. We have some authority. I 
suggest we probably need more that give us the flexibility to 
bring talent in in different ways at different times to meet 
some of those needs. We need to have the expertise in global 
health. We need to have the expertise in climate. We need to 
have the expertise in technology, given the dominant role that 
it plays and that is something that, if confirmed into this 
job, I am going to spend some real time on and working with 
this committee to make sure that we have the ability to do 
that. Part of this is about spreading the message that this is 
a wonderful career to have and a good place to be. I have been 
distressed by the fact that applications to take the Foreign 
Service exam dropped significantly. So that is something we 
need to repair.
    And then, finally, on this point, Senator--we talked about 
this a little bit earlier--the skill set, the talent set, that 
is usually important. But the workforce also has to look like 
the country it purports to represent, and so one of the things 
that I am determined to focus on, if confirmed, is on making 
good on building that kind of workforce, making sure that we 
are recruiting, we are retaining, and we are accountable for a 
workforce at State that looks more like the country it 
represents. And I think there is a lot of things that we can do 
to achieve that and make real progress.
    Senator Murphy. I think you are right, this is about 
capabilities. I do think it is also just about a finite number 
of resources. It does not make sense to me, given the threats 
presented in the United States today that we have more military 
band members than we do diplomats, and we have to watch what 
China is doing.
    2019 was the first year in which they had more diplomatic 
posts around the world than the United States did. If we are 
going to meet them on a playing field even strength then we 
need to reconcile----
    Mr. Blinken. Like I said, I very much agree with that and 
my colleagues will probably take this out on me for saying it, 
but when I look at the fact that the last requested increase 
for the Defense Department, the increase over its existing 
budget, equaled the totality----
    Senator Murphy. Right.
    Mr. Blinken [continuing]. Of the State foreign operations 
budget, I think something is out of whack.
    Senator Murphy. In the minute I have remaining, I would 
love to turn to a subject we haven't touched upon and that is 
Ukraine.
    Obviously, the subject of much consternation and discussion 
in the United States Congress over the last two years, but a 
country that is still enormously fragile and a country that is 
in need of a much more stable friendship from the United 
States.
    The focus here has been, largely, around this question of 
lethal arms. I came around to support that notion. At the same 
time, I do not think Putin has any intention of actually 
marching an army to Kiev. He wants to disempower that nation 
economically and politically so that eventually they just give 
up and hand the keys back to a Kremlin-friendly government.
    And so it is really a question of can we give them the 
political tools and the economic health in order to stay 
sovereign and independent, and I would love your quick thoughts 
on the path forward with Ukraine.
    Mr. Blinken. I spent a lot of time on Ukraine when I was 
last in government. I share your--both your commitment to 
trying to help it, particularly to stand up against the 
aggression that we have seen from Russia, both with regard to 
the attempted annexation of Crimea and, of course, what is 
happening--the conflict in the Donbas in eastern Ukraine.
    And I very much agree with you that we have to have a 
comprehensive approach. I supported the provision of lethal 
defensive assistance to Ukraine. But to the extent that Russia 
is the threat from without, the threat from within is 
corruption.
    The threat from within is a lack of institutions that can 
effectively manage the country, and we have to help the 
Ukrainians deal with that, too, because even if we are 
successful in at least keeping--helping them keep Russia at 
bay, if that threat from within continues then it is going to 
be very difficult for them to build a viable democracy.
    Senator Murphy. Thank you for your candid conversation with 
us today. Notwithstanding all of that agreement with Lindsey 
Graham earlier, I look forward to supporting your nomination.
    Thank you, Tony.
    Mr. Blinken. Thank you, Senator.
    The Chairman. Thank you, Senator Murphy. I think with that, 
we will move to Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Blinken, I appreciate your being here today to testify. 
We all value your willingness to serve the country. The role of 
the secretary of state is vitally important to protecting our 
national security as well as advancing American interests and 
our values across the globe.
    With this in mind, your nomination to me raises concerns. 
It is critically important our nation not return to a strategy 
of leading from behind. Many of us have spoken about the failed 
foreign policies of the Obama/Biden administration.
    Robert Gates, the former secretary of defense under 
President Obama, noted that Joe Biden, he said, quote, ``has 
been wrong on nearly every major foreign policy and national 
security issue over the past four decades.''
    And I bring this up because you were an integral part in 
advising both Biden and Obama on these failed foreign policy 
decisions. Even with years of experience in foreign policy, 
when it came time to make the right decisions, in your own 
words you say you failed.
    On Syria, the Obama/Biden foreign policy failed. You 
admitted, quote, ``We failed in preventing a tragic loss of 
life as well as millions of people made into refugees or 
internally displaced, and that is something that we will have 
to live with.''
    You also went on to say, ``In Syria, we rightly sought to 
avoid another Iraq by not doing too much, but we made the 
opposite error of doing too little.''
    On Libya, the Obama/Biden foreign policy failed. Again, you 
admit it. You said, ``Libya is a particularly challenging one 
and I have to acknowledge that we, obviously, did not succeed 
in the Obama/Biden administration and getting that right.''
    In Iraq, the Obama/Biden foreign policy failed. 
Unfortunately, you continue, I believe, to mistakenly call the 
withdrawal of U.S. troops in Iraq a success. But the rest of 
the world knows that the failure to get a status of force 
agreements in Iraq created a vacuum, which led to the rise and 
creation of ISIS.
    In 2014, Senator John McCain, who was a member of this 
committee, raised these issues. Went to the Senate floor to 
speak against your nomination to be deputy secretary of state. 
I ask, Mr. Chairman, that his statement be submitted to the 
record.
    The Chairman. Without objection.


    [The information referred to in located at the end of this 
transcript.]


    Senator Barrasso. Thank you, Mr. Chairman.
    He raised concerns with your actions, statements, and 
decisions regarding Iraq, Afghanistan, Syria, and Ukraine based 
on that record of failed foreign policy decisions. Senator 
McCain said, ``Not only is Mr. Blinken unqualified but he is,'' 
he said, ``I believe a threat to the traditional interests and 
values that embody the United States of America.''
    So once you were confirmed, what happened? You helped 
negotiate the terrible Iran nuclear deal. These botched 
decisions have serious consequences. I believe they embolden 
terrorist organizations around the globe.
    These failures put the lives of the men and women who serve 
our nation at risk and I think it would be a grave mistake to 
confirm a secretary of state who has a demonstrated track 
record of repeatedly making the wrong decisions when it comes 
to American foreign policy and national security.
    In your opening statement, you talked about the Chinese 
Communist Party, who continues to commit terrible human rights 
abuses. I want to talk about that.
    You have confirmed that you believe it is genocide that the 
Uighurs, a religious and ethnic minority in China, has 
experienced, as you know, brutal repression at the hands of the 
Chinese Government.
    What do you plan to do with the first--within the first 30 
days to address what Joe Biden has described as a genocide 
committed by the Chinese Government?
    Mr. Blinken. Thank you, Senator. I was tempted to start by 
saying it is good to see you again.
    [Laughter.]
    Mr. Blinken. So on the--on the Uighurs, I think we are very 
much in agreement, and the--forcing men, women, and children 
into concentration camps, trying to, in effect, reeducate them 
to be adherents to the ideology of the Chinese Communist Party, 
all of that speaks to an effort to commit genocide. And so I 
agree with that finding.
    I think we have to look at the tools that we have available 
to us including some of the tools that the Congress has 
provided to see what actions we can take.
    So, for example, I think we should be looking at making 
sure that we are not importing products that are made with 
forced labor from Xinjiang. That is one such thing. We need to 
make sure that we are also not exporting technologies and tools 
that could be used to further their repression. That is one 
place to start.
    Senator Barrasso. In your opening statement, and I agree 
with it, you said that strengthening Congress' traditional role 
with--in foreign policy would be helpful and the U.S. 
Constitution provides the Senate the power to approve or reject 
treaties. But treaties have to be submitted to Congress before 
we can approve them or reject them.
    So whether it is the Paris Climate Agreement or the Iran 
nuclear deal, the Obama/Biden administration disregarded the 
important role of the Senate. They refused to submit the 
agreements to the Senate for its advice and consent.
    So the Obama/Biden administration did an end run around us, 
attempted to draft them in a way to avoid the ratification 
process.
    So, if confirmed, is it going to be continuation to 
disregard the will of the American people by negotiating 
international agreements and then refusing to submit them to 
the Senate? Or will we go by what you said in your opening 
statement, which is more of a partnership?
    Mr. Blinken. I think two things. First of all, with regard 
to any of these issues, any of these agreements in whatever 
form they are, my strong commitment to you and to this 
committee is that we will engage in genuine consultations. Not 
notification, real consultations, real dialogue on the take-
off, not on the landing so we can try to work these things 
through together.
    When it comes to various arms control agreements, there is 
a long history, as you know, of many agreements not being 
treaties. Whether it is the Nuclear Suppliers Group, whether it 
is the Proliferation Security Initiative, and then in other 
areas like the Helsinki Final Act, none of these were treaties.
    There are sometimes good reasons, in fact, reasons that 
advance our national security for why a treaty is not 
advisable. There is international treaty law that sometimes 
makes it more difficult to take action against a country that 
is not complying with its obligations under a treaty than it is 
under a nontreaty agreement.
    So I think we have to look at this on a case by case basis. 
With regard to Iran, of course, there is the INARA legislation. 
We will, certainly, make sure that we are in compliance with 
that legislation and its requirements. Many of the reporting 
requirements, of course, have fallen by the wayside once we got 
out of the agreement.
    At a minimum, those would--those would resume and we will 
have to look at what the obligations under the law would be if 
there is any forward movement with Iran.
    Senator Barrasso. You brought up the arms control 
agreement. As our country continues to face threats from around 
the world, we should not take any action, I believe, that is 
going to hinder our missile defense options.
    The United States must always remain in charge of our 
missile defense system, not Russia, not any other country. So I 
have concerns about efforts of Russia to limit our own missile 
defense and actions that the Obama administration took on this 
issue.
    So can you commit to us that in any arms control discussion 
with Russia for which you are responsible that the United 
States will never agree to any limiting of our own missile 
defense programs?
    Mr. Blinken. It is hard to see a circumstance in which we 
would do that.
    Senator Barrasso. So the New START expires February 5th, 
coming up, 2021----
    Mr. Blinken. Right.
    Senator Barrasso [continuing]. In less than a month. There 
are only a few weeks before the arms reduction treaty between 
us ends. Does the Biden administration plan to extend the 
treaty and, if so, for how long?
    Mr. Blinken. Senator, I think we are going to seek an 
extension. I say I think because we have been very focused on 
observing one president at a time, a tradition and rule. And so 
this is something that the president-elect I know will have to 
take up almost immediately upon assuming office for the very 
reasons that you cited.
    We have an agreement that is expiring in just 16 days or 
so. So what I can tell you is that I know we will be coming to 
you very quickly, almost immediately, to discuss that and what 
I can say at this point is that yes, we will seek to extend it.
    Senator Barrasso. President-elect Biden has pledged to 
treat U.S. allies with respect and consideration. One of our 
most important allies is our neighbor to the north, Canada.
    Today, Canadian Prime Minister Justin Trudeau urged the 
incoming administration to consider any potential efforts to 
sabotage--to reconsider any potential efforts to sabotage the 
Keystone XL Pipeline.
    President-elect Biden has made comments or I understand 
from the news that he wants to shut that down. Alberta Premier 
Jason Kenney raised concerns about reports of plans to cancel 
this valuable project, saying, quote, ``Doing so would kill 
jobs on both sides of the border, would weaken the critically 
important Canada-U.S. relationship, would undermine U.S. 
national security by making the United States more dependent on 
OPEC oil imports in the future.''
    So I strongly oppose any effort by the Biden administration 
to cancel or delay the Keystone XL Pipeline project. It creates 
jobs. It helps grow the economy. It improves our nation's 
energy security.
    I think taking action to cancel it would eliminate jobs for 
thousands of Americans and undermine economic stability for 
many.
    So how does revoking permits for the Keystone XL Pipeline 
without consultation or deliberation show respect and 
consideration to Canada, one of our closest allies?
    Mr. Blinken. So this would be a decision for the president 
to make. He has--the president-elect has said that he does 
intend to rescind the permit.
    What I can say with regard to the State Department and its 
role and my potential role if I am at the State Department is 
anything going forward we would address with absolute 
objectivity and professionalism to make sure that any proposed 
permit or agreement that comes before us advances the national 
interest and national security.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and to Mr. Blinken, 
congratulations on the nomination. You are very well qualified 
for the position.
    Let me begin with something that I think is really 
important. The secretary of state, by longstanding norm, not 
law, has been one of the least political of the Cabinet 
secretaries.
    Generally, the attorney general, secretary of state, 
secretary of Treasury, secretary of defense do not engage in 
partisan political activity, and that pretty much goes back 
decades and decades.
    Your successor pretty much broke that practice in some 
fairly significant ways. Your predecessor. Your predecessor has 
an office of legal advisor. The office of the legal advisor 
gave wise advice to all in State and elsewhere.
    In a December 2019 memo, the legal advisory reminded all 
political appointees that they were, quote - ``they were 
prohibited from'', quote, ``engaging in political activity in 
concert with a partisan candidate, political party, or partisan 
political group,'' and specifically indicated that, quote, 
``Senate-confirmed presidential appointees may not even attend 
a political party convention or a convention-related event.''
    Your predecessor stressed that in a cable to State 
Department employees in December: Quote, ``It is important that 
the department's employees do not improperly engage the 
Department of State in the political process and that they 
adhere to the Hatch Act and department policies in their own 
political activities.''
    Despite that, your predecessor appeared and gave a campaign 
speech at the Republican National Convention, violating policy 
that he and the legal advisor had laid, clearly, down.
    I want to ask you about the words of another secretary of 
state, Colin Powell, who said, ``As secretary of state, I am 
obliged not to participate in any way, shape, fashion, or form 
in parochial political debates. I have to take no sides in the 
matter,'' he said in 2004 when he skipped the Republican 
National Convention.
    Will you follow the Powell practice that has been the 
practice of the State Department and the secretary of state for 
decades or will you follow the Pompeo practice and turn the 
secretary of state into a partisan political position?
    Mr. Blinken. I strongly agree with Secretary Powell and 
that is the model I would follow.
    Senator Kaine. That is--I will be extremely disappointed if 
I see you showing up at partisan events for Democrats, 
including the president and vice president, the president who 
has appointed you.
    If I see you doing campaign events for anybody on my side 
of the aisle, I will be very disappointed. I know you are not 
going to, but I wanted to put that on the record.
    Mr. Blinken. And I would welcome you holding me to that. I 
have to tell you, Senator, I could not agree more strongly that 
with regard to the State Department, it has to be and if I have 
anything to say about it, it will be a nonpartisan institution 
that is seeking only to advance the national interest.
    And I might add, I have had--I started my career in 
Washington at the department in 1993, and I have been working 
with the men and women of the Foreign Service, the civil 
service, for the better part of 25 years.
    And I could not begin to tell you for nine out of 10 and 
maybe even 10 of 10 if the person is a Republican, a Democrat, 
an Independent, or what. They are simply professionals who are 
working to advance the national interest, and if the person who 
purports to lead them is not doing the same thing I think we 
have got a problem.
    Senator Kaine. Let me ask a related question. The norm, 
over time, in the State Department for ambassadors has been 
that about 70 percent are career and 30 percent are political.
    There is nothing magic about that number. But 
administrations, both Democratic and Republican, have generally 
sort of adhered to that ratio. The Trump administration changed 
that ratio pretty significantly. It was about 55 percent career 
and 45 percent political, 50 percent higher in terms of the 
political appointees than the norm.
    As you have had dialogue with President-elect Biden about 
his thoughts about the State Department, do you think you will 
see us go back to the norm? Political appointees are often 
very, very important. I get it. And that is why the 30 percent 
is important.
    But do you think we will go back to the norm and see that 
two to one or 70 to 30 is a more likely path forward?
    Mr. Blinken. Yes, I do.
    Senator Kaine. Thank you for that.
    I am very worried. There has been questions about issues in 
the Western Hemisphere and I am worried that we just pay 
attention to the Western Hemisphere when there is a crisis.
    If there is a caravan, we are going to be paying attention 
to it or, you know, significant drug trade from Colombia we are 
going to pay attention to it. But then we sort of lose 
attention and we tend to look at the world as if it has an 
east-west axis and not a north-south axis. President-elect 
Biden, I think, starts with some real good will in the region 
because when he was vice president he did spend significant 
time working with our State Department and other professionals 
to sort of build relations in the Americas.
    I still think there is just tremendous upside in this. It 
is hard for the U.S. of 330 million to sort of match up all the 
time with nations a China with a billion people. But the 
Americas, from Tierra del Fuego to Patagonia--Tierra del Fuego 
to the Yukon would have about a billion. So the more we can do 
in tandem with other nations in the Americas, the more we can 
advance our own economic and security interest. I do not think 
we should do it just because China and Russia and Iran are 
getting involved in the region, but that should make us worry.
    Talk to me a little bit about your big picture perspective 
and that of the Biden administration on sort of an all-Americas 
policy or focus on our own--our own back yard.
    Mr. Blinken. Thank you--thank you for raising that. You 
know, you are right. This has actually been an area of focus 
for the president-elect.
    I went back and counted not so long ago and I think he made 
16 trips to countries in our hemisphere as vice president, and 
even before that when he was a member of this committee he was 
very focused on a number of issues in the hemisphere, starting 
with Colombia, Plan Colombia, and what followed, and then as 
vice president a real focus on Mexico, on the Northern Triangle 
countries and, for that matter, issues throughout the 
hemisphere.
    And he has a strongly-held view that we have a strong 
national interest in doing what we can to advance the future 
for our hemisphere that is democratic, that is middle class 
that is secure. And there is a lot that we can and should be 
doing as partners with countries throughout the hemisphere to 
advance that vision.
    So in terms of the way we are resourced, in terms of the 
way we are focused, I feel confident that this is going to get 
sustained attention, not what you rightly described as sort 
piecemeal attention.
    Senator Kaine. Episodic.
    Mr. Blinken. Yeah, episodic.
    Senator Kaine. I look forward to working with you on that. 
Let me ask you a question about Israel and Palestine, which has 
come up already. The two-state solution--this has been U.S. 
policy since Truman in one way or another, certainly since the 
Oslo Accords, and yet sometimes I feel like our policy is to 
say two-state solution is our policy.
    But it has been hard for us to find a meaningful path 
forward. I paid my first visit to Israel in 1998. I have been 
to Israel more times than I have been to Ireland and I have 
relatives in Ireland.
    I really value the U.S.-Israel relationship. But the 
prospects for a peaceful Israel and Palestine existing side by 
side are worse today than they were in 1998 when I first 
visited and I find that tragic.
    Mr. Blinken. Yeah.
    Senator Kaine. And what is the challenge of not having a 
meaningful two-state solution? Let us just talk about COVID. 
There is a vaccination campaign going on right now that in 
Israel is viewed as one of the, you know, leading and most 
innovative in the world in terms of vaccinating high 
percentages of people.
    But virtually no one in Palestine has been vaccinated, and 
the Israeli health minister says, when we are done with our 
citizens then we will focus attention on our neighbors. So the 
Palestinians are in this odd space where they are sort of not 
in or of their own country. They are in a country but they are 
not considered citizens. They are considered neighbors.
    This is the kind of thing that suggests we really do need 
to find a path forward. I do believe the Trump administration's 
success in the Abraham Accords is notable and I applauded it 
right out of the gate.
    How might we use the improved relations between nations in 
the Arab world with Israel to help advance the prospect, 
finally, since the late 1940s, the prospect of a two-state 
solution?
    Mr. Blinken. Well, first of all, I very much share the 
premise of your comment and question, which is, as I see it, 
the two-state solution, however distant it may appear, is still 
the best and probably the only way to truly assure Israel's 
future as a Jewish and democratic state and, of course, to give 
the Palestinians the state to which they are entitled.
    The challenge, of course, is how to--how to move forward on 
that at a time when you rightly said seems more distant than it 
has ever been, at least since Oslo.
    I hope that the progress that was made with the Abraham 
Accords, which I applaud, the steps that countries are taking 
to normalize relations with Israel is an extremely positive 
development and one that we would hope to build on, if given 
the opportunity. I hope that also might create a greater sense 
of confidence and security in Israel as it considers the--its 
relationship with the Palestinians because whether we like it 
or not, whether they like it or not, it is not just going away.
    Senator Kaine. And these nations that have now normalized 
relations can play an important role in both economic support 
for Palestinians but also providing security assistance, and 
they may be more willing to do that now that they have 
normalized relations in this way.
    Well, Mr. Blinken, thank you. My time is up. I do want to 
work with you and the State Department on issues about war 
powers, the cleaning up of the various authorizations from 1991 
and 2001 and 2002 that are still floating out in space with no 
time or geographic limit.
    I look forward to working with the State Department and the 
White House on that.
    Mr. Blinken. I would welcome that. Thanks, Senator.
    Senator Kaine. Thank you. Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine. Appreciate that.
    Senator Portman is up next but I am told that he is 
indisposed at the moment, which turns to you, Senator Paul. We 
will get back to Senator Portman.
    Senator Paul?
    Senator Paul. Thank you. Like Joe Biden and Hillary 
Clinton, you have been a consistent supporter of military 
intervention in the Middle East, from the Iraq war, the Libyan, 
to the Syrian civil war.
    Some on your side of the aisle, including the president-
elect, have said, well, we were given bad intelligence. They 
misled us on the intelligence on Iraq. That is a very specific 
reason. There is probably some truth to it. But I think it 
misses sort of the lesson of the Iraq war.
    Likewise, your justification for maybe coming to a new 
approach on the Libyan civil war is, well, maybe we 
overestimated the idea of having viable successors there.
    To me, it seems like we are still missing the point because 
even after Libya you guys went on to Syria wanting to do the 
same thing again, and you have argued, well, maybe we just did 
not do enough. If we would have done more, we could have 
toppled Assad and we could have had real regime change in 
Syria.
    Well, you got it in Iraq, you got it in Libya, and it is a 
disaster. The lesson of these wars is that regime change does 
not work. People say, oh, we are going to get rid of the iron 
fist and Thomas Jefferson is going to rise from the ashes. 
Well, that, you know, is a naive notion to believe that Thomas 
Jefferson or his like live in Libya or live in Iraq. Their 
tradition is so much different than ours. I mean, we have been 
fighting against centralized power in the English tradition for 
a thousand years.
    The revolution in England was 350 years ago. Ours was 250 
years ago. That tradition they do not have. They have tribal 
existence. You trade one for another.
    But, mostly, what you have gotten through the policies you 
have advocated and Joe Biden has advocated and, frankly, John 
Bolton has advocated this idea of regime change has been a 
disaster for the Middle East. We complain--everybody around 
here is concerned, Iran, Iran, Iran. Well, why is Iran 
stronger? Who is their best friend in the region now? Iraq. You 
know, we did that. We had a balance of power.
    It wasn't perfect but we had somewhat of a balance of power 
in the Middle East and you guys messed it up. You got rid of 
the one bad guy and another bad guy got stronger. And so then 
you went to Libya and did the same thing, and then you said, 
well, maybe Libya is a one off.
    Well, maybe there is a rule here. Maybe there is something 
we can learn about regime change and maybe we can learn that 
humility would be. Then maybe we shouldn't be choosing every 
government in the Middle East.
    I would argue that instead of always choosing the 
Government, maybe we should not reward the bad ones. You know 
what I mean?
    So, for example, with Saudi Arabia, I despise the regime. I 
would probably still trade with them. I probably would not cut 
them off completely. I would not sell them any more arms, and 
after they killed Khashoggi they shouldn't have gotten one bit 
of our armament.
    But both sides advocate for this. On UAE we tried to stop 
that because UAE has a terrible human rights record. Both sides 
support it. The problem around here is we have bipartisan 
consensus.
    The problem isn't lack of consensus. The problem is too 
much consensus, but the consensus is for regime change. Are any 
of the lessons you have learned from the failure of Iraq war, 
Libyan war, the chaos, the vacuum, and more terrorism that 
occurred and more lives that were lost, and then to go on to 
Syria, I do not get that there has been a lesson learned. Is 
there any kind of lesson learned on your part that regime 
change may not be the best thing for us in the Middle East?
    Mr. Blinken. Senator, I think we, and I certainly have an 
absolute obligation to try to learn from everything we have 
done, advocated, to take into the account the results and to 
make that inform how we think about these problems, going 
forward, and I have done a lot of hard thinking about some of 
the very situations you mentioned. I am proud of the fact that 
I have spent all of my career during the times I have been in 
government for the better part of 25 years, working to advance 
our diplomacy, to do everything we possibly can to make sure 
that diplomacy is the first answer, not the last answer, and 
that war and conflict is a last resort.
    Senator Paul. The next step was Syria. The next step was 
the Syrian civil war, which looks a lot like the Iraq war and 
the Libyan war.
    Mr. Blinken. Well, in Syria--in Syria there were those who 
were advocating for a repeat of Iraq, which is to say a whole 
scale intervention. That is something that I did not agree 
with. When we were looking at what to do in Afghanistan----
    Senator Paul. But here is the problem in Syria. It is--
there was a predictable result there. Had you gotten rid of 
Assad, who were the fiercest fighters over there? Al-Nusra and 
al-Qaeda. The most--the more radical you were the better 
fighters you were.
    The program that you started with Hillary Clinton, that 
program that trained these--the moderate rebels, we spent $250 
million. We trained about 60. We sent 10 of them into battle 
and they were captured in the first 10 minutes.
    It was a complete disaster. This whole idea that there were 
moderates over there that we were going to support--doctors and 
lawyers and stuff--there were, but I do not think they were out 
there fighting.
    The ones out there fighting were jihadists, al-Qaeda, Al-
Nusra, and if they would have taken over the country--Assad is 
a terrible person but I am not positive that these people would 
have been better.
    So, I mean, it is the same lesson. Our humility has to be 
let us quit toppling regimes over there. Let us do not support 
the bad ones, but let us not presume enough that if we topple 
them that in the vacuum Thomas Jefferson is going to arise, 
because it never seems to happen.
    With regard to advise and consent, and this is a little bit 
on Senator Barrasso's--extension of his question on treaties--
it really isn't so much a solicitous move to say well, we just 
cannot pass these treaties so we are going to make all these 
agreements and not coming to you.
    But I would argue even more importantly on war, you have 
argued when you have been part of administrations that oh, yes, 
you know, we would like--like Senator Kaine's, a more narrow 
AUMF but we do not really need it.
    And you are not alone. That sort of, I think, arrogant 
executive sort of attitude comes from both parties. Every 
president for the last 50 years have--in fact, they all 
probably believe this. They believe they have absolute power.
    It is called this absolute Article 2 authority, and this 
runs on both sides. But it runs through the extremes on our 
side. The John Bolton's on our side believe in this absolute 
Article 2 authority.
    The AUMF from 9/11 had nothing to do with people in 
Somalia. Do you think the AUMF from 9/11 authorizes you to 
continue the war in Somalia?
    Mr. Blinken. I think the AUMF from 9/11 has been used in 
countries and against groups that were not contemplated or 
cited in the AUMF, which is the very strong reason why we 
should revisit it.
    Senator Paul. But it is very specific. It says people who 
organize to attack us. It does not mention--you know, and 
people say, well, they say and associated forces. That is not 
in it. That is--somebody dreamed that up later and sort of said 
that it is in.
    It is not in there. It does not say associated forces. 
There is no authorization for war in Somalia, Mali, Yemen, 
which the Obama administration originally did support. So there 
really isn't. I am not for a more narrow one. I am just for no 
more war over there.
    I am tired of all the war. I am tired of all the nation 
building. Look, I love the rights of women as much as anybody. 
But if our goal is going to be that we are going to keep women 
in power, like in Saudi Arabia we are going to go to war with 
Saudi Arabia because they do not have women ministers of health 
and stuff, you know, it really isn't exactly our national 
security you are talking about. You are talking about something 
different.
    Now, from the point of view of the secretary of state, 
there are things you can do through soft power to advocate for 
the principles we believe in.
    But overthrowing governments to instill women's rights or 
to continue with women's rights and to continue a military 
presence there and fight battles for it is really not something 
that is in the purview of the secretary of state or, really, 
under the Constitution to anyone in our government.
    With regard to NATO, you have advocated for expanding NATO. 
Do you still support putting Georgia in NATO?
    Mr. Blinken. If a country like Georgia is able to meet the 
requirements of membership and if it can contribute to our 
collective security, yes, the door should remain open.
    Senator Paul. So if you are successful, then we would be at 
war with Russia now?
    Mr. Blinken. I actually think just the opposite. I think 
that, Senator, with regard to NATO membership, there is a very 
good reason that Russia has proved aggressive against countries 
that are not actually in NATO and under the umbrella and a good 
reason why it has chosen not to----
    Senator Paul. This would be adding Georgia that is 
occupied--this would be adding Georgia that is occupied to 
NATO. Under Article 5, then, we would go to war.
    Mr. Blinken [continuing]. Well, I think we have seen, 
again, in the past that countries that have joined NATO have 
not been the same target of Russian aggression that we have 
seen.
    Senator Paul. Yeah, I know. But if we were talking about 20 
years ago we might have a valid argument now. Russia occupies 
Georgia. Russia occupies or proxy troops occupy part of 
Ukraine.
    So I think adding either of them to NATO not only is 
provocative but you would have to think what comes next. I 
mean, if we are obligated to defend our NATO allies, I mean, 
basically, we would be voting for war.
    So I would not vote to add Georgia to NATO, not on your 
life, unless I am ready to send my kids and your kids to go 
fight in Georgia. You know, the complicated fights and wars and 
occupation around, and I just think that we need to think these 
things through, and I think for every provocation there is a 
response as well. So we cannot look at it in a vacuum. People 
say, I do not care what Russia thinks, or, I do not care what 
Tehran thinks. But if we do not understand our adversaries 
enough to think how they will respond, then I do not think we 
are doing our job.
    Mr. Blinken. I agree with you.
    Senator Paul. But as you can tell, I am not excited about 
more military intervention in the Middle East. I think there 
has been some chastening on the part of the incoming 
administration over previous failures.
    But I do not think you have completely gotten the idea that 
regime change has been a terrible disaster that has created 
vacuums, chaos, and actually more terrorism throughout the 
region.
    So I hope you will consider that. It is important not just 
for the philosophic point but it is important for our kids. I 
mean, we are sending these kids over to fight in these wars 
that go on forever and ever and ever, and somebody has got to 
stand up, and I hope you will be somebody brave enough to stand 
up and stop some of this.
    Mr. Blinken. I appreciate what you said.
    The Chairman. Thank you, Senator Paul.
    Next up is Senator Markey, who, I am told, is joining us 
electronically. Senator Markey, are you with us?
    Senator Markey. Thank you, Mr. Chairman, very much. Can you 
hear me, Mr. Chairman?
    The Chairman. I can hear you, Senator Markey. I cannot see 
you but----
    Senator Markey. Okay.
    The Chairman [continuing]. Well heard here.
    Senator Markey. Okay. Thank you. Much appreciated. Let me 
ask this question. Aside from rejoining the WHO, which 
President-elect Biden has already committed to doing, what will 
the Biden administration do to ensure that the vaccine is 
disseminated quickly and fairly so that every country has a 
chance to protect their citizens regardless of their wealth?
    Mr. Blinken. Thank you, Senator. The president-elect has 
said that we are committed to making sure that, to the best of 
our ability, the vaccine is distributed properly and equitably. 
We intend to join COVAX.
    We believe strongly that we can do that, ensure that every 
American gets the vaccine but also help make sure that others 
around the world who want it have access to it.
    The WHO is a very imperfect organization in need of reform. 
But one of the reasons that the president-elect has determined 
we should get back into the WHO is that we are going to be in a 
much more effective position to advance that reform of the WHO 
if we are there at the table than if we are outside the 
organization.
    So I think the combination of rejoining, taking part in 
COVAX, and then looking at how we can help make sure that the 
vaccine is equitably distributed is something that we are going 
to take on.
    I would say that, you know, in addition to that, we are 
seeing now the potential for a lot of COVID tails to wag the 
COVID dog around the world in ways that will come back, 
potentially, to hurt us. We are seeing the potential for a debt 
crisis among emerging economies and developing economies.
    We are seeing public health crises in country after country 
because COVID has made it more difficult to provide other 
health services, and we are seeing state fragility increase, 
not decrease, as a result of many of the challenges that COVID 
has exacerbated or, in some cases, led to.
    So we have a national interest in helping and in doing our 
part to make sure that as the vaccine becomes available we help 
get it out there as quickly and as effectively as we can.
    Senator Markey. So is the Biden administration committed to 
seek additional funding for the Global Fund and other programs 
meant to respond to the massive public health needs related to 
COVID-19?
    Mr. Blinken. In short, yes. One of the things, though, that 
I should say is that Congress has done a very good service, I 
think, in providing the funding that is already on the table in 
terms of COVAX and that initiative. But I think that additional 
resources are likely to be needed.
    Senator Markey. Okay. Thank you.
    Moving on to North Korea, if we could, in moving forward 
towards the goal of ultimately denuclearizing, would you 
support an attempt to achieve a phased agreement that offers 
tailored sanctions relief to North Korea in exchange for a 
verifiable freeze or other restrictions on North Korea's WMD 
programs?
    Mr. Blinken. I think we have--I am sorry. Go ahead.
    Senator Markey. That is the question.
    Mr. Blinken. I think we have to review and we intend to 
review the entire approach and policy toward North Korea 
because this is a hard problem that has plagued administration 
after administration, and it is a problem that has not gotten 
better. In fact, it has gotten worse. But I begin by 
acknowledging the fact that it was a hard problem to begin 
with.
    So I think one of the first things we would do, and we 
would welcome being able to consult on that, is to review the 
entire approach.
    Look at what options we have and that can be effective in 
terms of increasing pressure on North Korea to come to the 
negotiating table as well as what other diplomatic initiatives 
may be possible.
    But that starts with consulting closely with our allies and 
partners, particularly with South Korea and with Japan and 
others, and reviewing all of the bidding. And so we will start 
there and we would welcome a conversation on that.
    Senator Markey. Okay. And if I can just follow up.
    And I agree with you, we have to increase enforcement so 
that China and Russia abide by the sanctions meant to target 
the regime.
    But we also have to ensure that we do not inadvertently 
harm the North Korean people, particularly as they suffer from 
famine and the effects of a complete lockdown of their borders 
due to the pandemic. When North Korea reopens its borders, will 
you support easing some of the restrictions to allow legitimate 
humanitarian assistance to reach the North Korean people?
    Mr. Blinken. I think in North Korea and in other similarly 
situated places we have to have an eye clearly on the people of 
the country in question and on doing what we can to alleviate 
their suffering and even if we have a strong grievance with the 
regime or with the government and that we are taking action to 
do something about that.
    We, to the best of our ability, try to do so in a way that, 
in the first instance, isn't harmful to the people of the 
country. And so we will take a hard look at that in the past, 
as previous administrations have engaged the North Korean 
nuclear challenge.
    They have found ways to make sure that humanitarian 
assistance, medical assistance, et cetera, could, in fits and 
starts, get to the North Korean people. So we do want to make 
sure that in anything we do we have an eye on the humanitarian 
side of the equation, not just on the security side of the 
equation.
    Senator Markey. Thank you so much.
    You know, and we have heard a lot today about the JCPOA in 
Iran. The bottom line is that the single greatest existential 
threat in the region is a nuclear Iran, and we must take that 
off the table before we look to making the agreement longer and 
stronger, as you say.
    Would you commit to reentering the JCPOA without any 
preconditions as a starting point so long as the Iranians 
return to all of their commitments as well?
    Mr. Blinken. What the president-elect has said on that, 
Senator, is that if Iran returns to compliance with the JCPOA, 
we would do the same thing and then use that as a platform, 
working with our allies and partners to build a longer and 
stronger agreement to also capture some of the other issues 
that need to be dealt with regard to missiles, with regard to 
Iran's activities and destabilizing activities in the region.
    Having said that, I think we are some ways from even that. 
There is a lot that Iran would need to do to come back into 
compliance. We would then have to evaluate whether it had 
actually done so. So I do not think that is anything that is 
happening tomorrow or the next day.
    Senator Markey. Okay. Thank you.
    Saudi Crown Prince Bin Salman's declaration that the 
kingdom may illegally seek a nuclear bomb makes the task of 
returning Iran to compliance with the JCPOA all the more 
urgent.
    Will you press the Saudis to come clean about their 
reported ballistic missile cooperation with China and assist 
that they adopt the additional protocol which would give the 
IAEA the same type of access it has in Iran?
    Mr. Blinken. We want to make sure that to the best of our 
ability all of our partners and allies are living up to their 
obligations under various nonproliferation and arms control 
agreements and, certainly, in the case of Saudi Arabia that is 
something we will want to look at.
    Senator Markey. Thank you.
    And on the New START agreement, is the administration going 
to extend it by a full five years?
    Mr. Blinken. So we had an opportunity to talk about this 
just a little bit earlier. What the president-elect has said is 
that very cognizant of the fact that we have one president at a 
time and that we could not really engage on this issue during 
the transition.
    We have the challenge because, as you know, the deadline to 
act or not on an extension comes upon us very, very quickly. We 
have got just a couple of weeks to do that. So I think this is 
something that we will be coming to you on pretty much 
immediately after the president is sworn in, and I know that he 
does intend to seek an extension and we have to--he will have 
to make a decision as president about what duration we would 
seek.
    Senator Markey. Thank you. I think it is very important. I 
am looking forward to working with you on that. I just think 
that is an incredibly important historic moment.
    And, as you know, the Trump administration rolled back much 
of the United States' previous efforts to support and promote 
LGBTI rights around the world and I am thrilled that you and 
President-elect Biden have indicated that you are going to 
support and appoint a new special envoy for human rights on 
LGBTI people, a position that I have been pushing to make 
permanent through my International Human Rights Defense Act but 
which was left vacant in the Trump years.
    After four years of Trump administration efforts to 
specifically marginalize, minimize, do damage to the rights of 
the LGBTI people, I think it is going to be vital to appoint a 
seasoned expert on those issues.
    Are you going to move forward towards a speedy appointment 
towards an LGBTI envoy and would you consider raising it to 
ambassadorial level?
    Mr. Blinken. The answer to both questions is yes, 
absolutely. This is a matter, I think, of some real urgency. We 
have seen violence directed against LGBTQI people around the 
world increase.
    We have seen, I believe, the highest number of murders of 
transgender people, particularly women of color that we have 
seen ever. And so I think the United States playing the role 
that it should be playing in standing up for and defending the 
rights of LGBTQI people is something that the department is 
going to take on and take on immediately.
    Senator Markey. Thank you. And will you repudiate the 
findings of the report of the Commission on Unalienable Rights 
and reaffirm the United States' acceptance and adherence to the 
human rights laid out in the Universal Declaration of Human 
Rights and will you ensure that ambassadors are able to fly the 
Pride flag at our embassies once again around the world?
    Mr. Blinken. Yes to both.
    Senator Markey. Beautiful. Thank you.
    And one final question on Rohingya. If confirmed, will you 
commit to overseeing an interagency process to make the 
determination as to whether the crimes committed against the 
Rohingya in Burma constitute genocide?
    Mr. Blinken. Yes, I would.
    Senator Markey. Thank you. And, by the way, thank you for 
all of your work on climate change. I think it is just a huge 
historical change of direction and congratulations on having 
John Kerry be named as your partner on those issues.
    How quickly is the department going to be able to move onto 
make sure that we have made climate change a top issue and that 
we put climate justice at the center of what we are advocating 
for globally?
    Mr. Blinken. Well, given Secretary Kerry's leadership, I 
suspect immediately.
    Senator Markey. Excellent. And climate justice?
    Mr. Blinken. As well. This is something that we will very 
much factor into what we are--what we are doing around the 
world.
    Senator Markey. Thank you so much.
    The Chairman. Thank you, Senator Markey.
    Senator Markey. Thank you. Looking forward to working with 
you, Mr. Secretary.
    Mr. Blinken. Thanks. Thank you very much, Senator.
    The Chairman. Thank you, Senator Markey.
    And I am told now that Senator Portman has extricated 
himself from whatever was more important than this hearing, and 
so I am going to recognize him at the present time.
    Senator Portman, are you with us?
    Senator Portman. Thank you, Mr. Chairman. I am with you. 
Nothing could be more important than the Senate Foreign 
Relations Committee and I have been watching the hearing 
throughout the afternoon.
    And, Mr. Blinken, I also appreciate the time you spent with 
me on the phone talking about your plans for the department and 
how you would change some of the positions of the previous 
administration but also build on some of those.
    And I would just say in listening today it seems to me 
there are opportunities for us to build on some of the 
successes. I think about the Abraham Accords.
    I think about much of our policy toward Russia as an 
example of being able to provide, as we did this year at a 
record level, lethal weapons for self-defense in Ukraine. I 
think about what we have done in Belarus to try to promote 
democracy.
    I think about standing up to China, and I think that from 
what I have heard today that you would be interested in 
engaging on that issue even more, particularly as it relates to 
human rights and the Uighurs and other ethnic minorities and, 
generally speaking, you know, how to deal with Iran. We are 
going to have some differences of opinion, it sounds like, but 
I think you are fairly clear eyed on what the challenges are 
with regard to Iran and not being trusting of them and the way 
they are headed.
    Today, Mr. Chairman and to Ranking Member Menendez, there 
are five hearings going on. I have been in three of them, 
chairing one of them, and I think that is great.
    I think it is good that we are moving quickly with some of 
the key appointments including secretary of state but also 
secretary of defense, homeland security, director of DNI, 
Treasury, all important roles, and I hope we can get these 
nominations to the floor for a vote and then we will, you know, 
let the chips fall where they may.
    But I am actually supportive of us moving quickly and, Mr. 
Chairman, I know this happened because you were willing to do 
it in this interim period.
    As we discussed last week, Mr. Blinken, I have got lots of 
interest in this issue of disinformation and propaganda and how 
we push back against it. I think it is kind of the new warfare 
of the 21st century.
    Not that we do not have kinetic battles still but a lot of 
this is happening online and through disinformation. The Global 
Engagement Center was established at the State Department to 
deal with this.
    Senator Murphy spoke earlier and he and I have worked 
closely over four years now to try to strengthen the GEC, the 
Global Engagement Center, and give it the ability to push back 
disinformation operations by our adversaries. These tactics are 
inexpensive, and there is a lot of deniability associated with 
it. It is easy for them to do, and when you combine it with 
economic and political subversion it can be devastating to some 
of the nascent democracies we are trying to help.
    So thanks to the work of the Global Engagement Center, I 
think we now have the beginnings of an effective organization 
to deal with that and, again, I hope that is something that you 
would be willing to build on.
    Could you speak to that briefly and also talk about your 
commitment to the funding level? We were able to get $60 
million in this year. That is half of what we wanted--less than 
half of what we wanted.
    But compare that to China, which, according to a hearing 
that Senator Booker and I had on combating disinformation 
recently, China spends over $10 billion a year in state-
sponsored disinformation operations. I wonder if you could 
comment on the Global Engagement Center and the challenge we 
face.
    Mr. Blinken. Thank you, Senator. I could not agree more 
with your comments and with the work that you have done on 
this. This is the--perhaps a primary battlefield that we have 
to fight on, and even as we manage to deter aggression and 
kinetic action by adversaries, every single day we are 
experiencing aggression of one kind or another in the 
misinformation and disinformation realm, and we need to engage 
that and we need to engage that effectively.
    And, indeed, you are right, that is why the GEC was formed. 
I will tell you, I had the, you know, experience in the early 
days of the Ukraine conflict and Russia's aggression there in 
dealing with Russia using--weaponizing information in 
increasingly effective ways and, of course, little did we know 
what would come after that.
    But you will recall the downing of the Malaysian airliner 
and Russia was extraordinarily effective in mixing up and 
muddying the waters using misinformation and disinformation as 
to their culpability and responsibility.
    And out of some of these experiences there has been an 
effort at the State Department to give ourselves the tools and 
the resources to engage in this fight and the Global Engagement 
Center is exactly that.
    So I am determined to make sure that if I am confirmed that 
it is resourced adequately and appropriately. As well, I think 
we need to make sure that we are bringing in the talent, the 
expertise, to be able to use it effectively because these are 
specialized skills that, in some cases, many of us do not have.
    And to make sure that we have continuity because this is an 
ongoing battle every single day, we have conveyed the message 
that we would welcome the current leader of the GEC to stay on 
to make sure that we do not have any dropped balls in the weeks 
and months ahead.
    Senator Portman. Well, I thank you. Lea Gabriel has done a 
good job. I think Senator Murphy and I agree with that. I know 
both of us have weighed in with you and we thank you for that 
commitment to getting a sustainable funding level that is 
higher so they can do their job.
    I think $138 million is what we asked for this year. We got 
$60 million, and a lot of members of this committee are 
interested in ensuring it has the capability. And then the 
hiring authority--we need to extend our hiring authority so 
they can bring in some expertise from outside the department to 
deal particularly on the social media front.
    So thank you for that commitment. We look forward to 
working with you. On Ukraine, since you mentioned it, I was 
there in 2014 with Senator Cardin as an election monitor. It 
was right after the Revolution of Dignity.
    In the Maidan, the central area where the Revolution of 
Dignity occurred, was still smoldering. I mean, it was--it was 
fresh, and they have had some successes and we have had some 
setbacks.
    You know, Russia illegally annexed Crimea, which was a 
setback, and that Crimea annexation, by the way, is something 
we need to continue to stand up to, even as others in the 
region seem to be, you know, less aggressive about promoting, 
you know, the legitimate Ukrainian interest.
    We have seen what has happened in the Donbas, the 
displacement of thousands of civilians, deaths of a lot of 
brave Ukrainian soldiers. I am sure you have been to Kiev and 
gone to the memorial to those soldiers, as many of us have.
    But in 2019, we had free fair elections and President 
Zelensky and his party won by an overwhelming majority, and I 
know he has got an interest in working with you all.
    One thing that I am very interested in is the Ukrainian 
Security Assistance Initiative. This is something that is 
providing military aid to them but also training and, as you 
know, General Dayton has been very involved with that. So I 
guess two questions for you. One, are you supportive of 
continuing to provide the weapons to the Ukrainians to defend 
themselves, and second, with regard to the Ukrainian Security 
Initiative, are you willing to continue to work on that and, 
specifically, can you speak to General Dayton, who has been 
before this committee and, you know, made it out of committee--
never made it to the floor--as the potential next ambassador to 
Ukraine?
    Mr. Blinken. I very much support the continued provision to 
Ukraine of lethal defensive assistance and, indeed, the 
training program as well.
    I very much agree with you that this has actually been a 
real--a real success, and to the extent that across a couple of 
administrations we have been able to effectively train and as 
well as assist in different ways.
    The Ukrainians have made a material difference in their 
ability to withstand the aggression they have been on the 
receiving end of from Russia. And as to General Dayton, I have 
high regard from him and, certainly, will take a close look at 
that.
    Senator Portman. Well, I appreciate it. Again, he has gone 
through this committee already, a nonpartisan guy who has a 
great deal of experience but also respect in Ukraine.
    With regard to China, I know there has been discussion 
today of the importance of the U.S.-China relationship and I 
know there was discussion in the last question about working 
with China on global climate change and other issues, global 
health.
    I just--I just hope that in all of this we keep in mind the 
fact that China continues to irresponsibly and very 
systematically target U.S. researchers, U.S. research that is 
paid for by taxpayer dollars, and steal it, in effect--take it 
to China and use it for their own purposes.
    It has helped fuel the Chinese economy but also the Chinese 
military over the past two decades. We do have legislation that 
is bipartisan that came out of an investigation here in 
Congress that I chaired with Senator Carper.
    It is called Securing American Innovation Act. It deals 
with five specific areas, but one has to do with the State 
Department. And you and I did not get a chance to talk about 
this much earlier but I think you know the issue, generally.
    It provides the State Department with the authority to deny 
visas to foreign researchers whose problematic affiliations 
like to the PLA or to the Communist Party, for that matter, and 
access to export control technologies through fundamental 
research raised national security concerns.
    This is a balanced bill. We have support from a lot of the 
university community because we did take a balanced approach. 
And yet, we are interested in, and I think this bill would 
accomplish this, really tightening up our research enterprise 
here in this country so that we are not continuing to lose 
researchers and research to China through things like the 
Thousand Talent programs that we were able to investigate.
    Can you speak to that? Do you agree that we need these new 
visa authorities and can you talk about how we can better 
protect taxpayer-funded research, intellectual property, from 
China and others?
    Mr. Blinken. So, Senator, I very much welcome looking into 
that and looking into that quickly. I haven't had a chance to 
read the legislation. So I want to make sure that I do that--do 
that first.
    But I would welcome an opportunity to talk to you about 
that as soon as I have an opportunity to do so. I think the 
basic proposition I very strongly agree with. We need to make 
sure that we are protecting the intellectual property that is 
produced in this country.
    We need to make sure that we are protecting the technology 
that--if going to the wrong place that undermine our security, 
and we need to make sure that we have the tools to do that. So 
I welcome a chance to look at the legislation and talk to you 
about it.
    Senator Portman. Great. Your career folks at State 
Department have been very involved in it and, in fact, we had a 
fellow from the State Department who helped us put together the 
legislation, who was very helpful, from the visa division at 
the State Department.
    Israel. We talked about building on the Abraham Accords, 
some of the positive things that happened recently. I would 
like to hear your comments on that, but also with regard to 
global boycotts of Israel, Senator Cardin and I have worked 
together on this over the years to try to oppose the global BDS 
movement--boycott, divestments, and sanctions--against Israel, 
essentially, a double standard for Israel.
    And then Senator Booker and I have worked on the anti-
normalization laws--in other words, adding to the efforts that 
you make every year to, you know, require countries to include 
their annual human rights records, also adding to that their 
people-to-people engagement with Israeli citizens and residents 
to try to normalize relations between the Arab world and Israel 
to the extent that we can.
    Can you talk about those two issues and how you feel about 
them and what your priority would be with regard to Israel?
    Mr. Blinken. Senator, yes, as we had a brief opportunity to 
discuss, I support the Abraham Accords. I applaud the work that 
was done to achieve them.
    I think they have significantly advanced the security for 
Israel and for the countries involved. It opens new 
perspectives and prospects with regard to travel, to business, 
to trade, all of which is very, very positive and I would hope 
that we have an opportunity to build on them, going forward.
    With regard to BDS, the president-elect and I firmly share 
this conviction, is resolutely opposed to BDS for the reasons 
that you cite. It unfairly and inappropriately singles out--
singles out Israel.
    It creates a double standard and a standard that we do not 
apply to other countries. And so I think we are very much in 
the same place on that.
    Of course, we fully respect and will always respect the 
First Amendment rights of Americans to say what they believe 
and think, but BDS itself is something that we oppose.
    The Chairman. Thank you, Senator Portman.
    Senator Portman. Thank you, Chair. Thank you, Mr. Blinken.
    The Chairman. Thank you. I am told Senator Merkley is with 
us. Is that correct?
    Senator Merkley. Indeed. Greetings, everyone, and thank you 
so much, Tony, for your testimony. The advantage of coming near 
the end is that every topic I had planned to ask you about has 
been discussed to some degree, but I will invite you to 
explore, perhaps, a little more in depth starting with New 
START.
    One of the questions is how one extends New START and the 
advantages of a shorter period of extension or a longer period 
and how that might play in to possibly watching the 
negotiations to address some of the evolving threats in 
strategic nuclear weapons.
    Your thoughts?
    Mr. Blinken. Well, thank you, Senator. In the first 
instance, I think that for all of the challenges we have seen 
in certain arms control agreements with Russia, particular INF 
as well to some extent is Open Skies, I think based on what I 
have seen, based on what the Trump administration reported when 
it comes to New START, Russia was making good on its 
obligations and this--and New START is not some kind of gift we 
give to the Russians.
    It is manifestly in our self-interest in terms of giving us 
a predictable cap on the core of Russia's nuclear arsenal as 
well as giving us tremendous access to data and inspections 
that we otherwise would not have.
    And so, in our judgment, it is certainly in the national 
interest to extend it. As we discussed this a little bit 
earlier, because of our focus on making sure that we respect 
the principle of one president at a time, we--this is something 
that we will have to tackle but only when we--when the 
president-elect becomes president tomorrow. But it is also 
something we are going to have to engage very, very quickly 
because the deadline is very fast upon us. I think we will have 
15 or 16 days left.
    So it would be our intention to come immediately to this 
committee and other committees to consult on our plans for the 
way forward. So but I can tell you right now we will seek the 
extension. The president-elect has to decide on the--on the 
duration.
    Senator Merkley. Thank you.
    Turning to China, I had authored a provision that required 
the administration, whichever administration, to respond by 
April to evaluate China's actions with the treatment of the 
Uighurs, and that has now been done with today's determination 
by the administration, by Secretary Pompeo, that it constitutes 
genocide, which I know you have spoken to and you said you 
agree with.
    You also mentioned you would like to see us stem the tide 
of products--imported products coming that are manufactured in 
that, essentially, slave economy.
    We have a bill--Senator Rubio and I have a bill, the Uighur 
Forced Labor Prevention Act. It has a lot of sponsors in the 
Senate on both sides of the aisle. I mentioned it when we spoke 
before and you said you would take a look at it.
    I want to check in and see, among the millions of things 
you have prepared for, if you have been able to take a look at 
it and if this strategy, trying to keep the U.S. supply chain 
free of products tainted by forced labor, is one you can 
support.
    Mr. Blinken. Senator, I am afraid I haven't had a chance to 
actually read the legislation. But I would be more than pleased 
to do so quickly, if confirmed.
    And, as you note, the decision today, the finding today, I 
think only underscores the urgency of engaging on this issue. 
So I commit to doing that quickly, if confirmed, and getting 
back to you.
    Senator Merkley. As well as something to a separate 
meeting, I believe you confirmed to Senator Markey that you 
would look into the expiration of genocide in regard to Burma's 
treatment of the Rohingya.
    Mr. Blinken. That is correct.
    Senator Merkley. And I appreciate that Aung San Suu Kyi had 
invited, in her U.N. speech following the horrific massacres in 
August several years ago, to come and see for yourselves. So I 
led a congressional delegation to see for ourselves.
    The Burmese Government blocked us from going to the 
villages as they did with virtually every other group in the 
world, and, certainly, I think our failure to call it out as 
genocide has been an encouragement to dictatorial aggressive 
regimes around the world with what they might be able to do 
against a disliked minority. And so I appreciate that you are 
willing to deal with that very directly.
    I also appreciate you also addressed the issue of exploring 
asylum for those in Hong Kong who have been politically 
persecuted for defending democracy, and it is another place 
where we can really help stand up for democracy.
    But, again, I missed your comments but I believe you 
addressed this and expressed support for exploring providing 
such asylum.
    Mr. Blinken. I did.
    Senator Merkley. Thank you.
    I wanted to turn to the Northern Triangle. It was Vice 
President Biden who went down to try to work out an economic 
package to assist the Northern Triangle quite a few years ago. 
He asked Senator Carper to oversee how this was going.
    I traveled down to the Northern Triangle with Senator 
Carper about a year and a half ago, and I cannot say it was 
real encouraging, in part because of the multiple challenges of 
taking on, assisting nations where drug enterprises have become 
so incredibly powerful that they tend to corrupt everything.
    President-elect Biden has supported a renewed significant 
economic package. Can we deliver such economic help without, in 
essence, strengthening or feeding corruption in those 
countries, and if so, any insights on how we do that?
    Mr. Blinken. The short answer, Senator, is I think that we 
can but I do not want to minimize the difficulty. When we did 
the initial package during the Obama/Biden administration and 
this was, again, I think, a real bipartisan achievement in 
getting that support, the vast bulk of the assistance did not 
go through or to the governments in question.
    It went, typically, through third parties and it was tied 
very explicitly to concrete reforms on the part of these 
countries in criminal justice, in policing, in combating 
corruption, in creating economic opportunity, et cetera, 
dealing with all of the drivers of migration. And, you know, 
the problem, of course, is that the--as you very well describe, 
this is not simply flipping a switch. These are systemic and 
endemic problems that take a lot of time as well as resources 
to try to turn around. But we did start to see, I think, some 
results in the Northern Triangle countries, and now we have 
what is admittedly an ambitious plan to pursue this but to do 
it in a way that does not send money for--not tied to concrete 
reforms and that is making sure that we are working with 
parties that will not use it for the--for inappropriate 
purposes and are not plagued with corruption.
    So I think it is doable. Anecdotally, I can tell you that 
the first time around one of the leaders of one of those 
countries was complaining to then Vice President Biden that he 
was not a direct recipient of this funding and it was going 
around him, and he said, why is that. And the vice president 
said to him, because you are corrupt, and that was the end of 
the conversation. But the program went forward.
    So having said all that, I think this is, again, an area 
where it would be very profitable for us to try to work 
together to make sure that if we are dedicating taxpayer 
dollars to this we are doing it in a way that is getting 
results.
    Senator Merkley. Well, one thing we heard repeatedly was 
one of the most effective things we did was provide extensive 
training and assistance to their positions that were equivalent 
to an attorney general.
    Mr. Blinken. Yes.
    Senator Merkley. There is also prosecutions and all sorts 
of investigative powers and capabilities they did not have. 
There was also an area where the governments were pushing back 
enormously, strongly, trying to stop that assistance because 
you had former presidents and--who had been arrested and 
current presidents under investigation and close friends and 
brothers and so on and so forth.
    Right now, we have in Honduras President Juan Orlando 
Hernandez, who has been named as a co-conspirator in three 
corruption and drug trafficking cases. Now, what is our--what 
should our posture be towards a president in that situation?
    Mr. Blinken. We were talking a little bit about this 
earlier. When we look at just generically the problem of 
corruption, it is without question one of the main drivers of 
conflict around the world.
    It is being weaponized as a tool by some of our 
adversaries. It is also, at the same time, the soft underbelly 
of a number of our adversaries. And so across the board we need 
to be better focused and better resourced, and I am determined 
that we will be, to combat corruption. I think there are very 
case-specific hard issues that we have to look at when it comes 
to individuals and individual leaders.
    But this is something that I think would bear focus, 
attention, resources, and collaboration with the committee.
    Senator Merkley. Will we terminate the so-called Safe Third 
Country Agreements with the Northern Triangle countries?
    Mr. Blinken. I am sorry. Could you repeat that?
    Senator Merkley. Yes. Will we terminate the Safe--so-called 
Safe Third Country Agreements with the Northern Triangle 
countries?
    Mr. Blinken. So, so far, as I understand it, it is only 
being implemented in Guatemala. I do not see it as an effective 
answer to the challenge.
    We would--we will be coming forward and we have already 
started to come forward with both an immigration reform plan in 
the United States itself but then other very specific ideas for 
how to make sure that our border is humane, orderly, and fair, 
and we have to deal with the drivers of migration, which we 
just talked about, particularly with regard to the Northern 
Triangle.
    We also have to make sure that we have, at least in my 
judgment, an asylum process that meets our highest traditions 
and I think also meets our legal and moral obligations.
    But that requires significantly more resources to make sure 
that we can adjudicate asylum claims on the spot and make sure 
that people who are deserving our protection get it and those 
who are not are removed in a dignified manner.
    Senator Merkley. I am going to interrupt you there, Tony, 
just because I am just about out of time and I want to close on 
climate, and one of the things that--tools that we have 
internationally is to express the use of international finance 
to support a conversion to renewable energy around the world, 
and we are all at risk if we fail in this effort.
    And will the administration push the international lending 
institutions that we participate in to stop funding new fossil 
fuel projects?
    Mr. Blinken. Yes. This is an area we want to focus on. We 
want to make sure that we are not doing anything to facilitate 
countries exporting dirty technology around the world, 
including something we see from China, which is in part through 
the Belt and Road Initiative and by other means, getting this 
technology around the world. It should not benefit from 
international financing to do that.
    The Chairman. Thank you, Senator.
    Senator Merkley. Thank you very much.
    The Chairman. Senator Young?
    Senator Young. Mr. Blinken, welcome to the committee. I 
enjoyed our conversation just days ago and I would like to pick 
up one of the threads of that conversation here as I begin to 
pose some questions to you.
    But and it pertains to the president's authority to make 
war and also existing legal authorities on the books pertaining 
to authorizations of the use of military force.
    I am jealous of congressional prerogatives. I know former 
Senator Joe Biden was jealous of those prerogatives as well and 
so he has longstanding and, I think, well established views on 
this topic and, frankly, I believe that the president-elect and 
I see very much eye to eye on this. That was my sense during 
our conversation.
    Could you kindly explain to the committee whether existing 
legal authorities through the '91 and '02 Iraq war 
authorizations still apply today?
    Mr. Blinken. I think it is long past time that we revisit 
these and review them. I think in many instances they have been 
cited and used in countries or against groups that were not 
part of the original authorization.
    And so this is--it is long past time that we do this, and I 
would welcome an opportunity to work with the committee on 
doing just that.
    I think as we talked about a little bit, one of the 
challenges in the past is we did try to do this a few years 
ago, and it is not easy to get--to get to yes. For some, the 
porridge is too hot. For others, the porridge is too cold and 
can we get a consensus around what is just right.
    But I would be determined and committed to working on that 
and as well for the reasons you cite the president-elect feels 
very strongly about this.
    Senator Young. Well, thank you. I will personally look 
forward to working with you and I would be remiss if I did not 
mention Senator Tim Kaine has been toiling on this effort for a 
number of years and I hope he will be a walking point on this 
as well.
    Last week, you no doubt saw that Secretary of State Pompeo 
made remarks pertaining to Iran, characterizing it as al-
Qaeda's new home.
    Mr. Blinken. Mm-hmm.
    Senator Young. And the implications for the 2000 AUMF is 
something I would like to explore with you. Do you believe, 
based on the connection that Secretary Pompeo makes between 
Iran and al-Qaeda that a Trump or a Biden administration would 
have authority to strike Iran, or do you instead adopt the 
interpretation that if it is deemed necessary to engage in any 
sort of military action it would be the president of the United 
States need to instead come before this body for authorization?
    Mr. Blinken. It would certainly--it would be the latter. We 
would--we would, I believe, need to and should, in any event, 
come before the Congress in that situation.
    With regard to the statement the secretary made, that is 
something I intend to look into, if confirmed, very, very 
promptly. I haven't had a chance to see what the underlying 
basis is for that.
    But, obviously, that is something we would have to take 
very, very seriously. Al-Qaeda leadership has been in Iran for 
some time. At various points, it was--did not have full freedom 
of movement. At other points, it may have had the leash taken 
off a little bit.
    But the--what Secretary Pompeo cited publicly is something 
that I would be very concerned with. But I have to look at what 
is underneath that.
    Senator Young. In the past, Mr. Blinken--I am going to 
pivot to China and economic statecraft as it relates to China. 
You have indicated, I think, rightly that China and the Chinese 
Communist Party is, arguably, presents the greatest challenge 
geopolitically, geoeconomically, to the United States of 
America, but also technologically, militarily, and 
diplomatically. And I think you would agree that we need to 
push back on each of those different fronts vis-a-vis the 
Chinese Communist Party. On the economic front, however, I have 
said, I have written, I have been arguing for a number of years 
now that though it has been encouraging not see this issue 
elevated in our popular discourse, I think our approach has 
been, shall I say, lacking in the sense that we have engaged in 
what I would characterize as defensive measures, defensive 
countermeasures against the Chinese Communist Party--tariffs, 
for example--and we have engaged in those defensive 
countermeasures unilaterally as opposed to gaining more 
leverage by working with our partners and allies.
    So sort of two points. Do you agree that we need to engage 
more robustly our partners and allies so that we have more 
leverage? I suspect it is almost a rhetorical question.
    Mr. Blinken. Yes, I strongly do, and to your point, very 
quickly, as you know, when we are acting alone against Chinese 
excesses in the commercial area, we are about 25 percent of 
world GDP. When we have got allies and partners with us, 
depending on who it is, it is 50 or 60 percent.
    It is a much heavier weight for China to have to ignore. 
And so there is tremendous benefit in the effectiveness of 
pushing back on China when we are doing this with other 
similarly-aggrieved countries.
    Senator Young. So that is encouraging. So you and I are, 
blessedly, in agreement as it relates to that. I also think the 
United States needs to--for the lack of a better term, we need 
to play off that.
    We need to up our game. We need to out innovate, 
outcompete, and outgrow the Chinese Communist Party, and we 
have done this before. I mean, this is, arguably--this was the 
catalyst for our success in the Cold War.
    So how quickly we forget, and to that end, I have 
introduced legislation along with Senator Schumer called the 
Endless Frontier Act. You and I had an opportunity to briefly 
discuss that.
    The effort here is to spark innovation in what I will 
characterize is frontier sort of platform technologies like 
artificial intelligence, robotics, advanced manufacturing, 
things that may have a nexus with national security but, 
regardless, will grow our economy at a more rapid rate and, 
therefore, has geo-economic implications.
    So do you believe that the United States Government should 
be investing in these sorts of key frontier technologies, 
partnering with our allies and partners where appropriate so 
that we can lead the world in their development and broaden our 
innovation base?
    Mr. Blinken. I do. I think we can play a catalytic role. We 
have done that, as you say rightly, in the past. Part of this, 
at least in my judgment, is about making sure that we are 
unleashing the private sector to really focus on these issues, 
focus on these areas, and give it some support if it needs to 
have that support in order to do it.
    But, yes, I very much agree, and we had a chance to talk 
about this earlier. I am very appreciative of the work that 
this committee has done in a whole variety of areas but focused 
pretty much on the same objective when it comes to the LEADS 
Act, when it comes to the report that the chairman issued.
    I think there are a lot of common denominators. And to your 
point, Senator, I just could not agree more. This is, 
ultimately, about us, and when we are thinking about China and 
the competition with China, whether it is the adversarial 
nature of the relationship, the competitive nature, or even, in 
some cases, the cooperative one, ultimately, it begins with us 
and it is, in some cases, less about the growth of the Chinese 
threat and more sometimes about our own self-inflicted 
weaknesses. If we can get our own act together we can do a lot 
better.
    Senator Young. I agree with that. Oftentimes, and this 
happened in the Cold War, we were called by an adversary, what 
Ronald Reagan characterized as an evil empire, to become a 
better version of ourselves, and I see this as an opportunity 
for our country. Let us invest in ourselves
    Mr. Blinken. Very much agree.
    Senator Young. Let us become a better version of ourselves, 
and very good then.
    More broadly, moving beyond China, with this, you know, of 
course, of paramount importance, do you think we need a written 
plan, a written plan that lays out what our economic strategy 
is from a national security lens? Just as we have derivative of 
the National Security Strategy, we have a National Defense 
Strategy?
    Mr. Blinken. Yeah, I think that is a good idea. As you say, 
we have a National Security Strategy. We have a National 
Defense Strategy. Folks labor hard on this. I have spent some 
time on a few of those in the past, and I think we would 
benefit from the same in the economic realm.
    Senator Young. Well, should you be confirmed, and I suspect 
you will be, would you be willing to dialogue with myself and 
Senator Merkley--
    Mr. Blinken. Yes.
    Senator Young [continuing]. On the global economic security 
strategy that we have that would affect this sort of change? 
Thank you
    Mr. Blinken. Absolutely, with pleasure.
    Senator Young. Last thing, I am going to turn to Yemen, and 
this has been explored by a number of my colleagues so I am not 
going to revisit many of the issue or questions that they posed 
to you. It has, indeed, been characterized as the worst 
humanitarian disaster, I think, rightly so, but it is also a 
major national security threat, seeing as it is the home of 
AQAP, arguably, the most dangerous branch of al-Qaeda.
    And what has not, I think, been discussed here is the 
dimension of soft power as it relates to Yemen. If the United 
States of America is partnering with Saudi Arabia and there 
have been violations of international humanitarian law--as I 
have argued, there were with respect for our military 
involvement in Yemen--do you think that undermines our argument 
when we talk publicly about the Chinese and their human rights 
violations as it relates to, say, the Uighur Muslims and the 
tension of Muslim organ extraction?
    Mr. Blinken. I do. I do.
    Senator Young. Okay. I agree with that. Another lesson I 
think we could--we could learn from this situation in Yemen 
is--relates to what happens when you deprive people of 
essentials--food, medicine--which is, effectively, what has 
occurred in Yemen in addition to the bombing of school buses 
and other publicized matters.
    So do you agree that the deprivation of essentials leads to 
the radicalization of individuals, as extensive literature 
shows, and that that could help al-Qaeda in the Arabian 
Peninsula and other groups like ISIS recruit more members?
    Mr. Blinken. Yes, I do. It is, certainly, a contributor and 
it certainly creates an environment in which recruiting people 
to extremism is facilitated.
    Senator Young. Okay. Well, I look forward to partnering 
with this administration and improving our efforts in Yemen on 
the economic issues, on China, and all the other issues that we 
addressed.
    Thank you, sir.
    Mr. Blinken. I would welcome that. Thank you, Senator.
    The Chairman. Thank you, Senator Young.
    Senator Booker?
    Senator Booker. Thank you. Thank you very much, Mr. 
Chairman. I am witnessing remarkable endurance, and not to you. 
It is actually your wife is showing extraordinary endurance and 
I think you owe her big time.
    Mr. Blinken. You have no argument from me on that.
    Senator Booker. All right. You went to the Stanford of the 
East, right? Harvard? Is that right?
    Mr. Blinken. That is correct.
    Senator Booker. Harvard Business School did a great report 
that diverse teams are much better teams in terms of their 
private sector performance.
    And I have been stunned in my travels around the world as a 
United States Senator when I go in country and meet with the 
State Department teams and see a shocking lack of diversity, 
not just ethnic and racial diversity but also religious 
diversity.
    And I really appreciate you talking about that in your 
opening statement. I heard the engagement I think you had--I 
think it was Chris Murphy and you had some discussions about 
it.
    I would like just to hear--I know your heart and I know 
your commitment to focus on these issues, but I would love to 
hear more specifics about how can you take a department that 
does not fully represent the rich diversity, the value of 
diversity of our country. How can you make the State Department 
and help to create it to be more reflective?
    Mr. Blinken. Senator, first, let me say that if I am 
confirmed to this job, I will view it as a significant measure 
of whether I succeeded or failed, however long I am in the job, 
whether or not we have finally put in place the real 
foundations to make sure that we have a workforce at the State 
Department that looks like the country it represents.
    And I say foundations because yes, we are going to make 
progress, real demonstrable progress on that. But as you know 
very well, it is not simply a matter now of appointing a 
diverse group of people to different jobs.
    We have to put in place much more systematically a 
recruitment process that stands the test of time and that 
reaches out into different communities in ways that we haven't 
done before.
    We have to have a retention process, because one of the 
problems that we have seen in the department is even when we 
have been able to recruit people from diverse groups we have 
often had trouble retaining them because we have not been 
sufficiently attentive or sensitive to some of the specific 
concerns that they have.
    And, finally, we have to have accountability, starting with 
the senior leadership, starting with the secretary of state, to 
make sure that we are following through on these commitments, 
and one way that we are going to do that, if I am confirmed to 
this, is I will appoint very, very soon a chief diversity 
officer who will ensure that we have benchmarks and that will 
ensure that we have transparency, including information that we 
will share with this committee, to make sure that there is a 
way of holding accountable the senior leadership.
    Senator Booker. Well, I think--I think that is really 
important, and as Senate Democrats--Senator Schatz and myself 
went to Chuck Schumer and asked him to publish every office's 
diversity statistics and, amazingly, that public accountability 
has shown the number of diverse members of Senate offices go up 
on the Democratic side considerably.
    I would also say that there is other issues. You know, 
there are unpaid internship programs at the State Department 
which really do select for certain people--
    Mr. Blinken. And even paid. I think--and I know that there 
has been some work done to make sure that we actually have some 
resources for paid internships.
    Senator Booker. Yeah, and that is what I am saying. We 
should be looking at more paid opportunities that----
    Mr. Blinken. Yes, absolutely.
    Senator Booker [continuing]. For people and I am doing some 
work on that, and I look forward to connecting with you on it. 
I was really appreciative of the dialogue that you and Senator 
Coons had about the Horn of Africa.
    I think we see what is beginning to look like a civil war 
in Ethiopia. I think the Grand Ethiopian Renaissance Dam 
conflict is growing and, could, potentially boil over. Sudan 
and Ethiopia have growing tension and growing conflicts.
    As you know, the Horn of Africa is of extraordinary 
importance. We have seen humanitarian disasters there before of 
staggering human toil. We also have one of the more important 
shipping lanes where about 10 percent of all global cargo goes 
by.
    You said that you want to have diplomatic active 
engagement. What does that mean?
    Mr. Blinken. Well, in the first instance, it means actually 
showing up at the--at the right levels to use what diplomatic 
weight we have with the Government, with the leadership in 
Ethiopia, in the first instance, and there are a number of 
things that I think at the very least would need to be done on 
short order.
    Senator Booker. Can I interrupt you?
    Mr. Blinken. Yeah, of course.
    Senator Booker. So I actually think that all that is great 
but can I just ask you why not appoint a special envoy to the 
Horn of Africa? Does that seem like something that might----
    Mr. Blinken. I will take a very quick look at that for the 
reasons that you cite. I do--I share the concern that you have 
that this is something that--the instability that was sparked 
by the aggression and events in Tigray.
    Now we have Eritrean refugees who are on the receiving end 
of atrocities. We have Eritrea possibly getting in. We have 
other states that are now being affected, and the potential for 
this to spill over is a real concern. And so yes, I will take a 
look at that.
    Senator Booker. And waiting for the deputy secretary. I do 
not know how fast we will get things confirmed for Africa, 
overall. I just think that this might be something that merits 
that because it could end up being another international 
disaster.
    I think I mentioned to you that I had one of the more 
amazing trips of my life with Senator Flake as well as some of 
my colleagues like Chris Coons to Africa. One of the first 
things that jumped out at me as we were flying to Zimbabwe to 
meet with President Emmerson Mnangagwa and talk to him about 
U.S. sanctions on his country, that he was flying back at that 
time from China. The headlines were China does not care about 
Zimbabwe's suppression of minorities or their political 
processes.
    The expansion of Chinese influence is stunning to me and I 
think that that is something that is far greater than, I think, 
people realize, and I will give you an example of this and I 
would like to hear your thoughts on the DRC as well. Clearly, 
we have another refugee crisis there. We have a tremendous 
makings of a humanitarian crisis.
    But I was stunned, and I think it was 2019--correct me if I 
was wrong--that 37 countries, including the DRC, signed a 
letter defending China's treatment of the Uighurs.
    I mean, imagine that. I have heard my colleagues talk about 
calling it concentration camps and genocide, and here you have 
China's influence has expanded so much that you have 37 
ambassadors to the United Nations, including countries like the 
DRC that have been so thoroughly engaged by China that they are 
defending something as horrific as that.
    And so that, to me, especially in the continent of Africa, 
is something that should send alarms to all of us in terms of 
the global competition between two--freedom and democracy and a 
totalitarian or authoritarian governments that suppress 
minorities and wreak havoc, frankly, in terms of the 
humanitarian disasters.
    And I just want to hear more from you, perhaps, about how 
we are going to meet that specifically in the context of Africa 
in the context of--from the Horn of Africa to the DRC to 
challenges we have seen in the Sahel region. How do we begin to 
combat that Chinese competition?
    Mr. Blinken. So, look, I could not agree more with you and 
I think we are seeing in China's commercial diplomacy clear 
strategic intent that goes beyond the simple commercial 
proposition that may lie originally at the heart of what they 
are doing.
    But we have a couple things to work with. One is the fact 
that the way China engages in commercial diplomacy tends to be 
actually a pretty bad deal for the recipients except, possibly, 
for the--a leader, who may benefit from the corrupt aspect of 
that.
    So when China is coming in and it is saddling countries 
with debt in a way that they cannot possibly afford so that, 
ultimately, it either owns the asset when they cannot repay it 
or resources are taken away from the people to pay off this 
debt that winds up being a bad news story.
    When they bring in Chinese workers instead of using local 
workers to actually build the projects, no environmental 
standards, and then the corruption that comes with it, I think 
more and more countries that have been on the receiving end of 
China's largesse have come to regret it.
    That is one piece of it, and I think shining a bright light 
on the way China engages in commercial diplomacy, juxtaposing 
that to the way we do it is one way to help.
    The other thing is I think most--as I have seen it and it 
comes up in the polling, most people in most countries in 
Africa would prefer, if given the choice, to be engaged with 
us.
    Senator Booker. Absolutely, and that is why my hope is, 
again, often we have these silos of State Department, Commerce, 
Trade often, that aren't working in a cohesive plan, and what 
we are seeing happening in places like DRC where we have rare 
earth metals and other sort of business interests is we do not 
have a holistic plan that, ultimately, could strengthen the 
economy of a lot of African countries that play into our sense 
of larger purpose.
    I have six seconds. I will use it just to sound off to you 
about my frustrations in this global pandemic, that which is 
directly related to the economy, and so you have America seeing 
that first hand, the suffering.
    But we will be vaccinated if things continue on this pace, 
this nation will be vaccinated. This pandemic will be behind 
us.
    But in developing nations like in Africa, I have seen 
projections that until 2024 it could take to end that, which 
not only means a grievous loss of life globally but also means 
that the economic crises we are already seeing in these very 
poor nations will grow dramatically worse.
    If we are not saying this now and finding ways with global 
pharmaceutical companies to find a way, then we are relegating 
developing nations to a level of death, carnage, and economic 
collapse that is shameful, and I would hope, if you could just 
give me some assurances that you are aware of this and are 
committed to doing something about it.
    Mr. Blinken. Yes, absolutely. We are very concerned. We 
were talking about this a little bit earlier about the various 
tails that risk wagging the COVID dog and those are among the 
most concerning.
    Senator Booker. Thank you very much. From a guy who went to 
a safety school you turned out all right. I look forward to 
supporting you.
    Mr. Blinken. Thank you, Senator.
    Senator Booker. And Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Booker.
    Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman. Mr. Blinken, 
welcome.
    Mr. Blinken. Good to see you, Senator.
    Senator Cruz. Congratulations.
    Mr. Blinken. Thank you.
    Senator Cruz. And congratulations on making it to the end 
of a long hearing. And I suspect over the next several years 
there may be a number of issues on which we have disagreements. 
But let us start on some areas where we may have some common 
ground, and in particular, I want to start by talking about 
Nord Stream 2.
    In the last 18 months in the Senate, we have seen 
remarkable bipartisan agreement when it comes to Nord Stream 2.
    I have authored two separate pieces of legislation jointly 
with Senator Shaheen, bipartisan legislation, both of which 
have passed into law imposing strong sanctions to prevent the 
completion of Nord Stream 2. The first of those we passed in 
December, a little over a year ago, the second of those we 
passed just a little over a month ago.
    And, as a consequence, a pipeline that was on the verge of 
being completed halted in its tracks, and when we first started 
taking up the Nord Stream 2 sanctions legislation the pundits 
and observers all said there was no chance the sanctions would 
stop the pipeline.
    That has now been proven categorically false. The pipeline 
has stopped and, of course, a pipeline that is 95 percent 
complete is a pipeline that is zero percent complete because it 
is not operational. Just this morning, the State Department 
announced sanctions specifically on entities, one involving a 
specific vessel, the Fortuna that has been involved in 
Russians' attempts to complete the pipeline.
    Now, worryingly, there have been suggestions out of Moscow 
and out of Berlin that the Biden administration would reduce 
pressure and reduce efforts to stop Nord Stream 2.
    I would tell you, in terms of the Senate the sanctions 
legislation we passed--in order to get it passed it received 
the support of virtually every member on this committee.
    It has received the support of both the chairman and 
ranking member of this committee. It received the support of 
both the chairman and ranking member of Senate Armed Services, 
the chairman and ranking member of Senate Banking, the Senate 
majority leader and the Democratic leader, and it received the 
support of the same leadership in the House.
    And so when it comes to congressional opposition to Nord 
Stream 2, congressional commitment to stopping that pipeline 
from ever being complete, it is virtually universal and it is 
bipartisan.
    Can you commit to this committee today that the Biden 
administration will hold the line, will keep the sanctions, and 
will prevent the Nord Stream 2 pipeline from being completed?
    Mr. Blinken. Two things, if I may, Senator. First of all, 
the president-elect strongly agrees with you that Nord Stream 2 
is a bad idea and he has been very clear about that. I need to 
look at the actual legislation. I am determined to do whatever 
we can to prevent that completion, the last hundred yards, I 
very much agree.
    I do need--I would need to consult with the president-
elect--I haven't had a chance to talk to him about this--when 
he is president to make a determination on sanctions. In an 
ideal world and we probably do not live in one--in an ideal 
world, we will engage very quickly with our partners and allies 
in Europe and I think we would try to seek to convince them to 
stop this.
    But if that does not succeed, I think the tools that we 
have, including the tools that you provide, are something we 
would have to look very seriously at. I just cannot commit 
right now to doing that because I haven't had a chance to talk 
to president-elect about it.
    Senator Cruz. Well, I will note the European Union, in 
terms of our partners and allies in Europe, when they voted to 
condemn the Nord Stream 2 project the vote was something like 
400 to 100. It was overwhelmingly to condemn the project.
    That being said, Angela Merkel and Germany have leaned in 
vigorously in support of it and this is, clearly, the number-
one energy priority for Putin and Russia and it represents 
billions of dollars that fund Putin's aggression.
    Would a Biden administration be willing to stand up to 
German pressure? The Germans are going to press you and you are 
not going to convince Merkel to change her mind on this. And so 
will a Biden administration be willing to stand up to that 
pressure, particularly when the rest of Europe recognizes how 
damaging completing this pipeline will be?
    Mr. Blinken. I know his strong conviction that this is a 
bad idea, the Nord Stream 2. That much I can tell you. I know 
that he would have us use every persuasive tool that we have to 
convince our friends and partners, including Germany, not to 
move forward with it.
    But what I do need to do is make sure that I have actually 
consulted with him on the specifics of that.
    Senator Cruz. Well, I look forward to working with you on 
that, and I would note that both sets of sanctions we passed 
are mandatory and not discretionary, and so I will look forward 
to continuing to work with you on that.
    Let us shift to a second area where we may or not get 
agreement. You mentioned earlier in this hearing the importance 
of strengthening regional allies to stand up to China, and I 
have long believed that China poses the single greatest 
geopolitical threat facing the United States for the next 
century.
    One of those important regional allies is Taiwan. When you 
were at the State Department, rules were put in place 
concerning Taiwan that put restrictions on Taiwan that no other 
country faced, and in particular, that prohibited the display 
of symbols of Taiwanese sovereignty on U.S. federal property.
    I have been a vocal critic of those policies and in recent 
weeks the State Department announced that it was rescinding 
those policies. I think that is the right thing to do, and that 
Taiwan we should respect and treat with respect and I think 
strengthening Taiwan helps both the region and America stand up 
to China.
    What are your views today and would you seek to go back to 
the old policy that has been reversed?
    Mr. Blinken. So a couple things on that. I had a chance to 
mention this earlier. When President Tsai was running for 
office, I actually received her at the State Department, had a 
great conversation.
    This is some years ago. And then when she became president, 
I talked to her on a number of occasions and that in and of 
itself, I think, is important.
    There is the--the Taiwan Assurance Act and its requirements 
that I think is what, in part, triggered what the State 
Department and Secretary Pompeo have done. I want to see that 
process through to conclusion, if it hasn't been concluded, to 
make sure that we are acting pursuant to the mandate in the Act 
that looks at creating more space for contact.
    Senator Cruz. All right. Let us shift to another part of 
the world where I suspect we will have more significant 
disagreements, and that is Iran. You are a vocal proponent of 
the Obama/Biden Iran nuclear deal.
    I believe that was a catastrophically misguided deal. In 
the four years since the Obama administration was in office, 
the United States has, of course, withdrawn from that deal.
    Not only that, we now know a number of facts we did not 
know at the time the deal was being negotiated. One of the 
things--and in particular, we know the involvement of the IRGC 
with terrorism directly targeting Americans and murdering 
American servicemen and women.
    In 2016, Congress overwhelmingly passed CAATSA, which 
imposed mandatory terrorism sanctions on Iran's Islamic 
Revolutionary Guard Corps, and we have since discovered the 
vast money in Iran that is intertwined with the IRGC, in 
particular, the financial sector, including Iran's Central 
Bank, and the energy sector, including the national Iranian oil 
company.
    Both of these sectors and entities have now been sanctioned 
under the terrorism authorities for funneling money to the 
IRGC. The Pentagon also has assessed that the IRGC is 
responsible for killing at least 603 Americans in Iraq.
    Do you believe it is in America's national security 
interest to lift those terrorism sanctions and to allow 
billions of dollars to go once again to funding terrorist 
activities?
    Mr. Blinken. I do not, and I think that there is nothing, 
as I see it, inconsistent with making sure that we are doing 
everything possible, including the toughest possible sanctions 
to deal with Iranian support for terrorism, its own engagement 
in that, and the nuclear agreement.
    And we said from the outset and we are serious about it, 
that the nuclear agreement was one thing but continuing and 
even strengthening our ability to push back and to deal 
effectively with Iran's egregious behavior including in the 
terrorism realm was something that we needed and should do.
    Part of the challenge now I think we have, Senators, 
because we have had this divorce, to some extent, from some of 
our allies and partners who, ideally, would be with us in 
pushing back against Iran's malicious activities, as a result 
of disagreeing over getting out of the nuclear deal, we are 
less effective than we might otherwise be in those other areas 
if we were working together.
    I think one of the benefits, should Iran choose to come 
back into compliance and we wind up doing the same thing is 
that we would at least be back on the same page with allies and 
partners, and that might make us more effective in dealing with 
these problems.
    Senator Cruz. You mentioned it was a priority defending 
LGBT rights.
    Mr. Blinken. Mm-hmm.
    Senator Cruz. Iran's record concerning the LGBT community 
is horrific.
    Mr. Blinken. I agree with you.
    Senator Cruz. They put to death, they execute people for 
the crime of being homosexual.
    Mr. Blinken. I agree with you.
    Senator Cruz. As long as they maintain that barbaric and 
inhumane policy, do you think it is appropriate for a Biden 
administration to allow billions of dollars to go to that 
regime?
    Mr. Blinken. The challenge that I think we face and, of 
course, we have--the biggest problem that we face with Iran, 
and I think that we, unfortunately, continue to face and it may 
get worse again, is that with regard to all of the egregious 
actions that Iran takes that you rightly point out, across all 
of these areas, an Iran that has a nuclear weapon or has the 
capacity to develop one or the material for one in very short 
order risks acting with even greater impunity than it already 
does.
    So I think the first order of business has to be to get 
that back in the box. That puts us in a much better position to 
try to deal with some of these truly egregious actions.
    Senator Cruz. And a final question because my time has 
expired, do you agree that Jerusalem is the capital of Israel?
    Mr. Blinken. Mm-hmm.
    Senator Cruz.--and do you commit that the United States 
will keep our embassy in Jerusalem?
    Mr. Blinken. Yes and yes.
    Senator Cruz. Thank you.
    The Chairman. Thank you, Senator Cruz.
    Let me try to wrap this up with just a couple of quick 
questions. You made reference way, way back some hours ago that 
the new administration was going to withdraw the support for 
the Saudi war in Yemen. Did I characterize that correctly?
    Mr. Blinken. That is correct, Mr. Chairman.
    The Chairman. What does that look like?
    Mr. Blinken. I think it looks like, first and foremost, 
making sure we understand exactly what support we are actually 
currently providing and which we need to look at, and then 
withdrawing that support.
    But I want to make clear I think we have to be in close 
contact with Saudi Arabia, with our partner there. We need to 
be very clear about what we are doing, why we are doing 
something, and talk it through.
    But the main point is that for reasons that we have 
discussed we believe that continuing that support is not in the 
national interest.
    The Chairman. I hear what you are saying. I think the 
Saudis themselves would like to be in that position. I think 
they are having trouble getting away from the tar baby that 
they have been involved in for some time.
    What does that mean as far as recognizing who is the 
legitimate governance of Yemen, or haven't you crossed that 
bridge yet?
    Mr. Blinken. I do not think we have crossed the bridge. 
There is a recognized government in Yemen that is, basically, 
in exile. It is not operating from Yemen. I had some dealings 
with it in the past.
    There is, as you know, a U.N. process that seeks to restore 
a national Government in Yemen. But the hard reality is, as we 
were talking earlier, you know, 80 percent of the people live 
in areas controlled by the Houthis at this point. So we are a 
long way from that.
    The Chairman. That is fair.
    One thing we did not talk about, or I guess Senator Cruz 
may have alluded to this briefly, is there is significant 
amount of cash that is frozen again that is--Iran lays claim 
to. I think it is about $15 billion in three different 
countries, including South Korea. Are you aware of those funds 
or not?
    Mr. Blinken. Mr. Chairman, are these the funds from--the 
proceeds of oil sales that have been frozen, or something else?
    The Chairman. You know, I cannot--I cannot answer that. All 
I saw was that they are funds that are frozen that we had 
frozen because of our sanctions but that Iran wants their hands 
on. And I guess my encouragement would be that there not be any 
unfreezing of these funds or anything to try to get the 
Iranians to the table or anything like that.
    Mr. Blinken. I agree with that.
    The Chairman. We had a really bad experience with the 
pallets of cash, as you know, that--the infamous pallets of 
cash that were transferred. So I would urge you strongly in 
that regard.
    And then we also did not talk about bringing the American 
citizens home who Iran have. I am assuming you are all on board 
with that and that is something that if, indeed, we wind up 
negotiating with them, that--to me, that has really got to be 
in the first wave, I would think. So I would put that on your 
plate. Any comments on that?
    Mr. Blinken. Mr. Chairman, I feel very strongly that I 
would have, as secretary of state, first and foremost, the 
priority of making sure that our personnel, wherever they are, 
are safe and secure but very high up in the--in a hierarchy of 
things that I need to be responsible for, doing everything we 
possibly can to bring any American home who is being unjustly 
detained anywhere in the world who is a hostage, including in 
Iran. That has to be a priority.
    I had an opportunity as I was getting some briefings during 
the transition to make sure that one of the briefings that I 
asked for and got was from the current leader of our effort to 
bring unjustly detained Americans home, Roger Carstens, and I 
got a--we had a terrific conversation.
    I am very impressed with the work that he has been doing 
and, indeed, have--we have asked him to stay on for some time.
    The Chairman. That is good. Thank you. I appreciate that.
    I have to tell you, I am--I am greatly encouraged by our 
conversations earlier today before we came in here and then 
again today as your commitments regarding the Iran situation. I 
think it is--certainly, China is a bigger problem.
    But Iran, as I explained to you, I think, is a--is a 
flashpoint that could get out of hand very, very quickly 
because they are notorious for making bad judgments and pushing 
the envelope. I feel strongly in that regard.
    I feel strongly about how we go about this, and I know we 
meet regularly and talk with our friends from Israel. They want 
to get their two cents worth in substantially more than they 
did last time. So I appreciate your commitments in that regard.
    With that, Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman, and just some 
final questions, and you have had an extraordinary tour de 
force here. I think it shows not only, as I said at the opening 
statement, your intellect but the demeanor in which you come to 
all of these issues and the engagement with the committee. So 
just some final questions, because the world watches your 
hearing and I do not want some parts of the world to think they 
are getting away without some attention, so to speak. So 
Russia. Navalny, his poisoning and his arrest. SolarWinds, 
bounty on U.S. soldiers, election interference, the use of 
chemical weapons to assassinate opponents in different parts of 
the world.
    Clearly, clearly, Russia must face consequences for its 
actions, otherwise, it thinks they can continue to violate the 
international order. During the last four years, Congress had 
to assume a policy and leadership role in this regard.
    I authored CAATSA. In part, it was to deal with the 
Russians. What do you view as--well, first, well, do you agree 
that Russia has to have consequences for these actions and 
would we expect the Biden administration to pursue those 
consequences?
    Mr. Blinken. Yes and yes. You laid it out very powerfully 
and very succinctly when you just--the things you mentioned are 
egregious in so many ways. The president-elect has been very 
clear that there need to be costs and sustained consequences 
for some of these actions.
    It is worth--it would be worth, you know, when we have the 
opportunity spending the time on each one because they merit a 
deep conversation. I think, thanks to this committee, thanks to 
Congress, we have some tools in our--in our toolbox, whether it 
is CAATSA, whether it is Magnitsky, whether it is other 
authorities that we have including the authorities that were 
created during the Ukraine crisis that are extremely helpful in 
being able to impose some of these costs and consequences.
    The president-elect, in the context of talking about 
election interference, said that, you know, he has determined 
to make sure that there are costs and sustainable consequences 
and, of course, we need to look at that at a time and a place 
and the manner of our choosing.
    But this cannot go on unanswered.
    Senator Menendez. I appreciate that. I did not even mention 
the annexation of Crimea and the continuing invasion of 
Ukraine. So I appreciate that, and I would just offer that if 
you believe you do not have authorities that you could use, 
then please come back to the committee because I think you 
would find a bipartisan welcome to try to pursue those.
    Let me turn to Turkey. You know, Turkey, as the--what we 
aspired of Turkey, the bridge between East and West, the 
secular nation, the strong NATO ally, has not been realized 
under President Erdogan.
    The purchase of the S-400, which is a violation, clearly, 
of CAATSA, the engagement that it has had in destabilizing 
actions in Syria, the invading into the territorial waters of 
Cyprus in terms of its exclusive economic zone and seeking to 
drill there--Cyprus, a member of the European Union--a claiming 
of a whole area of what would be Greece's exclusive economic 
zone all the way leading to Libya, the support that Erdogan had 
for Azerbaijan and the engagement in its aggression in Nagorno-
Karabakh, which cost so many lives and I believe there are war 
crimes involved there by the Azerbaijanis--all of this and so 
much more I hope we will not have under the incoming 
administration.
    President Trump, in my opinion, coddled Erdogan and he 
continued to move forward in all of these pejorative ways, 
including Libya, which I did not mention.
    I hope we have a clear view, a policy, as to what Erdogan 
is, what he is doing, when you can say about Turkey that more 
lawyers and journalists are under arrest in Turkey than in any 
other part of the world, and that is saying something 
considering some parts of the world. So are we clear eyed about 
Turkey under Erdogan?
    Mr. Blinken. We are very clear eyed, and the bottom line is 
that Turkey is an ally that in the many ways you cited is not 
acting as an ally should, and this is a very, very significant 
challenge for us and we are very clear eyed about it.
    Senator Menendez. Just one or two more.
    In your response to Senator Rubio, you mentioned Juan 
Guaido. Would we expect that the Biden administration would 
recognize interim President Juan Guaido as such, by virtue of 
the National Assembly?
    Mr. Blinken. That would be my expectation. I think what we 
want--what we very much want to do is, following up on what 
Senator Rubio was saying, is to come pretty quickly and talk to 
you about the way forward in Venezuela.
    I have to tell you, I am just not satisfied that anyone has 
a good plan that we think can deliver the results that we all 
share and seek. So that is something I would really welcome 
talking about very early on.
    Senator Menendez. As you--as you know, over 50, maybe more, 
nations including most of the European Union recognize interim 
President Guaid cents.
    The problem is we never took that national--international 
recognition and internationalized our efforts on Venezuela, and 
that takes the hard work of diplomacy. So that would be one 
thing I hope we would look at is internationalizing with our 
partners, and also I think the people who are fighting for 
freedom and then, ultimately, have to flee temporary protective 
status for Venezuelans here in the United States should--
    Mr. Blinken. Absolutely. The president-elect is committed 
to that.
    Senator Menendez. Well, that is fantastic to hear.
    Senator Booker, my colleague from New Jersey, raised 
diversity with you. I raised it privately. I am not going to 
pursue it any more, other than to say I take you at your word 
that success in part of your term as the secretary of state 
will be how well we do in that regard.
    This is a long 20-year effort that I have been leading from 
the House and the Senate and, unfortunately, it is probably the 
worst department of all of the federal government's as it 
relates to diversity.
    So I hope that under your leadership we finally make 
progress and show the face to America--I mean, to the world of 
America that it is.
    You know, when I was in China and met with the gentleman 
from our embassy that was involved with human rights in China, 
he was an African-American who had actually engaged in the 
civil rights movement.
    That is a powerful message to Chinese--you know, those who 
are suffering and trying to create human rights in China. It 
was so powerful. I am paraphrasing what happened in the whole 
experience I had when I was there. But that is the type of 
message that I think we need to send.
    I hope that President Biden will follow on his pledge to 
recognize the truth of the Armenian genocide as the Senate did 
when it--- when we passed my resolution in December of 2019. 
The House has done the same. I think this is an appropriate 
action to take in recognition. I find it so difficult to have 
our ambassadors to Armenia go to a genocide observance but 
never say the word genocide, and that is something that I hope 
will change.
    Lastly, this committee has jurisdiction over arms sales and 
the arms sales process--the informal arms sales process under 
the current State Department has totally broken apart.
    I have no--speaking for myself, I have no ideological 
problems with arms sales of U.S. makers to other countries 
abroad when those countries observe the human rights and 
international law that we aspire to uphold globally. When they 
do not, then I have problems with it and that is where dialogue 
has to come in place with the State Department.
    Can I rely upon you to reengage in that informal process 
with the committee on arms sales?
    Mr. Blinken. Yes, you can. We will come back to regular 
order.
    Senator Menendez. Thank you.
    Mr. Chairman, I have received a plethora of letters in 
support of Mr. Blinken's nomination and I would ask at this 
point unanimous consent to enter them into the record, and in 
light of COVID precautions, my staff would email those letters 
to the committee.
    The Chairman. That is acceptable. Without objection.


    [The information referred to is located at the end of this 
transcript.]


    Senator Menendez. My thanks to you, Mr. Chairman. I hope we 
can get Mr. Blinken confirmed either by unanimous consent on 
the floor and that, if not, at the earliest possible date which 
I believe if it is not unanimous consent maybe Monday of next 
week.
    The Chairman. I think we join in that. Just two quick 
things, Mr. Blinken. First of all, I want to associate myself 
with the remarks regarding Turkey. The expressions that the--
that Senator Menendez has laid out have been conveyed by me and 
I think by him also to the--every diplomat we get from Turkey 
and including by myself to Mr. Erdogan directly.
    And as far as Venezuela is concern, I am glad to hear your 
ideas on that. We want to hear some ideas on that because I 
think everybody is frustrated with what we thought was going to 
move very quickly and has not moved quickly. So that demands 
our attention.
    And so I would ask unanimous consent that all responses to 
prehearing and advance policy questions be added to the record. 
If there is no objection, so ordered.
    And then, lastly, for additional questions for the record, 
we have gone back and forth on this. Your staff wanted 9:00 
a.m. My staff wanted 5:00. I think probably an appropriate 
compromise is 1:00 o'clock tomorrow afternoon, if that is 
agreeable with you. So with that, I will order that all 
questions for the record--the record will remain open but close 
at 1:00 o'clock tomorrow afternoon. And with that, again, gosh, 
what great patience you have with us and great stamina. Thank 
you so much, and especially for your wife sitting there through 
all this. That is great, too.
    So thank you.
    Mr. Blinken. Mr. Chairman, thank you--thank you for your 
courtesy. I deeply appreciate it.
    Thank you, Member Menendez. Thank you.
    The Chairman. You are very welcome. And with that the 
committee will be adjourned.
    [Whereupon, at 6:32 p.m., the hearing was adjourned.]



                              ----------                              


=======================================================================


              Additional Material Submitted for the Record

            Statements Submitted to the Committee Supporting

                  Hon. Antony J. Blinken's Nomination

                        to be Secretary of State

         [Submitted for the Record by Senator Robert Menendez]

=======================================================================


 Letter Supporting the Nominations of Hon. Antony J. Blinken and Hon. 
       Linda Thomas-Greenfield--Signed by Former U.S. Ambassadors

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



=======================================================================


           Remarks Made in the Senate by Senator John McCain

             Opposing the Confirmation of Antony J. Blinken

                   to be Deputy Secretary of State\1\
---------------------------------------------------------------------------

    \1\ CONGRESSIONAL RECORD, December 16, 2014, pp. S6892-S6694.

          [Submitted for the Record by Senator John Barrasso]

=======================================================================


                 Remarks Delivered on the Senate Floor 
                     by Senator John McCain (R-AZ)

                           DECEMBER 16, 2014

                              ----------                              

    Mr. McCain. Madam President, I rise to discuss my opposition to the 
pending vote concerning Mr. Anthony ``Tony'' Blinken, who is not only 
unqualified, but, in fact, in my view, one of the worst selections of a 
very bad lot that this President has chosen.
    I hope that many of my colleagues will understand that I do not 
come to the floor to oppose a nomination of the President of the United 
States often because I believe that elections have consequences. In 
this case, this individual has actually been dangerous to America and 
to the young men and women who are fighting and serving our country.
    Mr. Blinken has been a foreign policy adviser to Vice President 
Biden since his days in the Senate, but as Robert Gates has noted, Mr. 
Biden has been ``wrong on nearly every major foreign policy and 
national security issue over the past four decades.''
    At the Special Operations Fund Annual Meeting on May 6, 2013, Mr. 
Blinken discussed a number of the administration's achievements, 
including, one, ending the war in Iraq responsibly; two, setting a 
clear strategy and date for the withdrawal from Afghanistan; three, 
decimating Al Qaeda's senior leadership; and four, repairing our 
alliances and restoring America's standing in the world.
    That is as Orwellian as any statement I have ever heard. Each and 
every issue--the conditions are a far cry from the so-called 
achievements that Mr. Blinken describes.
    In his capacity as an assistant to the President and Deputy 
National Security Adviser, Mr. Blinken has been a functionary and an 
agent of a U.S. foreign policy that has made the world much less safe 
today.
    Let's review some major elements of that policy, and in particular, 
Mr. Blinken's role in conceptualizing and furthering it.
    U.S. foreign policy is in a shambles. It is, at best, astrategic, 
and at worst, antistrategic. It lacks any concept of how to obtain our 
foreign policy goals. This has led to countless foreign policy 
failures, including the continued slaughter of the Syrian people by 
President Bashar al-Assad; the Russian reset that culminated with 
President Putin's invasion of Ukraine; the betrayal of our key allies, 
especially in Central Europe, not to mention Israel; failing to achieve 
a status-of-forces agreement that would help to maintain Iraqi security 
and stability; following similarly unwise strategies in Afghanistan--we 
will see the same movie in Afghanistan that we saw in Iraq if we have a 
date-driven withdrawal rather than a status-driven, conditions-driven 
situation; and our feckless position in negotiations with Iran on 
nuclear weapons that has failed to produce any progress towards an 
agreement.
    I could go into many other failures, such as the vaunted Geneva 
Convention of 40 nations that was supposed to arrange for the 
transition of power from Bashar al-Assad and the object failure of the 
Israeli-Palestinian peace talks, and what will either be an imminent 
failure of an Iranian nuclear weapons agreement or an agreement that 
will be disastrous in the long run.
    There are two common sayings by the administration officials, not 
me, that have defined the President's approach to foreign policy: 
``Leading from behind,'' and ``Don't do stupid [stuff].'' These 
approaches have resulted in a failed foreign policy that has made 
America and Americans less safe.
    Even President Obama's most strident supporters have begun to 
question the President's foreign policy decisions.
    In an article entitled ``Damage to Obama's Foreign Policy Has Been 
Largely Self-Inflicted,'' the Washington Post's David Ignatius, a key 
supporter of the administration's foreign policy goals, wrote, ``At key 
turning points--in Egypt and Libya during the Arab Spring, in Syria, in 
Ukraine, and, yes, in Benghazi--the administration was driven by 
messaging priorities rather than sound, interests-based policy.''
    What has Mr. Blinken had to say about all of these issues, my 
friends? I will give you a few examples.
    On Iraq, at the Center for American Progress, on March 16, 2012--I 
am not making this up--Mr. Blinken said:

          What's beyond debate is that Iraq today is less violent, more 
        democratic and more prosperous--and the United States more 
        deeply engaged there--than at any time in recent history.

    Less violent, more democratic, and more prosperous.
    At a White House briefing on March 16, 2012, Mr. Blinken said:

          President Obama and Vice President Biden came to office with 
        this commitment: To end the Iraq war responsibly.
          Both parts of that sentence are critical.
          End the war.
          Responsibly.
          Under the leadership of President Obama and Vice President 
        Biden, who the President asked to oversee our Iraq policy--and 
        who has made 8 trips to Iraq since being elected--we have 
        followed that path to the letter.

    He went on to say:

          At every significant step along the way, many predicted that 
        the violence would return and Iraq would slide backward toward 
        sectarian war.

    Get this. He said:

          Those predictions proved wrong.

    He went on to say:

          Over the past three years, violence has declined and remains 
        at historic lows--even after we completed the drawdown of U.S. 
        forces late last year.

    Remember, he said this in 2012.

          Weekly security incidents fell from an average of 1,600 in 
        2007-2008 to fewer than 100 today.

    He went on to say:

          And in December, after more than eight wrenching years, 
        President Obama kept his promise to end the war--responsibly.
          And, while Iran and Iraq will inevitably be more intertwined 
        than we, and many of its neighbors, would like, one thing we 
        learned, over more than eight years in Iraq is that the vast 
        majority of its leaders, including the Prime Minister--

    Who at that time was Prime Minister Maliki--

        --are first and foremost Iraqi nationalists and resistant to 
        outside influence from anywhere--starting with Iran.

    Everybody knows that the Iranians are probably the most influential 
nation in Iraq, certainly under Maliki.
    On foreign policy, December 27, 2013, he said:

          If we still had troops in Iraq today, the numbers would have 
        been very small. They would not have been engaged in combat. 
        That would not have been their mission, so the idea that they 
        could or would have done something about the violence that is 
        going on now in Iraq seems, to me, detached from the reality of 
        what the mission would have been had they stayed in any small 
        number.

    Now you don't have to take my word for it. Take the word of 
Secretary Gates, Secretary Panetta, Ambassador Crocker, and any 
knowledgeable person about Iraq, and I will insert their quotes for the 
record, including Ambassador Crocker, who said: ``Of course we could 
have left a residual force behind.'' Both Panetta and Gates said the 
same thing.
    At no time was there a public statement by the President of the 
United States or Mr. Blinken that they wanted to very seriously. In 
fact, they trumpeted the fact that the last American troop at that 
time--now we have many troops back--left Iraq and bragged about what a 
great day it was.
    On Fox News with Chris Wallace, September 28, 2014:

        Wallace:
          Finally, President Obama spoke to the U.N. this week, but I 
        wanted to ask you about his speech to the U.N., saying-- 
        general assembly last year, in which he said we are ending a 
        decade of war. How could the President have been so wrong?

        Blinken:
          The president was exactly right. What we're doing is totally 
        different than the last decade. We're not sending hundreds of 
        thousands of American troops back to Iraq or Afghanistan or 
        anywhere else. We're not going to be spending trillions of 
        American dollars.

        Wallace:
          Mr. Blinken . . . he said all our troops left Iraq. In fact, 
        he has just sent at least 1,600 troops back into Iraq. He said 
        we've dismantled the core of al Qaeda. [And yet,] the Khorasan 
        group which you struck in the first day is an offshoot of the 
        core of al Qaeda, and, in fact, follows the direct orders of 
        the leader of al Qaeda, Ayman al Zawahiri.

        Blinken:
          Chris, they fled. Because we were so successful and effective 
        in Afghanistan and Pakistan, they fled, because we decimated 
        the core of Al Qaeda. They removed themselves. They went to 
        Syria.

    At the Carnegie Endowment for International Peace on October 30, 
2014:

          The White House ``sought to leave a limited residual force'' 
        in Iraq, but the Iraqi Government simply refused to agree to 
        legal protections for such troops, said then-Deputy National 
        Security Adviser Tony Blinken, who argued the final decision to 
        withdraw all U.S. troops ``was not the result of a failure to 
        negotiate.''
          ``It's something we worked very hard,'' he said. ``But . . . 
        after a 10-year `occupation,' the Iraqi body politic did not 
        want us to stay in Iraq. That's what happened'' . . . We were 
        focused and acting on ISIL and the threat that it posed more 
        than 1 year before the fall of Mosul, but the problem began to 
        outrun the solution fueled by the conflict in Syria, Iraqi 
        reluctance, and renewed sectarianism in Iraq in advance of 
        elections with politicians on all sides playing to their bases.

    Statements such as these are so divorced from reality, one can only 
draw one of two conclusions: either that Mr. Blinken is abysmally 
ignorant or he is simply not telling the truth for whatever motive 
there is.
    By the way, here is what Ryan Crocker said on Iraq:

          As a former ambassador to Iraq from 2007 to 2009, do you 
        think it was a mistake not to push hard for the Status of 
        Forces agreement with Iraq before the U.S. pullout?

    I would remind my colleagues, Ryan Crocker--probably the most 
respected member of our diplomatic corps alive today--said:

          I do. We could have gotten that agreement if we had been a 
        little more persistent, flexible, and creative. But what really 
        cost us was the political withdrawal. We cut off high- level 
        political engagement with Iraq when we withdrew our troops. 
        There were no senior visits, very few phone calls. Secretary of 
        State John Kerry made one visit prior to this current crisis, 
        mainly to lecture the Iraqis on how bad they were being for 
        facilitating Iranian weapon shipments to Syrian president 
        Bashar al-Assad. And we left them to their own devices, knowing 
        that left to their own devices, it would not work out well.

    So we have Mr. Blinken's comments, and juxtapose them with those of 
Ambassador Crocker.
    Here is what Leon Panetta, Democrat, Secretary of Defense said:

          It was clear to me--and many others--that withdrawing all our 
        forces would endanger the fragile stability then barely holding 
        Iraq together.

    That is from Secretary Leon Panetta's book.
    Then he went on to say:

          My fear, as I voiced to the President and others, was that if 
        the country split apart or slid back into the violence that 
        we'd seen in the years immediately following the U.S. invasion, 
        it could become a new haven for terrorists to plot attacks 
        against the U.S. Iraq's stability was not only in Iraq's 
        interest but also in ours. I privately and publicly advocated 
        for a residual force that could provide training and security 
        for Iraq's military.

    Then he went on to say, talking about the Pentagon:

          Those on our side viewed the White House as so eager to rid 
        itself of Iraq that it was willing to withdraw rather than lock 
        in arrangements that would preserve our influence and 
        interests.

    That is a statement by Leon Panetta.
    I will move on to Afghanistan.
    Mr. Blinken said:

          We have been very clear. We have been consistent. The war 
        will be concluded by the end of 2014. We have a timetable, and 
        that timetable will not change.

    This is why I am so worried about him being in the position he is 
in, because if they stick to that timetable, I am telling my colleagues 
that we will see the replay of Iraq all over again. We must leave a 
stabilizing force behind of a few thousand troops or we will see again 
what we saw in Iraq.
    So let's move on to Syria.
    In an MSNBC interview in 2014, responding to a question about 
President Obama's comment in August 2014 calling it ``a fantasy'' to 
say that arming the Syrian rebels 3 years ago would have helped the 
situation, Blinken:

          Fantasy was the notion that had we started to work with these 
        guys--

    Talking about the Free Syrian Army--

        six months earlier, that that somehow would have turned the 
        tide.

        Blinken:
          Candy, you know, Assad has been a magnet for the very 
        extremism we're now fighting against. And it is inconceivable 
        to think of Syria being stable with Assad as its leader. He has 
        forfeited his legitimacy. ISIL right now is the wolf at the 
        door. But the answer to both Assad and ISIL actually is the 
        moderate opposition. They need to be built up, so that they can 
        be a counterweight to Assad. In the near term, they need to be 
        built up so they can work on the ground to help deal with ISIL.

        Candy Crowley:
          So ISIS is the wolf at the door now, but Assad, as far as the 
        U.S. is concerned, is the next wolf at the door?

        Mr. Blinken:
          We have been very clear that there needs to be a transition 
        in Syria, that as long as Assad is there, it's very hard to see 
        Syria being stable, and he will continue to be a magnet for the 
        extremists we are fighting.

        Crowley:
          But a transition is not the same as, we will actively help 
        you bring this guy down.

        Blinken:
          The best way to deal with Assad is to transition him out so 
        that the moderate opposition can fill the vacuum. That's what 
        we have been working on. The more you build them up, the more 
        you make them a counterweight, the more possible that becomes.

    Let me just remind my colleagues of what has happened. There is a 
guy named Caesar who about a year and a half ago smuggled out thousands 
of pictures. These pictures are the most gripping and horrifying I have 
ever seen. They were actual pictures which have been authenticated of 
the atrocities committed by Bashar Assad. They are wrenching, they are 
heartbreaking, and they are terrible.
    Now, 200,000 people have been butchered in Syria, and 3.5 million 
are refugees; 150,000 are still in Bashar Assad's prison experiencing 
atrocities such as this. These are little children here. These are 
little children. They have been massacred by Bashar Assad.
    What have we done? What have we done in response to this? First of 
all, amazingly, these photographs have been authenticated by this guy 
Caesar. He did testify before the House Foreign Affairs Committee. It 
didn't seem to rise to the interest of the Senate Foreign Affairs 
Committee or the American people or this administration.
    I was at a refugee camp in Jordan where at that time there were, I 
think, 75,000 refugees. I was being taken around by a young woman who 
was a schoolteacher, and she said:

          Senator McCain, do you see all of these children?
    I said: Yes.
          She said: Those children believe that you have abandoned 
        them, Senator McCain, that you Americans have abandoned them, 
        and when they grow up, they are going to take revenge on you.

    So here we are, this incredible slaughter, massacre, torture taking 
place, and what is this administration doing? It is trying to make a 
deal with the Iranians and leaving Bashar Assad to wreak havoc on the 
Syrian people who are still able to fight, butchering them with barrel 
bombs. Most of my colleagues know what a barrel bomb is. It is a huge 
cylinder, and it is packed with explosives and nuts and bolts and 
pieces of shrapnell. Bashar Assad, unimpeded, flies his helicopters and 
they drop these barrel bombs. Then, when they capture these people, 
this is what is done to them.
    Today it is clear that what is happening is that we are attacking 
ISIS in Syria. We are not attacking Bashar Assad, this butcher. In 
fact, Bashar Assad has intensified his attacks on the Free Syrian 
Army--intensified them. Not surprisingly, the morale of the Free Syrian 
Army is very low.
    So General Allen and others have recently proposed a no-fly zone or 
an aircraft exclusion zone, an idea we have been arguing for, for about 
3 years. This President still refuses to do it. It is heartbreaking. It 
is heartbreaking and it is tragic and it will go down in American 
history as one of the most shameful chapters because of our failure and 
the President's personal decision not to arm the Free Syrian Army when 
all of his key national security advisers--his Secretary of State, 
Hillary Clinton; the head of the CIA, General Petraeus; and Secretary 
of Defense, Secretary Panetta all strongly recommended providing arms 
to the Free Syrian Army.
    I will move on to Ukraine. Mr. Blinken:

          What Putin has seen is the President mobilizing the 
        international community both in support of Ukraine and to 
        isolate Russia for its actions in Ukraine, and Russia is paying 
        a clear cost for that.
          The notion that this is somehow the result of Syria makes 
        very little sense to me. . . . That's because this is not about 
        what we do or say in the first instance, it's about Russia and 
        its perceived interests.

    What Mr. Blinken doesn't understand is that weakness in one place 
translates throughout the world.
    When I tell my colleagues, when I tell my fellow citizens that we 
will not supply the Ukraine people with defensive weapons, they don't 
believe me. They have watched the country dismembered. They have 
watched Crimea go. They have watched the shoot-down on an airliner that 
nobody talks about anymore, and they continue to create unrest and 
killing in eastern Ukraine, and we will not even supply the Ukrainians 
with weapons with which to defend themselves.
    I see that I am nearly out of time. I would like to say I wish Mr. 
Blinken's words were matched by his deeds.
    At the Holocaust Museum, October 6, 2014, he said:

          A new notion is gaining currency: the ``Responsibility to 
        Protect.'' It holds that states have responsibilities as well 
        as interests--especially the responsibility to shield their own 
        populations from the depraved and murderous. This approach is 
        bold. It is important. And the United States welcomes it and 
        has included it as a core element of our National Security 
        Strategy, along with our commitment to prevent genocide and 
        hold those who organize atrocities accountable.

    No one can look at those pictures, the thousands, and believe that 
we have held Bashar Assad responsible.
    He ended up by saying:

          Endorsing the responsibility to protect is one thing; acting 
        on it is another. All of us in the international community will 
        have to muster the political will to act-- diplomatically, 
        economically, or, in extreme cases, militarily--when 
        governments prove unable or unwilling to prevent the slaughter 
        of their citizens.

    That is a remarkable statement from an individual whose actions 
have clearly contradicted that at every turn in literally every corner 
of the Earth.
    I know we will probably lose the vote, but I believe history will 
hold this administration accountable. History will hold those 
individuals who are part of this administration, who allowed these 
slaughters to go on--a dismemberment of a country called Ukraine, the 
first time a European country has been departitioned since World War 
II; the needless slaughter of thousands and thousands of Ukrainian men, 
women, and children, and the thousands and thousands of Syrian 
children. The list goes on and on.
    Now we are going to promote this individual to replace probably the 
finest diplomat I have known, Secretary Burns. Not only is Mr. Blinken 
unqualified, but he is, I believe, a threat to the traditional 
interests and values that embody the United States of America.
    Madam President, I yield the floor, and I suggest the absence of a 
quorum.

                               __________

=======================================================================


                         Responses to Questions

                   Submitted Prior to the Hearing of

               January 19, 2021 to Hon. Antony J. Blinken

                       by Senator James E. Risch

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	                                     

=======================================================================


                    Responses to Follow-Up Questions

                   Submitted Prior to the Hearing of

               January 19, 2021 to Hon. Antony J. Blinken

                       by Senator James E. Risch

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
                                     

=======================================================================


             Questions Submitted to Hon. Antony J. Blinken

                     by Senator James E. Risch \1\
---------------------------------------------------------------------------

    \1\ These are the questions as originally formatted and submitted. 
Secretary-Designate Blinken's responses are not included here.

          [Questions as Originally Submitted--Questions Only]

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	



=======================================================================


                    Responses to Questions Submitted

                       to Hon. Antony J. Blinken

                       by Senator James E. Risch

             Secretary-Designate Blinken's First Responses 
                    to Senator Risch's Questions\1\
---------------------------------------------------------------------------

    \1\ These responses were not formatted with the same numbering 
system as we had submitted them. Certain parts of questions were 
rearranged into other questions or other parts of the document. Also, 
entire questions were missing.--Senator Risch's staff.
---------------------------------------------------------------------------
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


=======================================================================


                         Responses to Questions

                         [Questions #1 to #167]

                  Submitted to Hon. Antony J. Blinken

                       by Senator James E. Risch

          Secretary-Designate Blinken's Reformatted Questions 
                and Responses [continued in Part II] \1\
---------------------------------------------------------------------------

    \1\ The first set of responses were considered unacceptable [see 
the footnote on page 281 for a more detailed explanation]. The State 
Department offered to reformat what the Transition Team had sent into 
the numbering system used in the as-submitted Risch QFRs. These 
responses were not substantively different from what the Transition 
Team had sent. This also included the questions that had been omitted 
from the first response document.
---------------------------------------------------------------------------
=======================================================================


    [Printer's note: The questions and responses that follow 
are copies of the original material received by the committee. 
Throughout, there are a few blank pages, as well as consecutive 
short pages with very little text. These pages appeared in the 
original documents received from the Department of State and 
are the result of typing errors. They are not an indication of 
an incomplete response.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                [This section is continued in Part II.]


                                 [all]
</pre></body></html>
